<html>
<title> - LESSONS LEARNED FROM THE ATTACK ON U.S.S. COLE, ON THE REPORT OF THE CROUCH-GEHMAN COMMISSION, AND ON THE NAVY'S JUDGE ADVOCATE GENERAL MANUAL INVESTIGATION INTO THE ATTACK, INCLUDING A REVIEW OF APPROPRIATE STANDARDS OF ACCOUNTABILITY FOR U.S. MILITARY SERVICES</title>
<body><pre>[Senate Hearing 107-609]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 107-609
 
 LESSONS LEARNED FROM THE ATTACK ON U.S.S. COLE, ON THE REPORT OF THE 
  CROUCH-GEHMAN COMMISSION, AND ON THE NAVY'S JUDGE ADVOCATE GENERAL 
MANUAL INVESTIGATION INTO THE ATTACK, INCLUDING A REVIEW OF APPROPRIATE 
         STANDARDS OF ACCOUNTABILITY FOR U.S. MILITARY SERVICES

=======================================================================

                                HEARING

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 3, 2001

                               __________

         Printed for the use of the Committee on Armed Services

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

81-231 PDF                       WASHINGTON : 2002 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 



  





























                      COMMITTEE ON ARMED SERVICES

                    JOHN WARNER, Virginia, Chairman

STROM THURMOND, South Carolina       CARL LEVIN, Michigan
JOHN McCAIN, Arizona                 EDWARD M. KENNEDY, Massachusetts
BOB SMITH, New Hampshire             ROBERT C. BYRD, West Virginia
JAMES M. INHOFE, Oklahoma            JOSEPH I. LIEBERMAN, Connecticut
RICK SANTORUM, Pennsylvania          MAX CLELAND, Georgia
PAT ROBERTS, Kansas                  MARY L. LANDRIEU, Louisiana
WAYNE ALLARD, Colorado               JACK REED, Rhode Island
TIM HUTCHINSON, Arkansas             DANIEL K. AKAKA, Hawaii
JEFF SESSIONS, Alabama               BILL NELSON, Florida
SUSAN COLLINS, Maine                 E. BENJAMIN NELSON, Nebraska
JIM BUNNING, Kentucky                JEAN CARNAHAN, Missouri
                                     MARK DAYTON, Minnesota

                      Les Brownlee, Staff Director

            David S. Lyles, Staff Director for the Minority

                                  (ii)

  



















                            C O N T E N T S

                               __________

                    CHRONOLOGICAL LIST OF WITNESSES

 Lessons Learned from the Attack on U.S.S. Cole, on the Report of the 
  Crouch-Gehman Commission, and on the Navy's Judge Advocate General 
Manual Investigation into the Attack, Including a Review of Appropriate 
         Standards of Accountability for U.S. Military Services

                              may 3, 2001

                                                                   Page

Shelton, Gen. Henry H., U.S. Army, Chairman, Joint Chiefs of 
  Staff..........................................................     9
Clark, Adm. Vernon E., U.S. Navy, Chief of Naval Operations......    23
Robertson, Gen. Charles T., Jr., USAF, Commander in Chief, U.S. 
  Transportation Command.........................................    27

                                 (iii)
                                     



 LESSONS LEARNED FROM THE ATTACK ON U.S.S. COLE, ON THE REPORT OF THE 
  CROUCH-GEHMAN COMMISSION, AND ON THE NAVY'S JUDGE ADVOCATE GENERAL 
MANUAL INVESTIGATION INTO THE ATTACK, INCLUDING A REVIEW OF APPROPRIATE 
         STANDARDS OF ACCOUNTABILITY FOR U.S. MILITARY SERVICES

                              ----------                              


                         THURSDAY, MAY 3, 2001

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:34 a.m. in room 
SD-106, Dirksen Senate Office Building, Senator John Warner 
(chairman) presiding.
    Committee members present: Senators Warner, Roberts, 
Allard, Sessions, Bunning, Levin, Landrieu, Bill Nelson, and E. 
Benjamin Nelson.
    Committee staff members present: Romie L. Brownlee, staff 
director; Judith A. Ansley, deputy staff director; and Scott W. 
Stucky, general counsel.
    Professional staff members present: Charles W. Alsup, 
Edward H. Edens IV, Gary M. Hall, George W. Lauffer, and Joseph 
T. Sixeas.
    Minority staff members present: David S. Lyles, minority 
staff director; Richard D. DeBobes, minority counsel; Peter K. 
Levine, minority counsel; and Creighton Greene, professional 
staff member.
    Staff assistants present: Kristi M. Freddo, Shekinah Z. 
Hill, Thomas C. Moore, and Suzanne K.L. Ross.
    Committee members' assistants present: Dan Twining and Mark 
Salter, assistants to Senator McCain; Margaret Hemenway, 
assistant to Senator Smith; George M. Bernier III, assistant to 
Senator Santorum; Robert Alan McCurry, assistant to Senator 
Roberts; Arch Galloway II, assistant to Senator Sessions; 
Kristine Fauser, assistant to Senator Collins; Derek Maurer, 
assistant to Senator Bunning; Menda S. Fife, assistant to 
Senator Kennedy; Barry Gene [B.G.] Wright and Erik Raven, 
assistants to Senator Byrd; William K. Sutey, assistant to 
Senator Bill Nelson; and Eric Pierce, assistant to Senator Ben 
Nelson.

       OPENING STATEMENT OF SENATOR JOHN WARNER, CHAIRMAN

    Chairman Warner. This hearing will come to order. The 
committee meets this morning to continue the committee's review 
of the October 12, 2000, terrorist attack on the U.S.S. Cole in 
the port of Aden, Yemen, resulting in the deaths of 17 brave 
American sailors. This attack was a vivid reminder of the risks 
our men and women in uniform face on a daily basis in much of 
the world. They do so to protect our freedom and that of our 
allies and friends around this troubled world.
    The attack was also a warning of the ever-prevalent 
reported threat to our forces and the urgent need, constant 
need, to monitor and to improve force protection measures to 
deter and hopefully combat that threat.
    The committee began its series of hearings on the issues 
related to the Cole on October 19. That day we received 
testimony from the former Commander in Chief of the U.S. 
Central Command, General Zinni, who was indeed commander at the 
time the decision was made at the end of 1998 to use Yemen as a 
refueling stop for U.S. naval ships.
    In those early days following the attack, the committee and 
indeed many Americans were asking the question, why Yemen? 
Questions remain to this day, why Yemen?
    On October 20 the committee conducted a closed hearing to 
receive testimony from the intelligence community, followed by 
an open and closed hearing on October 25, during which time 
Congress received its first public testimony from 
administration witnesses on this tragedy. Note that one of our 
witnesses this morning, Admiral Clark, was a witness during the 
closed portion of the hearing on October 25.
    As I said during these earlier hearings on the Cole, 
Congress and this committee has constitutional responsibility 
for the safety and the welfare of the men and women of the 
Armed Forces, as well as their families, wherever they are in 
the world. The oversight hearings we have conducted and 
continue to conduct regarding the attack on the Cole are a 
vital part of this process.
    This morning the committee will receive testimony from the 
Chairman of the Joint Chiefs of Staff, General Shelton; the 
Chief of Naval Operations, Admiral Clark; and the Commander in 
Chief of the U.S. Transportation Command, General Robertson. We 
welcome you this morning.
    In the immediate aftermath on the U.S.S. Cole, two primary 
investigations were launched by the Department of Defense: 
first, an investigation of the actions of the commanding 
officer and crew of the Cole, conducted by the Navy under the 
Manual of the Judge Advocate General, called the JAGMAN 
investigation; and second, a lessons learned inquiry conducted 
by General Crouch and Admiral Gehman at the request of 
Secretary of Defense Cohen.
    Both of these reviews were completed in January, just prior 
to the change of administrations. While the committee has had a 
number of closed briefings on the Crouch-Gehman report, today 
is the first open congressional hearing to look into the 
results and also to receive the comments from our distinguished 
panel of witnesses this morning.
    A primary focus of this committee's efforts is on the 
lessons learned from the attack on the Cole: what went wrong 
and how can we lessen, indeed if not prevent, the recurrence of 
a similar tragic attack in the future, whether at sea or on 
land? The Crouch-Gehman report summed up the main lessons 
learned by stating: ``The attack on U.S.S. Cole (DDG-67) in the 
port of Aden, Yemen on 12 October 2000 demonstrated a seam''--
that is s-e-a-m; it is an unusual word, but I am quoting it--
``a seam in the fabric of efforts to protect our forces, namely 
in transit forces.''
    The report lists 30 findings and associated recommendations 
intended to ``reduce those vulnerabilities.'' We look to our 
witnesses to give us their assessment of the recommendations 
contained in the Crouch-Gehman report, as well as a status 
report on the implementation of those recommendations and any 
others that have been identified subsequently.
    An important element of any lessons learned review is an 
accurate and thorough examination of the actions of all the 
individuals involved in the given incident, both those at the 
scene and those within the chain of command. If there were 
actions incompatible with accepted standards, individuals must 
be held accountable. Without such proper accountability, we run 
the risk of repeating such tragedies and sending the wrong 
message to our commanding officers and all their subordinates. 
If we are to expect commanders to demand the highest standards 
of themselves and those serving in their command, do we not 
have to ensure that institutional values and expectations are 
consistently and fully applied?
    Naval services have traditions that go far back into 
history. The ship is an island of the sovereign nation whose 
flag it proudly flies. The commanding officer throughout 
history has been given unquestioned authority and the 
concomitant of unquestioned accountability. It was understood 
that the commanding officer of a ship was responsible and 
ultimately held accountable for anything that happened on his 
or her watch. I guess the fundamental question we have this 
morning--and I say so most respectfully--has that standard 
changed from these generations of our naval service?
    Clearly, every situation is unique and has to be judged on 
its individual merits. Just as clearly, military personnel in 
positions of responsibility must be accountable for their 
actions or their failure to act if we are to maintain the order 
and discipline essential to successful military operations, as 
well as, most importantly, the safety of all those in uniform. 
Again, has that changed?
    In the case of the Cole, the report of the JAGMAN 
investigation officer was clear, it was precise, and in my 
personal judgment it was a professional job. Well done. The 
report found that instructions, directives, and orders issued 
by the Chief of Naval Operations and the Central Command had 
been violated. In fact, the report stated the failure by the 
commanding officer to implement half of the required 62 force 
protection measures.
    Further, according to the investigating officer there were 
19 force protection measures that could possibly have prevented 
or at a minimum mitigated the effect of the attack on the 
U.S.S. Cole. Of these 19 measures, only 7 were implemented by 
the commanding officer of the Cole and his crew.
    In accordance with the JAGMAN instructions, these findings 
were reviewed by Admiral Moore, Central Command's Naval 
Component Commander, Admiral Natter, Commander in Chief, U.S. 
Atlantic Fleet, and the distinguished Chief of Naval 
Operations, Admiral Clark, as well as the Secretary of the 
Navy, and indeed the Secretary of Defense. In the process of 
the review by the aforementioned experienced professionals, 
there appears to me to have been a progressive disagreement 
with the initial findings and recommendations of the 
investigating officer. In fact, Admiral Natter stated that even 
if all of the force protection measures had been implemented, 
the measures ``would not have detected, deterred, or thwarted 
the attack on the U.S.S. Cole.''
    A purpose of this hearing is to review this series of 
professional judgments and to receive your views. Are actions 
by a commanding officer not in compliance with rules, 
regulations, and military orders acceptable as long as a 
subsequent determination can be made that such actions did not 
cause the incident under investigation? That seems to me to be 
the fundamental question.
    Is this the proper standard to use in judging the 
performance of a commanding officer? What message does that 
send to the commanding officers and their subordinates 
operating on the high seas the world over? Indeed I think this 
case is viewed by all services and those in command, so it is 
not just restricted to the Navy. As Congress and the American 
people review the results of the Navy's JAGMAN investigation 
and the subsequent review process by senior officials, we ask 
what is the level of accountability that was or was not 
established? Again, have our standards changed from this long 
history of American men and women in uniform?
    Seventeen sailors lost their lives. Families are left to 
bear grief. A heavily damaged ship is being repaired at a high 
cost to the American taxpayer. So many shortfalls in the 
performance of those aboard the Cole were identified, and the 
CNO indeed stated, and I quote you, Admiral: ``I am not 
completely satisfied with the commanding officer's 
performance.''
    We do not find--and we are subject to being corrected--a 
single disciplinary action of any kind was taken in this 
incident. Secretary Cohen indeed issued a statement as his last 
action in office essentially declaring shared accountability 
for all those with responsibility for force protection on the 
Cole. Is the net effect, I ask respectfully, of these actions 
by these reviewing officials to hold no one accountable?
    While it is not directly the subject of this hearing, the 
accountability determination in the Greeneville case is 
relevant. Despite the finding of a substantial number of 
irregularities and failure to follow established procedures and 
regulations on the part of the commanding officer, the CO of 
the Greeneville received only a letter of reprimand, an 
honorable discharge, and he retained his full retirement 
benefits. Again the question, is there adequacy of this level 
of accountability in this case and is it consistent with the 
traditions of the accountability of ship captains for 
generations?
    This is not a hearing that any of us have looked forward 
to, but it is the responsibility of this committee and indeed 
Congress, as a co-equal but separate part of this government, 
to review the actions of the Executive Branch taken as a 
consequence of these two tragic accidents. It is our 
constitutional duty and responsibility to do that. We have that 
obligation, which we are going to try and fulfill as fairly, as 
objectively, and as impartially as we can today.
    At this point, I would like to include for the record the 
statements of Senator Thurmond, Senator Santorum, and Senator 
Sessions.
    [The prepared statements of Senator Thurmond, Senator 
Santorum, and Senator Sessions follow:]
              Prepared Statement by Senator Strom Thurmond
    Thank you, Mr. Chairman. Mr. Chairman, the attack on the U.S.S. 
Cole was one of the most heinous attacks against the United States and 
our military personnel. Unfortunately, history shows us that as long as 
the United States is engaged around the world, especially in the 
troubled spots, we will be subjected to these types of attacks. Our 
responsibility in this regard is two-fold. First, we must ensure that 
our citizens, both in and out of uniform, are adequately protected. 
Second, we must not succumb to these threats and shirk our global 
responsibilities.
    Mr. Chairman, after the Beirut bombing, the Khobar Towers attack, 
and now with the U.S.S. Cole incident, there have been in-depth 
investigations and extensive lists of lessons learned. Although each of 
these tragic events resulted in significant improvements in protecting 
our service members, investigations of subsequent attacks always 
determined lapses in security, as did the Crouch-Gehman Commission, 
when it stated: ``The attack on U.S.S. Cole. . . demonstrated a seam in 
the fabric of efforts to protect our forces.'' In my judgment, 
protecting our forces against a determined terrorist is virtually 
impossible. However, instilling a constant sense of awareness of the 
threat is possible. To instill that awareness requires leadership and 
responsibility. I believe that the most important lesson that we should 
have learned from the Cole incident is that an organization does well 
only those things that the leader checks. To again quote from the 
U.S.S. Cole Commission Report: ``Conducting engagement activities in 
higher threat areas in support of National Security Strategy and 
National Military Strategy requires completely coordinated priorities, 
policies and oversight at all levels.'' I repeat ``at all levels.''
    Mr. Chairman, I look forward to hearing from General Shelton and 
Admiral Clark on how they will carry out the lessons learned from the 
U.S.S. Cole attack. I am confident that the steps they take will 
improve the security of our soldiers, sailors, airmen, and marines. 
However, all these improvements will be for naught until we hold 
accountable those individuals at all levels in whose hands we trust the 
well-being and safety of this Nation's greatest treasure, the young men 
and women in uniform. Regrettably, I have not seen such accountability.
    Thank you, Mr. Chairman.
                                 ______
                                 
              Prepared Statement by Senator Rick Santorum
    Chairman Warner, thank you for scheduling this important hearing on 
the lessons learned from the terrorist attack on the U.S.S. Cole. I 
know that members of this committee appreciate the insight to be 
offered by General Shelton, Admiral Clark, and General Robertson on 
ways to improve our antiterrorism and force protection capabilities. 
The committee also looks forward to hearing from General Shelton and 
Admiral Clark on the issue of accountability with respect to the attack 
on the U.S.S. Cole.
    As Admiral Clark indicated in his prepared remarks, our Nation's 
forward deployed forces operate in a dangerous environment. This is a 
regrettable but realistic assessment. The United States cannot hope to 
support our national security requirements and foreign policy 
objectives without the benefit of forward deployed forces. I believe 
that Admiral Clark is correct in assuming that it is only a matter of 
time until the next terrorist attack is attempted against our military 
forces. Therefore, we need to be vigilant in addressing our 
antiterrorism and force protection deficiencies. We need to provide our 
commanders with the tools and the intelligence necessary to thwart 
these asymmetric threats.
    The work of General Crouch and Admiral Gehman has helped all of us 
focus on those force protection areas most in need of attention. Their 
review of the attack on the U.S.S. Cole was particularly insightful 
with respect to the need to provide force protection to in-transit 
forces and with respect to doing a better job of tailoring intelligence 
information to meet the specific needs of our military commanders.
    I look forward to the testimony of General Shelton and his 
assessment of where we are with respect to the fielding of new 
technologies to help our commanders mitigate against terrorist threats. 
I am eager to learn if General Shelton believes we are making 
appropriate science and technology program investments to counter 
current and future terrorist threats. I also look forward to General 
Robertson's assessment of how we can better provide force protection 
for our Military Sealift Command vessels and crew members as well as 
those Civil Reserve Air Fleet and Voluntary Intermodal Sealift 
Agreement commercial carriers--carriers that provide crucial air and 
sealift capabilities for our military forces.
    Again, thank you Mr. Chairman for convening this hearing and I look 
forward to the testimony of today's distinguished panel of witnesses.
                                 ______
                                 
              Prepared Statement by Senator Jeff Sessions
    The U.S.S. Cole was attacked, in port Aden, Yemen without warning 
on October 12, 2000. I want to thank General Shelton, Admiral Clark, 
and General Robertson for taking the time out of their busy schedules 
to testify before us today. General Robertson, I also want to thank you 
for the testimony you provided to the Seapower Subcommittee just 2 
weeks ago. It is good to see you again.
    First, and most importantly, I want to express my sympathy to the 
families, shipmates, and friends of those men and women who were killed 
and injured by the cowardly attack on the U.S.S. Cole. The crew's 
heroic actions after the attack prevented their ship from sinking. They 
also administered the first aid that saved the lives of many injured 
shipmates. The crew's dogged determination and courageous actions were 
in keeping with the highest traditions of the Naval service.
    The Cole stopped in Aden to refuel en route to the Persian Gulf. 
When attacked, U.S.S. Cole was in the Commander in Chief of the Central 
Command's area of responsibility and was under the immediate command of 
the Commander of the Abraham Lincoln Battle Group, Task Force 50, who 
in turn, reported to the Commander of the Fifth Fleet, the Naval 
Component Commander for the CINC of the Central Command. We will be 
exploring issues today to clarify questions that remain so we can 
fulfill our oversight responsibilities for future systems and policies.
    The overall accountability and standards of performance for 
commanders which have been brought to world-wide attention by both the 
U.S.S. Cole and the U.S.S. Greeneville investigations, concern me. It 
appears that standards of personal accountability are drifting away 
from the age-old rule of determining if an individual and the people he 
or she is responsible for carried out legal orders, followed 
established procedures, and reported with utmost integrity. There 
appears to be an emerging new standard of assessing the results of an 
incident and then overlaying a range of performance parameters both of 
which cloud the lines of accountability and responsibility.
    There are a number of troubling questions that remain to be 
answered, and I hope the committee will get at these issues today.

        <bullet> Why wasn't the Judge Advocate General Manual 
        investigation being conducted by an 0-6 elevated to a board of 
        inquiry by officers senior to the operational commanders 
        responsible for U.S.S. Cole?
        <bullet> Although the Commander of the Fifth Fleet stated in 
        his endorsement to the investigation, ``other investigative 
        queries and additional crew interviews will undoubtedly 
        establish a fuller picture of the events . . .'' and the Chief 
        of Naval Operations stated in his endorsement, ``separate 
        action will be taken to assess the accountability of others in 
        the chain of command,'' it is not apparent that any follow-up 
        was done to assess the accountability of the operational 
        commander who made, Commander of Fifth Fleet assessed, a 
        ``perfunctory . . . review'' of the Cole's force protection 
        plan. Has U.S.S. Cole's operational chain of command's 
        responsibility and accountability for force protection been 
        assessed?
        <bullet> During my recent visit to the Fifth Fleet in Bahrain, 
        I observed two extremes in force protection: the high end was 
        the Marine Corps Fleet Antiterrorism Security Team and the low 
        end was a pier sentry from a U.S. Navy ship that had poorly-
        fitting equipment and did not project a well-equipped sentry 
        that would be a deterrent to a terrorist. Who is the Navy 
        tasking to provide force protection duties? Are they trained 
        and equipped for that role or are they sailors with good 
        intentions that are highly skilled technicians who should be 
        repairing equipment?
        <bullet> In sharing responsibility and accountability, has the 
        chain of command provided the training, equipment, and 
        personnel required to minimize the opportunity for attacks on 
        our men and women and material?
        <bullet> Have damage control lessons learned been fed back to 
        fleet units and training facilities?
        <bullet> Have ships been provided the equipment needed for 
        force protection or have the ships had to sacrifice ship 
        maintenance funds to buy equipment?
        <bullet> Has the chain of command ensured that the ships that 
        provided U.S.S. Cole with emergency equipment and expendable 
        material have replaced that equipment and are carrying their 
        full complement of damage control equipment and expendables?
        <bullet> Are damage control equipment problem areas specific to 
        U.S.S. Cole or are they applicable to other ships? If the 
        problems are applicable to other ships, what is being done to 
        prevent reoccurrence?

    My task as Seapower Subcommittee chair, along with other members of 
our subcommittee, is to ensure the Cole lessons learned are reflected 
in ship construction requirements, ship modification requirements, and 
force protection equipment requirements for Navy ships. Then it is our 
task to assess the Navy's intentions to meet those requirements. We do 
not presently have the information required to make those assessments. 
The Navy has not been forthcoming with the information in these areas 
to do the preliminary work needed prior to reviewing the fiscal year 
2002 budget request. I thank the chair and our witnesses for appearing 
before us today.

    Chairman Warner. Senator Levin.

                STATEMENT OF SENATOR CARL LEVIN

    Senator Levin. Thank you, Mr. Chairman.
    This hearing takes place 3 days after the release of the 
State Department's report called ``Patterns of Global Terrorism 
for the Year 2000.'' Secretary Powell noted in his report: 
``The year began on a positive note, with the thwarting of an 
attempt by international terrorists to carry explosives across 
the U.S.-Canadian border, thus averting a millennium-related 
attack.'' But tragically, as the year drew to a close we 
experienced the loss of 17 sailors and injuries to 42 others in 
the October 12 terrorist attack on the U.S.S. Cole.
    The Director of the Defense Intelligence Agency, Vice 
Admiral Thomas Wilson, told the committee earlier this year 
that: ``Terrorism remains the most significant asymmetric 
threat to our interests at home and abroad. This threat will 
grow as disgruntled groups and individuals focus on America as 
the source of their troubles. Our overseas military presence 
and our military's status as a symbol of U.S. power, interest, 
and influence can make it a target.''
    In his transmittal letter to the President on the report of 
the Downing task force assessment of the June 25, 1996, attack 
on Khobar Towers, then-Secretary of Defense Bill Perry wrote: 
``To face threats of this sophistication, all our leaders, 
civilian and military, must adopt a radically new mind set with 
regard to international terrorism.'' Despite that statement, as 
then-Secretary of Defense Bill Cohen noted in his memorandum of 
January 19 regarding the attack on the U.S.S. Cole: ``In this 
instance none of us in the chain of command fully appreciated 
the danger that our in-transit naval forces faced from a 
waterborne threat in restricted waters, such as during a port 
call or refueling stop.''
    Now, with those statements as background, I think it is 
surely obvious that we must ensure that we learn the proper 
lessons from the attack on the U.S.S. Cole and that we commit 
ourselves to do everything in our power to deter and, if 
necessary, defeat attempts at terrorist attacks on our military 
forces, including our transitting military forces. We have to 
ensure that such a commitment is not mere words, but a true, 
lasting, and effective commitment.
    One important way of learning the lessons involved in this 
or any other incident is to conduct a comprehensive 
investigation to ascertain what was done and what was not done 
at each level of command and to determine accountability as 
appropriate. In that regard, I am concerned that in this case, 
despite a high-powered commission and a Navy investigation, 
that there was no comprehensive effort to look at the actions 
or inactions of several layers of command above the ship 
itself.
    Finally, we are indebted to General Crouch and Admiral 
Gehman for the outstanding job that they did in assessing the 
lessons from the attack on the U.S.S. Cole and in making 
recommendations for the way ahead. They did not focus on 
accountability. That was not their job. They looked at lessons 
learned to try to prevent these kind of future tragedies. They 
provided us a classified briefing some time ago and impressed 
us all with their cogent and wise assessment and 
recommendations.
    So I want to join our chairman in stating just how 
important this hearing is today. The subjects are of extreme 
import. I cannot think of any issues that are really more 
important than trying to assure that we have accountability so 
that our men and women in service are protected from these kind 
of attacks. I know our witnesses are the first to join in that 
belief. I do not know of any witnesses who feel more keenly 
about the kind of responsibility and accountability that is so 
essential if we are going to carry out our missions with 
maximum safety for our forces.
    I want to welcome all of these witnesses today.
    At this time, I would like to submit for the record a 
statement by Senator Landrieu.
    [The prepared statement of Senator Landrieu follows:]
             Prepared Statement by Senator Mary L. Landrieu
    Mr. Chairman, thank you for calling this hearing. As we sit in this 
hearing room today, I think it's important that we remember why we are 
here. On October 12 of last year, 17 brave men and women gave their 
lives for their country. They were victims of a vicious terrorist 
attack. In the months since, many armchair quarterbacks have gotten a 
lot of publicity by commenting on what was or was not done to prevent 
this from happening. None of those comments can take away from the 
bravery and dedication of all our men and women in uniform, and 
particularly those 17 brave souls who made the ultimate sacrifice for 
their country.
    Now, almost 7 months after the attack, several of the 
investigations are complete, however the criminal investigation is 
still ongoing with no end in sight. But enough time has passed to 
answer some simple questions: First, ``What happened?'' Second, ``What 
systemic and personal failures contributed to the success of the 
attack?'' Last, ``Where do we go from here?''
    I've been on this committee since 1999. Since then, I've attended 
numerous hearings and briefings where various components of the 
Department of Defense tried to answer those questions in response to 
various accidents and crises. In every case they presented ``Lessons 
Learned.'' This committee has already been briefed on some of the 
lessons learned from the Cole tragedy and I'm sure we'll hear some more 
today. I am particularly committed to ensuring they do in fact become 
``Lessons Learned'' because it seems to me that, all too often, we have 
``Lessons Taught.'' That distinction is important because we keep 
hearing the same lessons over and over again, and it is the 
responsibility of the leadership--some of whom sit before us today--to 
ensure that those lessons are institutionalized and truly become 
``Lessons Learned.''
    Everyone in this room knows that terrorism is a complex and 
challenging threat whose very nature makes it impossible to plan for. 
We live in a world with risks and, if America is to remain engaged in 
the world, we incur those risks as the cost of doing business. Those 
risks can never be completely eliminated, but we can take actions to 
minimize them.
    The military trains daily for the most dangerous business there is, 
war. There is always risk in war, and a prudent commander is negligent 
if he or she doesn't do everything possible to try and minimize that 
risk. We should make no mistake about it--terrorists around the world 
are at war with the United States today. Just like a traditional war, 
Americans expect their commanders to do what they can to minimize the 
risk to their sons and daughters, but they understand that risk can 
never be eliminated and that the mission must always come first. If we 
do anything else, we abandon our role as a superpower and I believe the 
world would become a far more dangerous place.
    Again, Mr. Chairman, I want to thank you for calling this important 
hearing, and I look forward to the valuable testimony of the witnesses.

    Chairman Warner. So ordered. Thank you, Senator Levin.
    General Shelton, you may proceed. Also, would you identify 
for the committee the role to be played by General Robertson. 
You decided overnight, as I understand, to include him. We 
welcome him today. I am not sure whether his testimony 
parallels you or should we go to the Chief following you. If 
you will give us guidance, we will be glad to follow that.

STATEMENT OF GEN. HENRY H. SHELTON, U.S. ARMY, CHAIRMAN, JOINT 
                        CHIEFS OF STAFF

    General Shelton. Thank you very much, Mr. Chairman, Senator 
Levin, and other distinguished members of the committee. Thank 
you for the opportunity to appear here today before this 
committee to share with you the work that is being done to 
address the findings of the Crouch-Gehman Commission. Let me 
thank Congress and especially the members of this committee for 
your enduring and significant support of America's Armed Forces 
and for your deep concern for the safety and well-being of our 
men and women in uniform.
    The bombing of the U.S.S. Cole was a tragic event and 
obviously a stark reminder of the risks that our great men and 
women in uniform face as they carry out their many missions day 
in and day out, doing the things that we ask them to do on our 
behalf. Our condolences collectively go out to those who lost a 
loved one aboard the U.S.S. Cole last October. All Americans I 
am sure share in this heartbreaking loss.
    But no one should mistake America's resolve. The 
reprehensible act of terrorism against the U.S.S. Cole will not 
cause this Nation to retreat from its commitments to our allies 
and it will not keep our military from performing its duties 
and responsibilities to defend U.S. interests around the globe. 
Attacks such as this reinforce the importance of improving our 
ability to deter and defeat terrorists, and we certainly owe it 
to those who volunteer to serve in the Armed Forces to provide 
them with the very best protection possible.
    In that regard, I want to acknowledge the tremendous work 
that has been done by the intelligence community and the FBI, 
specifically Director Freeh, with the cooperation of the Yemeni 
government, to bring to justice those that are responsible for 
this act.
    Our approach to dealing with the threat of terrorism 
requires a sustained inter-agency approach. As you noted, Mr. 
Chairman, in addition to my testimony, Admiral Vern Clark, the 
Chief of Naval Operations, and General Tony Robertson, the 
Commander in Chief of United States Transportation Command, are 
both with me here today. General Robertson is a leading 
innovator for in-transit force protection. He has to be because 
he has the responsibility to coordinate the force protection of 
a number of assets that are routinely in transit, operating 
around the world, around the clock, in fact even as we speak 
here this moment. All of us will be happy to take your 
questions after our prepared remarks.
    In your invitation to the hearing today, Mr. Chairman, you 
and Senator Levin asked the Joint Chiefs to provide an 
assessment of our antiterrorism force protection program. We 
welcome the opportunity to update you on what we have been 
doing to implement the findings of the Crouch-Gehman 
Commission.
    But before I address what we are doing to implement their 
findings, let me emphasize one key point. Following the Cole 
tragedy, we reviewed systemic problems with our force 
protection program, as well as examined the accountability for 
such things as the failure to provide adequate warning or 
implement appropriate security measures. In this effort, let me 
stress that we must be clear about the difference between 
responsibility and accountability for the bombing of the U.S.S. 
Cole.
    The parties responsible for the Cole tragedy are the 
terrorists and those who trained and equipped them, not anyone 
within our Armed Forces. It was clearly an act of premeditated 
murder. However, accountability is a function of command, and 
this matter was addressed up and down the chain of command 
within DOD, by the Navy, by the Commander in Chief, and then 
Secretary of Defense Cohen.
    As I said last October, those who perpetrated this act of 
terrorism should also never forget that America has a long 
memory and our reach is even longer.
    The goal of the Crouch-Gehman Commission was to review the 
processes and the procedures in place and look for systemic 
gaps within our existing force protection program. General 
Crouch and Admiral Gehman, two very distinguished officers, and 
the members of their Commission are to be commended for their 
thoroughness as well as the quality of their judgment in making 
recommendations to improve our vital force protection program.
    As you indicated, Mr. Chairman, their commission report was 
very comprehensive, containing 30 findings and 53 
recommendations. As we meet, commands around the globe are hard 
at work implementing the commission's recommendations and 
exploring other ways to improve their security posture.
    Given that many of our adversaries cannot compete with the 
United States militarily, they try to exploit perceived 
weaknesses and strike at us in what we call asymmetric means to 
achieve their goals. Bombings such as Khobar Towers, the 
embassy attacks in Africa in 1998, and the U.S.S. Cole last 
October are unfortunate examples of this asymmetric threat. 
Defending against this type of threat remains a top priority of 
the combatant commands, each of the services, and commanders 
everywhere and at every level.
    Of course, we must keep in mind that terrorists are 
adaptive adversaries who constantly look for ways to strike 
where their victims are most vulnerable, what we call the weak 
link. While we can never fully eliminate the possibility that 
terrorists will strike against us, we are doing our utmost to 
ensure the security of our forces so they can carry out their 
important missions at minimum risk.
    Our goal is not only to reduce the exposure of our in-
transit ships and planes, a shortcoming which was exposed by 
the bombing of the U.S.S. Cole, but also to ensure that our 
antiterrorism force protection program remains dynamic, thus 
reducing our vulnerability to terrorists.
    On October 12, 2000, a bomb exploded in the port side of 
U.S.S. Cole while the ship was moored at a refueling 
``dolphin'' in Aden, Yemen. The explosion, as you have said, 
Mr. Chairman and Senator Levin, killed 17 sailors, wounded 42, 
and severely damaged the vessel. In this incident, terrorists 
were able to exploit control measures and perimeter security 
vulnerabilities associated with waterside approaches to our 
ships while they are in port. However, the Crouch-Gehman 
Commission findings and their recommendations go far beyond 
waterside security improvements.
    As I said, the Department of Defense is aggressively 
implementing the commission's recommendations. So let me spend 
the remainder of my time highlighting the findings and 
recommendations and providing a status of our actions thus far.
    As I mentioned earlier and as reflected on the chart to 
your left or right and the advance copy that we placed in front 
of each of you, the commission made 30 findings and 53 
recommendations, divided into 5 categories as shown on this 
slide. They addressed organization, antiterrorism and force 
protection, intelligence, logistics, and training.
    In the first category of organization, the Crouch-Gehman 
Commission saw the need for better unity of effort among the 
offices and the agencies of DOD that provide the policy, the 
resources, and the oversight involved with combatting 
terrorism. The commission also recommended better coordination 
of our engagement activities across the U.S. government 
agencies, including developing security capabilities of host 
nations to protect U.S. forces.
    As a result, I have recommended that the Office of the 
Secretary of Defense align policy and resource responsibility 
under one OSD office.
    With regard to host nation cooperation, I have asked the 
geographic CINCs to continue their coordination efforts with 
host nation counterparts to gain increased security support. 
Secretary of State Powell has aided in this important cause by 
instructing the chiefs of mission to assist in coordinating DOD 
security requirements with host nations.
    The second category, antiterrorism and force protection, is 
where the commission made the lion's share of its findings and 
recommendations. To summarize, the commission advocated: 
proactive antiterrorism techniques to complement our defensive 
actions; better coordination of the transfer of units between 
theaters of operation; and use of risk management tools to 
support antiterrorism and force protection planning and 
execution.
    The combatting terrorism readiness initiative fund provides 
immediate assistance to our CINCs for emergent requirements 
that cannot wait for the normal budget process. The commission 
strongly supported increasing the amount committed to this fund 
and I agree.
    We also now allow the fund to cover not only the initial 
purchase of requirements, but also to include the next year 
maintenance funding until the services can assume maintenance 
responsibility for follow-on years through the normal budget 
process. We are already benefiting from these changes. For 
example, Central Command (CENTCOM) was funded to buy patrol 
boats for port security in Bahrain, and I had a chance to see 
these boats already in action when I visited there about 2 
months ago. In Southern Command (SOUTHCOM) they were funded for 
bunkers to better protect their forward operations in support 
of Plan Colombia.
    I should also mention that in fiscal year 2001 we received 
an additional $100 million for antiterrorism funding. We would 
anticipate an increase in the President's budget in 2002 as 
well.
    I also want to add that European Command (EUCOM) is 
aggressively working with General Robertson at Transportation 
Command (TRANSCOM) on its highly successful joint risk 
assessment management program within its Air Force component. I 
believe that all CINCs will benefit from this initiative.
    SOUTHCOM's tactics, procedures, and techniques in support 
of safe passage through the Panama Canal have been adopted by 
the country of Panama. In CENTCOM, they are working closely 
with Egypt to provide additional security for U.S.-flag vessels 
transitting the Suez Canal. General Robertson is prepared to 
discuss several other examples of force protection initiatives 
that he is implementing at TRANSCOM.
    To summarize, DOD is resolving a wide range of 
recommendations in this area, including enhancing antiterrorism 
and force protection procedures, resource allocation, 
technology development, as well as risk management.
    In the third category, intelligence, the commission 
recommended, and members of the Joint Chiefs have publicly 
expressed their support for, a reprioritization of resources 
for collection and analysis, including human intelligence and 
signals intelligence against terrorists. The commission also 
stated that individual units must be better trained and 
resourced to meet requests for intelligence support.
    OSD is reviewing options for reprioritizing intelligence 
support and has asked for comments from all intelligence 
agencies. The geographic CINCs are also looking at 
reprioritizing their intelligence assets within theater and 
they have already provided vulnerability assessment 
augmentation and tailored intelligence support for in-transit 
units.
    CENTCOM has developed a country vulnerability assessment 
team concept. Assessments will move beyond fixed sites to 
include exercise areas, ports, and airfields used by DOD 
personnel. EUCOM has established an in-transit tracking cell 
for all ships, aircraft, vehicles, and ground forces at its 
joint analysis center, which is located at the Joint Analysis 
Center (JAC) Molesworth in the United Kingdom. This cell 
provides these forces with current intelligence and situational 
awareness.
    With regard to both human and signals intelligence, we are 
constantly reviewing the allocation of these important and 
scarce resources and have completed some reallocations.
    For the longer term, the intelligence program review group 
is reviewing and validating the need for additional capability 
and that review is due to be completed this month.
    In the fourth category, logistics, the Crouch-Gehman 
Commission concluded that the current level of combat logistics 
force replenishment ships is sufficient. Their position was 
based on the fact that the current percentage of combat 
logistics force ships relative to the battle force is 6.6 
percent, which is within the historical range of 5.6 to 7.3 
percent that has been used since 1980.
    The commission did see the need for geographic CINCs to 
have greater logistics flexibility that would minimize exposure 
to threats, and the CINCs have already incorporated this 
recommendation into their logistics planning.
    Finally, in the fifth category of training, the commission 
recommended that DOD elevate antiterrorism and force protection 
training to the same priority as training for warfighting. The 
commission also recommended increased emphasis in training for 
commanders and antiterrorism officers. Each of our services is 
aggressively developing more comprehensive unit predeployment 
recurring training curriculums, pre-command and antiterrorism 
officer courses in response to this very important and 
certainly appropriate observation.
    The Joint Staff is dedicating additional funding for 
improvement in training and is developing the capability to 
better evaluate trends, as well as lessons learned, from its 
vulnerability assessment reports.
    In Korea, our CINC there, General Tom Schwartz, has begun 
employing teams that assess antiterrorism readiness by looking 
at a base from the perspective of a potential terrorist. These 
programs, which we call red teaming, are an important component 
of a successful force protection program at all levels.
    Meanwhile, Pacific Command incorporated a significant 
antiterrorism focus into its recent exercise on reception, 
staging, onward movement, and integration, or RSOI, which took 
place in countries throughout the Pacific theater. This 
increased antiterrorism focus included the joint rear areas 
through which many of our in-transit assets move.
    In summary, we continue to make considerable progress in 
our antiterrorism and force protection program. Our people are 
better protected today than in the past. I am very proud of 
these dedicated force protection professionals that contribute 
to the safety and security of our people day in and day out. 
Our efforts have resulted, I believe, in a much higher level of 
antiterrorism readiness both here at home as well as abroad. 
With the assistance of the Crouch-Gehman Commission report, we 
are now reducing vulnerabilities associated with in-transit 
units and have already completed 31 of the 53 recommendations 
made in the report.
    The bottom line is that we have an aggressive program that 
commanders up and down the chain of command take very seriously 
and are actively involved in. While the Cole tragedy has 
focused our efforts to discover additional seams in the 
program, we are casting a net much wider than merely reducing 
the vulnerabilities of our in-transit assets.
    Let me cite just one example. We are preparing now in the 
event that the terrorist threat evolves from explosive devices 
to standoff weapons, such as hang gliders, mortars, or also 
weapons of mass destruction. We are not standing still.
    But let there be no mistake. Even with the implementation 
of the Crouch-Gehman recommendations and the other actions that 
we are pursuing, we are not and never will be totally immune to 
terrorism. Whenever I talk with troops and their leaders, I 
stress to them that the question to ask about a terrorism 
attack is not if, but when and how it will occur.
    Still, we must put this in perspective. The United States 
is a global power. We have global responsibilities. We should 
neither let this threat overwhelm us nor deter us. If we shrink 
or pull back, our loss may ultimately be far greater than the 
tragic loss of life aboard the U.S.S. Cole and would have in 
essence allowed the terrorist to accomplish his goals.
    Mr. Chairman, we appreciate the opportunity to meet with 
the committee today and to share our views with you. We look 
forward to amplifying on our comments and more fully addressing 
your concerns, either here or in a closed session, as 
appropriate. Thank you very much, and I will be followed by 
Admiral Vern Clark, the Chief of Naval Operations.
    [The prepared statement of General Shelton follows:]
         Prepared Statement by Gen. Henry H. Shelton, U.S. Army
                              introduction
    On behalf of the Joint Chiefs, I want to thank you for the 
opportunity to appear before this committee to provide an assessment of 
our AntiTerrorism Force Protection (AT/FP) program and share with you 
the specifics of work being done to address the findings of the Crouch-
Gehman Commission. The bombing of U.S.S. Cole was a tragic event and a 
stark reminder of the risks that our great men and women in uniform 
face as they carry out the many missions, day in and day out, we ask 
them to do on our behalf. My condolences go out to those who lost a 
loved one on board Cole last October. All Americans share in their 
heartbreaking loss.
    However, no one should mistake America's resolve. The dastardly act 
of terrorism against Cole will not cause this great Nation to retreat 
from its commitments to our allies, and it will not keep our military 
from performing its duties and responsibilities to defend U.S. 
interests around the world. Attacks such as this reinforce the 
importance of improving our ability to deter and defeat terrorists who 
threaten our great Nation's welfare. We owe it to all the patriots who 
volunteer to serve in the Armed Forces to provide them the very best 
protection possible.
    First, I want to acknowledge the great work the intelligence 
community and the FBI are doing, with the excellent cooperation of the 
Yemeni government, to find and deliver into justice those who were 
involved in this heinous act. Overcoming the pernicious threat of 
terrorism requires a robust and sustained interagency effort.
    Let me also thank Congress, and especially the members of this 
Committee, for your enduring and significant support of America's Armed 
Forces and your deep concern for the safety and well-being of our great 
men and women in uniform.
    Whether Active Duty, Reserve, or Guard, wherever our troops deploy, 
antiterrorism is a top priority for our commanders. The tragic bombing 
of the U.S.S. Cole serves as a stark reminder that the terrorists of 
the world can strike anywhere, and at any time. Our adversaries, unable 
to confront or compete with the United States militarily, spend 
millions of dollars each year on terrorist organizations that target 
U.S. citizens, property, and interests. Consequently, our Combatant 
Commanders in Chief (CINCs) and the Services continue to focus on 
antiterrorism issues as a first order priority.
    We have learned through our national tragedies that terrorists are 
indiscriminate killers who attack where and when their victims are most 
vulnerable. Most recently, on October 12, 2000, a bomb exploded along 
the port side of U.S.S. Cole while the ship was moored at a refueling 
``dolphin'' in Aden, Yemen. The explosion killed 17 sailors, wounded 
42, and severely damaged the vessel. In this incident, terrorists were 
able to exploit access control measures and perimeter security 
vulnerabilities associated with waterside approaches to our ships while 
they are in port.
    Given that many of our adversaries can't compete with the United 
States militarily, they try to find and exploit perceived weaknesses, 
striking at us using what we call ``asymmetric means'' to achieve their 
goals. Bombings, such as Khobar Towers, the embassy attacks in Africa 
in 1998, and U.S.S. Cole last October are unfortunate examples of this 
asymmetric threat.
    Defending against this type of threat remains a top priority of the 
Combatant Commands, each of the Services, and commanders everywhere. Of 
course, we must keep in mind that terrorists are adaptive adversaries 
who constantly look for ways to strike where their victims are most 
vulnerable. While we can never fully eliminate the possibility that 
terrorists will strike against us, we are doing our utmost to ensure 
the security of our forces so that they can carry out their important 
missions at minimum risk. Our goal is not only to reduce the exposure 
of our in-transit ships and planes--a shortcoming exposed by the 
bombing of U.S.S. Cole--but to ensure our antiterrorism/force 
protection program remains dynamic, thus reducing our vulnerability to 
terrorists.
                        crouch-gehman commission
    Secretary of Defense Cohen commissioned General Crouch, USA 
(Retired), and Admiral Gehman, USN (Retired), to lead a review of 
lessons learned from the U.S.S. Cole attack. The goal of this 
commission was to review the processes and procedures in place within 
our existing force protection program. General Crouch, Admiral Gehman, 
and the members of their Commission are to be commended for their 
thoroughness, as well as the quality of their judgment, in making 
recommendations to improve our vital force protection program.
    Their U.S.S. Cole Commission Report was quite comprehensive, 
containing 30 findings and 53 recommendations. The Department of 
Defense is now aggressively implementing those recommendations. A DOD 
Working Group representing both the Office of the Secretary of Defense 
and the Joint Staff was formed to complete all recommendations. DOD's 
Antiterrorism Coordination Committee (ATCC) and ATCC Senior Steering 
Group meet frequently and regularly to guide Working Group actions. A 
majority of the recommendations were completed within 30 days of 
approval of the Working Group's Plan. The remaining actions have been 
divided into
3-, 6-, 9-, and 12-month completion timelines.
         crouch-gehman commission findings and recommendations
    The Commission's findings and recommendations are contained in five 
categories: Organization; Antiterrorism/Force Protection; Intelligence; 
Logistics; and Training. I will briefly summarize these categorical 
findings and recommendations as well as DOD actions that are in 
progress.
    In the area of ``Organization,'' the Crouch-Gehman Commission saw 
the need for better ``unity of effort'' among the offices and agencies 
in DOD providing antiterrorism resources, policy, oversight, and 
direction involved with combating terrorism. The Commission also 
recommended better coordination of our engagement activities across 
U.S. Government agencies, including developing the security 
capabilities of host nations to help protect U.S. forces. As a result, 
I recommended that the Office of the Secretary of Defense (OSD) align 
policy and resource responsibility under one OSD office. With regard to 
host nation coordination, I have asked the Geographic CINCs to continue 
coordination efforts with host nation counterparts to gain increased 
security support. We are working closely with the State Department in 
developing and implementing force protection measures. Secretary of 
State Colin Powell has aided in this important cause by instructing all 
Chiefs of Mission to assist in establishing and coordinating DOD 
security requirements with host nations.
    In ``Antiterrorism/Force Protection,'' the Commission advocated 
proactive AT techniques to complement defensive actions, to better 
coordinate the transfer of units between theaters of operation, and to 
adopt a risk management model in support of AT/FP planning and 
execution. DOD is resolving the wide range of recommendations in this 
area, including revision of AT/FP procedures, resource allocation, 
technology development, and risk management.
    The Combating Terrorism Readiness Initiative Fund provides 
immediate assistance to our CINCs for emergent requirements that cannot 
wait for the normal budget process. The Cole Commission strongly 
supported increasing the amount committed to this fund and I agree. 
Because of your support, this fund has been increased. In addition, we 
now allow the fund to cover not only initial purchase of emergent 
requirements, but also to include associated ``next year'' maintenance 
funding, until the Services can assume maintenance responsibility for 
follow-on years through the normal budget process. We are already 
benefiting from the additional allocation, for example: U.S. Central 
Command (USCENTCOM) will be provided funding for patrol boats for port 
security in Bahrain and funding for their newly organized Country 
Vulnerability Assessment Team. U.S. Southern Command (USSOUTHCOM) will 
be funded for necessary bunkers to better protect their Forward 
Operating Locations in support of Plan Colombia. I should also mention 
that for fiscal year 2001, we increased antiterrorism funding $100 
million to $3.5 billion.
    Other recent CINC initiatives are enhancing antiterrorism/force 
protection. U.S. European Command (USEUCOM) is aggressively working a 
Joint Risk Assessment Management Program, which has already been highly 
successful at its Air Force Component level. All CINCs will benefit 
from this initiative. USSOUTHCOM's tactics, techniques, and procedures 
in support of safe passage through the Panama Canal have been adopted 
by the country of Panama. Also, USCENTCOM is working closely with Egypt 
to provide additional security for U.S. flag vessels transiting the 
Suez Canal.
    For the category ``Intelligence,'' the Commission recommended, and 
the Joint Chiefs support, a reprioritization of resources for 
collection and analysis, to include human intelligence and signal 
intelligence, against the terrorist threat. Individual units must also 
be better trained and resourced to meet appropriate requests for 
intelligence support. OSD is reviewing options for reprioritizing 
intelligence support and has asked for comments from all Intelligence 
Agencies. At the same time, geographic CINCs are evaluating a 
reprioritization of intelligence assets within their Theaters and have 
already provided vulnerability assessment augmentation and tailored 
intelligence support for in-transit units on independent missions until 
additional resources become available.
    Already, USCENTCOM has developed a Country Vulnerability Assessment 
Team concept. The concept expands assessments beyond fixed sites to 
include exercise areas, ports and airfields used by DOD personnel. 
Also, USEUCOM has established an in-transit tracking cell for ships, 
aircraft, and vehicles and ground forces at its Joint Analysis Center 
(JAC), Molesworth, UK. This cell provides these forces current 
intelligence and situational awareness.
    With regard to Human Intelligence and Signals Intelligence, we are 
constantly reviewing the allocation of these important and scarce 
resources and have already completed some reallocation. Also, as 
previously mentioned, USCENTCOM will be receiving additional funding 
for intelligence analysts.
    For the longer term, the DOD Intelligence Program Review Group is 
reviewing and validating the need for additional capability. I expect 
the review to be completed later this month.
    In support of ``Logistics,'' the Crouch-Gehman Commission concluded 
that the current level of Combat Logistics Force replenishment ships is 
sufficient. The Commission view is based on the fact that the current 
percentage of Combat Logistic Force ships relative to the Battle Force 
is 6.6 percent--within the historical range of 5.6 to 7.3 percent since 
1980. The Commission did see the need for geographic CINCs to have 
greater logistic flexibility to minimize exposure to threats. CINCs 
have incorporated this recommendation into their logistics planning.
    Finally, with regard to ``Training,'' the Commission recommended 
elevating Antiterrorism/Force Protection training to the same priority 
as their warfighting requirements training. The Commission also 
recommended increased emphasis in our training for Commanders and 
Antiterrorism Officers. Our Services are aggressively developing more 
comprehensive unit pre-deployment and recurring training curriculums 
and more comprehensive pre-command and AT Officer courses in response 
to this important observation. The Joint Staff also is dedicating 
additional funding toward improvements in ``General Awareness,'' AT 
Officer; Pre-Command; and Executive Level training support and 
developing the capability to better evaluate trends and lessons learned 
from its vulnerability assessment reports.
    U.S. Forces, Korea has developed a ``Red Team'' concept to better 
assess the antiterrorism readiness of its bases. U.S. Pacific Command 
(USPACOM) incorporated a significant antiterrorism focus into its 
recent Reception Staging Onward-Movement Integration (RSOI) exercise. 
RSOI took place in multiple countries throughout the USPACOM Theater 
and the antiterrorism focus included the Joint Rear Areas.
    I also want to add that immediately following the Cole bombing, the 
Geographic and Functional CINCs, and the Service Secretaries and Chiefs 
met with the Secretary of Defense and me to determine what actions 
could be taken to enhance AT/FP immediately. A majority of their 
recommendations were subsequently proposed by the Crouch-Gehman 
Commission. Those that were not in the Commission Report were added to 
our plan for prompt action. These include the development of ``Red 
Teams;'' the need for vetting criteria for host nation contractors 
supporting our units during higher Threat Conditions; and the need to 
conduct Vulnerability Assessments at all ports and airfields visited by 
DOD units.
         additional antiterrorism/force protection initiatives
    In all, we've made monumental progress in our AT/FP efforts in the 
4\1/2\ years since the attack on Khobar Towers. I'll briefly highlight 
a few of our most significant initiatives.
    The Joint Staff Combating Terrorism Directorate, (J-34), continues 
to provide superb support to our program. It provides unity of effort 
on the Joint Staff for all matters pertaining to combating terrorism, 
and assists the Combatant Commanders and Service Chiefs with their 
force protection responsibilities. To accomplish these objectives, J-34 
works closely within the interagency process to integrate emerging AT/
FP technologies, develop AT/FP doctrine, policy, standards, and 
training programs, and enhance coordination with our allies for 
combating terrorism. The Combating Terrorism Directorate is organized 
into four divisions designed to synchronize operations and 
intelligence, develop plans and policies, integrate programs and 
requirements, and coordinate training, doctrine development, and 
vulnerability assessments.
    Our six Joint Staff Integrated Vulnerability Assessment (JSIVA) 
Teams continue to assess Antiterrorism/Force Protection readiness. 
These teams visit designated military installations worldwide, both 
CONUS and OCONUS, to assess intelligence collection and dissemination 
capabilities, physical security measures, infrastructure support and 
structural vulnerabilities, and the installation's ability to respond 
to a terrorist incident. Because the terrorist weapon of choice today 
remains a large vehicle bomb, our JSIVA Teams emphasize the importance 
of sound perimeter security, thorough access procedures, adequate 
building standoff, and comprehensive response plans for incident damage 
mitigation. However, because we also must anticipate the potential use 
of Weapons of Mass Destruction (WMD) in the future, we have added WMD 
experts to two of our teams to better prepare today for terrorist use 
of WMD tomorrow. We've completed 327 assessments since the program's 
inception in 1997 and will complete an additional 96 by the end of this 
calendar year. Our geographic CINCs and Service Chiefs have also 
organized their own assessment teams to evaluate installation readiness 
and assist installation commanders in refining existing plans. In 
addition, these teams provide assessment ``lessons learned'' which are 
made available to all commands.
    To enhance Antiterrorism Force Protection readiness and assist 
installation commanders develop viable AT/FP plans, we've refined our 
AT/FP Installation Planning Template (and Weapons of Mass Destruction 
Appendix), that provides the Installation Commander a step-by-step 
guide in developing a thorough and inclusive AT/FP plan. The Template 
is now available as an interactive CD-ROM.
    We also place considerable emphasis on, and continue to improve AT/
FP Training. The four-tiered training program consists of:

        <bullet> A basic level training curriculum for all DOD 
        personnel and their families;
        <bullet> An advanced level curriculum to train Antiterrorism 
        Force Protection Officers;
        <bullet> Antiterrorism Force Protection education at Commanding 
        Officer ``command pipeline'' training; and
        <bullet> An executive-level seminar for senior officers & DOD 
        civilian leadership.

    Additionally, we continue to work hard to ensure the inclusion of 
AT/FP issues in all appropriate Department of Defense planning and 
policy documents. Defense planners include Combating Terrorism among 
their very top priorities. The Joint Service Capabilities Plan, 
Contingency Planning Guidance, and CINC Theater Engagement Plans now 
include ``successfully countering terrorism'' as one of their highest 
tier ``vital objectives.'' We recently updated the DOD instruction 
``Protection of DOD Personnel and Activities Against Acts of Terrorism 
and Political Turbulence,'' which provides comprehensive guidance in 
the development of all aspects of antiterrorism programs. We are also 
updating our ``Commander's Handbook for Antiterrorism Readiness,'' a 
consolidation of key reference material which assists commanders in 
executing their AT programs.
    We have made significant advances in identifying available 
technologies with AT/FP application, and have in place two 
organizations that are vital to our ``leveraging technology'' efforts. 
The Physical Security Equipment Action Group coordinates DOD efforts in 
acquiring all physical security equipment, including Commercial-Off-
The-Shelf technology that has AT/FP applicability. Another 
organization, the Technical Support Working Group, focuses on rapid 
prototype technologies in the AT/FP arena. The Technical Support 
Working Group provides support to the entire interagency team. Key 
technology enablers, such as threat analysis and warning, explosive 
device detection, and early detection of Weapons of Mass Destruction, 
greatly enhance our ability to protect against terrorism.
    The Combating Terrorism Directorate also hosts a Force Protection 
Equipment Demonstration (FPED) to showcase state-of-the-art 
technologies possessing AT/FP applications. Over 400 vendors with over 
1,000 new products will be attending the May 2001 FPED at Quantico, VA. 
Items showcased at this demonstration are ready for evaluation and can 
be ``in the hands'' of our Service members within weeks of the FPED.
    The Combating Terrorism Directorate also provides resource support 
to the CINCs and Services. The Combating Terrorism Readiness Initiative 
Fund (CbT RIF) resources those emergent and emergency AT/FP 
requirements that can not wait for the normal Service Program Objective 
Memorandum process. As a result of Cole Commission findings, the fund 
has already been programmed to increase. Additionally, we oversee the 
planning, programming, and budgeting process to ensure adequate 
emphasis on AT/FP programs.
    We are also working closely with our allies including NATO. We are 
currently supporting the efforts of NATO's High Level Steering Group to 
enhance Antiterrorism/Force Protection for NATO forces, including our 
DOD personnel assigned to NATO.
    Despite our accomplishments, we are always convinced we can do 
more. In 1999, we commissioned a 6-month ``Best Practices Study'' to 
compare and assess the AT/FP practices of Israel and the United 
Kingdom, two countries that have lived with the terrorist threat for 
many years on a continuous basis. The products and concepts of this 
study provide a measure for comparison and the basis for future 
initiatives to improve the commander's ability to shape the environment 
and protect our forces.
                               conclusion
    We continue to make considerable progress in our antiterrorism/
force protection program and our people are better protected today than 
in the past. I am very proud of the efforts of our dedicated force 
protection professionals. Our efforts have resulted in a high level of 
AT readiness of our forces and at military installations--here and 
abroad. That same level of attention must now be--and is being--
directed at reducing vulnerabilities that exist at our ``seams'' to 
include seaports and airports.
    Despite our many successes, however, we face a dedicated, well-
financed, and determined adversary. The question concerning terrorist 
attack is not ``if'' but ``when.'' Our challenge is to anticipate the 
threat and take appropriate countermeasures. I want to conclude by 
underscoring the fact that we are being extremely proactive in our 
approach to reducing antiterrorism vulnerabilities. We are also 
preparing now should the terrorist threat evolve from explosive devices 
to standoff weapons or Weapons of Mass Destruction. We will continue to 
focus our attention to protect our people, our installations, and our 
national interests.

      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
        
      
    Chairman Warner. Admiral Clark.

 STATEMENT OF ADM. VERNON E. CLARK, U.S. NAVY, CHIEF OF NAVAL 
                           OPERATIONS

    Admiral Clark. Mr. Chairman, Senator Levin, distinguished 
members of the committee: Good morning and thank you for the 
opportunity to testify on the Navy's antiterrorism and force 
protection program. We will be saying ``ATFP'' many times 
today.
    I say thank you, Mr. Chairman, because I note your comments 
about the role of the Senate and this committee, the role of 
oversight, the issue of the proper protection of the men and 
women who volunteer to serve in our Armed Forces, and for me 
particularly in the Navy, the importance of this body having 
the right information so that you can make decisions and 
provide that oversight role. I also thank you so that you, the 
people of America, and the people in my Navy can hear what is 
said about the situation on the U.S.S. Cole, the actions that 
have been taken.
    Certainly, as General Shelton has said, the terrorist 
attack on the Cole was a shock, a terrible shock to us, and a 
sharp and a tragic reminder that our forces are on the point 
and face danger every day, sometimes, oftentimes, in hostile, 
potentially lethal environments.
    The events of the 12th of October of the year 2000 began a 
series of real changes in our Navy and the way we plan and 
execute self-defense. We have done a lot since then. The 
details of these are outlined in my statement submitted and my 
comments here will be brief, and we can refer to those as you 
desire.
    Chairman Warner. All your full statements will be admitted 
into the record.
    Admiral Clark. Thank you, sir.
    We have done a lot. We are seeing changes. More 
importantly, our people, from sailors to the civilian sector--
and they are both involved--from the deckplates to our 
headquarters, are thinking more and with a new focus about 
antiterrorism and force protection. ATFP is becoming more a 
part of our institutional mind set.
    I think it is important to reiterate and agree with and 
reemphasize General Shelton's comments. The threat is not going 
to go away. Indeed, it may be even growing in size and 
sophistication. I expect that it is. There are some people who 
do not want us in their part of the world and they have made it 
their mission to drive us out.
    I am making it clear to our people that operations forward 
will never be risk-free and that we must do everything that we 
know how to do to deter attack and to limit the damage in case 
deterrence fails. Specifically, in accordance with the 
recommendations of the DOD Cole commission report and the Navy 
task force on force protection, numerous complementary 
initiatives are under way in our Navy to improve ATFP and, as I 
indicated, some of these, some, are detailed in the report that 
I have submitted to you.
    These include major improvements in the way we conduct port 
visits overseas and protect naval forces at home, in the way we 
are organized to plan and execute antiterrorism programs, and 
the way we train for antiterrorism and force protection 
proficiency and awareness. In short, we are taking actions to 
improve the manning, the training, and the equipping of naval 
forces to better realize a warfighting approach to physical 
security, with ATFP as a primary focus in every mission and 
activity that we execute.
    Central to this effort is greater emphasis on inter-agency 
and joint teamwork, to include seamless--that word again, Mr. 
Chairman--seamless operations among the armed services, 
increased inter-agency cooperation with the Department of 
Defense, the Department of State, the FBI, and the CIA, and 
assertive diplomatic engagement abroad. We are making progress 
in each of these areas, and we will continue to invest in them 
in the years to come.
    Providing timely and accurate intelligence is another area 
of critical importance in which we are hard at work. The goal 
is to arm our men and women with the most relevant 
information--``relevant'' is a key word--possible. As part of 
that effort, naval and national intelligence agencies are 
working more closely together and sharing their information 
better than we have done in the past.
    I want to emphasize that we are in this for the long haul 
and we know it. These changes are important, but they are here 
to stay. I firmly believe and I know in fact that these 
initiatives will help our commanding officers better prepare to 
counter the asymmetric threat that they face in the world 
today. That is important because our commanding officers retain 
full responsibility and accountability for their actions and 
their units. We have a responsibility to do our utmost to 
support them. They are the best that we have and we owe it to 
them.
    So in summary, I want to assure the committee that the 
United States Navy, the people in the Navy, and the assets in 
the Navy are better protected today than they have ever been 
before. We will continue to improve our antiterrorism and force 
protection measures while staying focused on our forward 
operations and the challenges involved in support of the 
national security strategy, enhancing regional stability, 
responding to crises, and winning our Nation's wars.
    Thank you, Mr. Chairman, and I do look forward to the 
questions from the committee.
    [The prepared statement of Admiral Clark follows:]
         Prepared Statement by Adm. Vernon E. Clark, U.S. Navy
                              introduction
    Thank you for the opportunity to provide the Senate Armed Services 
Committee with this update of the Navy's actions to improve our 
Antiterrorism/Force Protection (AT/FP) program.
    The attack on U.S.S. Cole was a terrible tragedy and dramatic 
example of the type of threat our military forces face worldwide on a 
day-to-day basis, emphasizing the importance of force protection both 
today and in the future. The Navy has taken action at home and abroad 
to meet this challenge, undergoing a sea change in the way we plan and 
execute self-defense. We have enhanced the manning, training, and 
equipping of naval forces to better realize a warfighter's approach to 
physical security, with AT/FP serving as a primary focus of every 
mission, activity, and event. Additionally, we are dedicated to 
ensuring this mindset is instilled in every one of our sailors.
    Key to implementing force protection are multiple, complementary 
initiatives to deter and prevent terrorist attack. First, we employ 
operational security to decrease the ability of an enemy to target our 
forces. Second, in accordance with international law, we depend on host 
nations to execute their responsibility to provide protection for ships 
and units visiting and training in their countries. Third, our 
commanders employ standoff zones around their ships and aircraft to 
protect them, including the employment of concentric assessment, 
warning, and threat zones.
                              fleet action
    Aggressive action has been taken by our fleets to strengthen force 
protection, including the issuance of detailed guidance regarding 
weapons posture and Rules of Engagement, the creation of dedicated AT/
FP units, the institution of more robust training, and the development 
and deployment of additional equipment. Operationally, port and airport 
vulnerability assessments are now conducted in the United States and 
overseas prior to every visit.
    All fleets have substantially increased the amount of pre-
deployment training devoted to force protection. Every battle group 
staff and unit conducts realistic exercises during ensuring which 
commanders must consider all threat axes for possible terrorist action, 
including small boat, swimmer, airborne, and land-based attacks. For 
example, the Enterprise Battle Group, which departed for deployment on 
April 25, 2001, received scenario-driven training on recognizing and 
countering improvised explosive devices, small boat attacks while 
entering and leaving port, swimmer attack, and large vehicle (i.e. 
truck) bombs. Additionally, while underway, they were trained in 
countering airplane and waterborne threats.
    Fifth Fleet, the naval component commander for Central Command, has 
created a Maritime Ship Security Augmentation Force. This team deploys 
to ports in advance of ship arrivals to ensure the site is secure, 
including the vetting of pilots and service boats. It enhances ship 
safety during harbor entry, while pierside, and when transiting back to 
sea. The team is comprised of an advance element that conducts liaison 
with host nation police and security personnel, as well as support 
service providers and husbanding agents. It also includes pier and 
patrol boat sentries, explosive ordnance disposal technicians, Naval 
Criminal Investigative Service (NCIS) physical security specialists, 
military working dogs and handlers, corpsman, and a command and control 
element. Additionally, members of the team embark in the ships prior to 
arrival and remain aboard for the duration of the port visit while the 
remainder of the force provides waterside security in conjunction with 
the host nation.
    Further security for deployed naval forces is provided by U.S. 
Marine Corps Fleet Antiterrorism Support Teams (FAST). FAST is a 
rapidly deployable force specially trained in force protection. 
Currently U.S. European Command, Pacific Command, and Central Command 
have permanently deployed FAST teams. Immediately following the Cole 
bombing, an additional FAST team, a Reserve Naval Coastal Warfare Unit, 
and a Coast Guard Port Security Unit were deployed to the Middle East 
to provide security augmentation for the ongoing investigation in Yemen 
as well as enhance security aboard civilian-manned Military Sealift 
Command ships operating in the area.
    We are leveraging technology to better equip our forces. All 
deploying units have received a significantly improved allowance of AT/
FP equipment, to include body armor, hand-held searchlights, riot 
control agents, collapsible batons, explosive detection kits, and 
water-filled barriers. Recently, the Naval Operations Other Than 
Warfare Technology Center in Dahlgren, Virginia conducted a 
demonstration to validate available systems, including electro-optic 
infrared detection systems, non-lethal weapon systems, miniature bomb 
detection systems, and electronic access control systems. As part of 
this effort, the Navy is working closely with the Marine Corps 
Warfighting Laboratory in Quantico, Virginia to develop next-generation 
non-lethal AT/FP technology.
    Close coordination between the Departments of State and Defense is 
vital to the ultimate success of these endeavors. Country teams from 
both departments are increasing the dialogue with host nations and to 
more fully assert articulate U.S. security needs. In cases where host 
nations lack the ability or desire to meet this increased security 
level, we are negotiating to allow U.S. forces to provide such 
measures. This may include allowing our sailors to conduct armed 
patrols around U.S. assets. A joint Department of Defense and 
Department of State cable was recently released directing U.S. 
diplomats to request this cooperation.
             training, education, and doctrine development
    We are cultivating enhanced AT/FP awareness via a continuum of 
initiatives. These include the development of new warfare doctrine, the 
issuance of specific tactics, techniques, and procedures, and the 
accomplishment of basic and advanced training in the fleet, the 
schoolhouse, and by computer learning. As recommended in the Crouch-
Gehman report, the new curricula incorporate realistic scenarios to 
better educate our sailors and airmen. We have updated the training 
provided to all Prospective Commanding Officers (PCOs). This training 
is taught during the Command Leadership Course in Newport, Rhode 
Island, addressing the use of force and rules of engagement. Type 
commanders also provide PCOs with platform force-specific AT/FP 
training en route to their commands.
    Concurrent with that effort, the Surface Warfare Development Group 
has published improved fleet guidance on force protection. These 
publications address new methods of defending against future terrorist 
attacks and are essential in institutionalizing the warrior AT/FP 
mindset required in today's Navy.
                         organizational change
    The Navy has instituted important organizational changes in the 
wake of the Cole attack. The Secretary of the Navy (SECNAV) established 
a task force comprised of subject matter experts from the Navy and from 
external organizations to review and take prompt action to enhance our 
force protection posture and identify required actions in the mid- and 
long-term. The task force findings were in close alignment with the 
Department of Defense Cole Commission report issued by General Crouch 
and Admiral Gehman, including recommendations for improving 
departmental organization, antiterrorism/force protection programs, 
intelligence, logistics, and training.
    The SECNAV Task Force is being transitioned to become a permanent 
Force Protection Council. To ensure it receives the necessary level of 
attention, the council is chaired by the Vice Chief of Naval Operations 
and includes senior flag officers high-ranking representatives from 
each of the principal branches within the Navy. The council monitors 
the status of initiatives and charts the course of future AT/FP 
programs. It oversees the resourcing of AT/FP, monitors the continued 
development of naval AT/FP doctrine, and encourages the inclusion 
employment of advanced technologies.
    One significant weaknesses identified by the SECNAV Task Force's 
personnel working group was the size of the Navy's security force. To 
correct this problem, we are converting collateral duty Masters-at-Arms 
to full-time security professionals. 330 security force billets have 
been programmed for fiscal year 2001 to fill this emergent security 
need, working toward a goal of 6,000 permanent naval security billets 
by 2003, up from approximately 4,000 billets prior to the Cole bombing.
                            at/fp resources
    These improvements to the Navy's AT/FP posture have incurred 
significant cost. To the greatest extent possible, we have funded them 
from existing accounts. However, the long-term program to provide 
adequate security for our forces will require additional money. We 
diverted approximately $50 million from existing accounts at the fleet 
level in fiscal year 2001 to address our most immediate AT/FP 
requirements. We have also identified additional AT/FP requirements in 
fiscal year 2001.
    To further streamline and focus our budget process for AT/FP, we 
have consolidated from nine resource sponsors on the OPNAV staff to 
two, one for ashore and one for afloat. This will ensure Navy AT/FP 
programs receive the proper level of attention and support.
                          intelligence support
    Better intelligence is vital to enhanced AT/FP. The intelligence 
community is working to ensure our commanding officers receive the most 
accurate and complete intelligence picture prior to arrival in port. As 
identified in the Crouch-Gehman report, only a small percentage of the 
Nation's intelligence resources are currently directed against 
terrorism. To correct this problem, the Defense Intelligence Agency, 
Naval Intelligence, and theater intelligence centers are now working 
more closely together to ensure the best all-source intelligence is 
provided to our commanding officers. Importantly, the intelligence 
community has modified the dissemination of human intelligence to 
provide wider availability and greater timeliness. Office of Naval 
Intelligence is working to increase this collection requirement. They 
have modified the restrictions on dissemination of human intelligence 
collection reporting to provide wider availability. The NCIS has also 
increased the deployment of agents overseas to meet increased fleet 
requirements. These agents are engaged in providing on-scene 
intelligence reporting and vulnerability assessments for ships' port 
visits and aircraft stopovers.
                         command accountability
    While all of these programs are aimed at strengthening our ability 
to deter and react to terrorist acts, ultimate responsibility for the 
safety of naval units remains with the Commanding Officer. In the Cole 
bombing, the Navy conducted a Manual of the Judge Advocate General 
(JAGMAN) investigation into the actions taken before, during, and after 
the terrorist attack. As a reviewing authority of the investigation, I 
agreed with the conclusion of a prior reviewer, Commander in Chief, 
U.S. Atlantic Fleet, that the Commanding Officer of U.S.S. Cole acted 
reasonably in adjusting his force protection posture based on his 
assessment of the situation that presented itself when the ship arrived 
in Yemen to refuel.
    In assessing the accountability of the Commanding Officer, 
reviewing authorities focused on two significant issues. First, were 
the decisions made and the actions taken by the Commanding Officer 
reasonable and within the range of performance we expect of our 
commanders? Second, would any of the force protection measures not 
implemented by U.S.S. Cole have deterred or defeated this determined 
attack if they had been implemented?
    The conclusion of Commander in Chief, U.S. Atlantic Fleet--agreed 
to and supported by me as well as then-Secretary of the Navy Richard 
Danzig and then-Secretary of Defense William Cohen--is that the 
Commanding Officer's decisions were reasonable and appropriate under 
the circumstances, and that even full implementation of all force 
protection measures specified under the existing threat condition, 
i.e., Threat Condition Bravo, would not have prevented or deterred this 
attack.
    Based on a thorough review of the JAGMAN investigation, the chain 
of command agreed that the facts did not warrant punitive action 
against the Commanding Officer or other members of the Cole crew. The 
investigation and endorsements of reviewing authorities have been 
posted on Navy websites. These endorsements explain in detail the 
rationale underlying the decisions made by reviewing authorities in 
assessing accountability.
                               conclusion
    The attack on U.S.S. Cole was a powerful reminder that our Nation's 
forward deployed forces operate in a dangerous, potentially lethal 
environment. This will not change as we look to the future. The 
asymmetric threat is growing and constantly searching to exploit the 
vulnerabilities of our military forces, friends, and allies. It is only 
a matter of time before the next attack is attempted and we must be 
prepared. Constant awareness of this fact, coupled with exhaustive 
training and quality equipment, will help reduce the risk from the 
asymmetric threat and, if deterrence and prevention fail, limit the 
damage from such an attack.
    We must keep our focus on mission accomplishment--namely the 
employment of naval forces to stabilize various regions of the world, 
respond to crises, and prepare for war--while we implement the AT/FP 
initiatives described in this statement. Retrenchment and a bunker 
mentality are inappropriate and imprudent responses to the asymmetric 
threat. U.S. Navy sailors and assets are better protected today than 
ever before. Nevertheless, we will strive to continually strengthen our 
antiterrorism/force protection program as we operate forward in support 
of America's defense.

    Chairman Warner. Thank you, Admiral.
    General Robertson.

STATEMENT OF GEN. CHARLES T. ROBERTSON, JR., USAF, COMMANDER IN 
               CHIEF, U.S. TRANSPORTATION COMMAND

    General Robertson. Sir, if I might, I have also submitted a 
written statement.
    Chairman Warner. Without objection, it will be submitted.
    General Robertson. Thank you, sir.
    A proper question you asked is why did the chairman choose 
to have me at his side here today, as opposed to one of the 
regional CINCs perhaps, or one of the other service chiefs.
    I think there are probably two reasons I would postulate 
that I am here today. First, of all the CINCs, of all the 
commanders in chief around the world, at United States 
Transportation Command we manage the missions. The missions we 
execute around the world every day are probably the examples 
that are used most often as in-transit units. If you stop to 
consider, nearly 1,200 aircraft flying some 1,700 missions per 
week, 3 sorties per mission, that is about 4,500 sorties a week 
around the world, to an average of 52 countries around the 
world; 22 chartered military ships visiting ports in some 22 
countries around the world; 36 other government-owned or 
chartered prepositioned ships sitting and waiting, laden down 
with military cargo, ready to respond around the world on a 
moment's notice; and dozens upon dozens of small Air Force, 
Army, and Navy teams numbering anywhere in size from one to 
100--tanker airlift control elements, deployment support 
teams--that move from port to port, from seaport to seaport, 
from airport to airport around the world, making arrangements 
to receive or to throughput military cargo or military 
passengers in support of the warfighting CINCs around the 
world.
    This is our mission. We do it every day. We do it usually 
in force sizes of one, one aircraft, one ship, operating below 
the threshold of what used to be the CINC's force protection 
responsibility, in places that you have probably never even 
heard of. We will go in, spend a couple of hours, and depart. 
But we take seriously our responsibility for force protection 
of those assets.
    The second reason I think the chairman wanted me here today 
is because, as he said, we are often held up as the example of 
the force protection innovators, the proactive end of the force 
protection business, and an example of force protection 
excellence in the Department of Defense. This makes me very 
uncomfortable because whatever we have done, it is probably 
because we are also the most vulnerable of all of the CINCs in 
the Department of Defense because of the global nature of our 
mission.
    If we have good programs in the United States 
Transportation Command, it is because we always recognize the 
unique vulnerability of the forces and the assets that we 
manage around the world, as I said most often operating in 
groups of one, at places that you would have to look up in the 
atlas to figure out where they are. Because of this, we have 
taken very seriously our responsibility for force protection.
    In summary, to paraphrase the old country and western song, 
at the United States Transportation Command, we were into force 
protection before force protection became cool, and we do take 
it very seriously. The men and women of TRANSCOM, 148,000 
military, Army, Navy, Air Force, Marine Corps, and Coast 
Guardsmen, take it very seriously because we have to. Our 
commercial partners, who are probably responsible for at least 
50 percent of the work that we do around the world--the U.S. 
flag airlines and airlift partners, our U.S. flag sealift 
incidents, the merchant mariners and the crews that operate 
those ships and aircraft--also take it very seriously, and we 
bring them in under our umbrella of force protection.
    We do our best to maintain the very highest of standards 
wherever we operate around the world, standards of 
antiterrorism, force protection. Occasionally, as a result, we 
frustrate the customers we serve, those warfighting CINCs, and 
their host nation security forces, because we demand such high 
standards for our forces.
    That said, though, when you take the collective lessons 
learned from Khobar, for example, from the embassy bombings in 
Kenya and Tanzania, the lessons learned from the Cole, I 
sincerely believe that as a joint force we are headed in the 
right direction. Force protection will be better tomorrow than 
it is today. But I echo the chairman's words and I echo Admiral 
Clark's words: We are vulnerable. We are very vulnerable and we 
will always be vulnerable. It is a race against the terrorist 
to see who gets to the next target first and whether deterrence 
wins out over his determined efforts to attack us.
    Sir, I look forward to your questions.
    [The prepared statement of General Robertson follows:]
       Prepared Statement by Gen. Charles T. Robertson, Jr., USAF
                              introduction
    Mr. Chairman, distinguished members of the committee, thank you for 
this opportunity to appear before you as Commander in Chief, United 
States Transportation Command (USTRANSCOM), to discuss the ``U.S.S. 
Cole--Implications and Implementation of Lessons Learned''.
    Today, America and the international community depend on the U.S. 
military to perform a wide range of warfighting, peacekeeping, and 
humanitarian missions. That said, no matter what the mission, whether 
at home or abroad, it is this country's Defense Transportation System 
(DTS) which enables America to quickly extend its ``hand of 
friendship'' or ``fist of war'' to whatever location on the globe it 
chooses to become involved. In fact, America's DTS, with its people, 
trucks, trains, aircraft, ships, information systems, and 
infrastructure, provides the U.S. the most responsive strategic 
mobility capability the world has ever seen. USTRANSCOM's 
responsibility is to manage this global mobility system.
    USTRANSCOM's ``sole source'' responsibility as the exclusive heavy 
lift provider to the U.S. military (as well as to a host of other U.S. 
agencies), coupled with its responsiveness and global reach, keep the 
command in a constant state of motion. At every moment of every day, at 
hundreds upon hundreds of locations around the globe, USTRANSCOM's 
superb soldiers, sailors, airmen, marines, coast guardsmen, and 
civilians are making our vision of world class joint global mobility a 
reality. For example, during a typical week, USTRANSCOM operates an 
average of 1,669 strategic air mobility missions transiting an average 
of 52 countries, operates 22 military ocean ports in 13 countries, and 
has 20 chartered military ships underway. Thirty-six additional 
government-owned and chartered vessels, loaded with military cargo, are 
strategically prepositioned around the world, significantly increasing 
the responsiveness of urgently needed U.S. military equipment and 
supplies during time of crisis. USTRANSCOM does all of this as a total-
force team of Active Duty, Guard and Reserve personnel, civilians, and 
commercial partners, bringing the total synergy of U.S. military and 
commercial transportation resources to bear in time of peace and 
crisis, wherever in the world they may be required.
    The above ``picture'' is drawn not to impress anyone with the 
tremendous scope of the USTRANSCOM mission, but more, to try to 
illustrate the vulnerability of the various elements of the DTS--ships, 
trucks, trains, and planes, each typically operating as a single entity 
wherever on the globe USTRANSCOM's mission may take it--to the 
challenges posed by today's terrorist element. With USTRANSCOM and its 
transportation component commands--AMC, MSC, and MTMC--serving as 
today's classic example of ``units in transit,'' there is no 
organization in the Department of Defense today with a greater interest 
in antiterrorism and force protection (AT/FP) than the United States 
Transportation Command.
                           recent operations
    USTRANSCOM's daily global CINC-support mission, coupled with DOD's 
joint exercise program, gives USTRANSCOM the opportunity to ``plan and 
execute'' regularly with the regional CINCs and their Service component 
commands and staffs. Additionally, it gives the command an opportunity 
to exercise surge shipping, prepositioned afloat stocks, military air 
and sea ports, air mobility crews and staffs, Reserve component forces, 
and the staff at USTRANSCOM. Last year, USTRANSCOM participated in 117 
joint exercises worldwide. These exercises not only allow us to 
revalidate current capabilities, they also allow us to test new 
capabilities, as well as to improve the processes we use to move 
Department of Defense (DOD) cargo within the worldwide transportation 
network.
    USTRANSCOM is a ``high tempo'' command. In fact, the command's 
operational pace during peacetime--especially that of our Air 
component--has increased dramatically since Operations Desert Shield 
and Desert Storm. As an example, let me describe USTRANSCOM's 
contributions to our most noteworthy mission since I last testified 
before this committee . . . that being our support for combat 
operations in the former Yugoslavia. Beginning in February 1999, AMC 
tanker and airlift aircraft began leading the deployment of combat and 
combat support aircraft to Europe in support of increasing the military 
capability available to the North Atlantic Treaty Organization (NATO) 
in the theater. In March of that same year, Operation Allied Force 
began in earnest, with an air campaign that lasted 78 days . . . a 
campaign which ultimately required USTRANSCOM and its Component 
Commands to split their capabilities three ways to simultaneously 
support the three distinct mobility missions which emerged through the 
multiple phases of Allied Force.
    For example, at the commencement of Allied Force, USTRANSCOM's 
first missions were in support of the United States European Command 
(USEUCOM) and NATO strategic deployment of combat and combat support 
aircraft to European bases. In this phase, AMC air refueling aircraft 
established an air bridge across the Atlantic to deploy combat, combat 
support, and airlift aircraft . . . with our airlift aircraft deploying 
accompanying support personnel and equipment. Additionally, AMC 
deployed a Major Theater War (MTW)-sized air refueling force . . . 
augmented by forces generated through a Presidential Reserve Call-up of 
Guard and Reserve Forces . . . to bases in Europe to support theater 
air operations. MSC and MTMC simultaneously began deploying ammunition 
from the U.S., through European ports, onward to NATO airbases.
    As the air campaign intensified, two new missions evolved requiring 
substantial USTRANSCOM support. The first occurred when refugees 
streamed across Kosovo's borders into Albania and Macedonia. AMC 
supported NATO's relief efforts with military and commercial contract 
airlift missions, providing emergency assistance to refugees. The 
second additional mission was deployment of the U.S. Army's Task Force 
Hawk from continental United States (CONUS) and Central European bases 
into Albania. All USTRANSCOM components supported this effort, with AMC 
providing airlift and air refueling support, MTMC operating seaports in 
Italy and Albania, and MSC providing sealift.
    It was during this phase that the C-17 became the ``workhorse'' 
airlifter of the campaign by operating as both an intertheater and 
intratheater airlifter, flying 430 missions into Albania. The aircraft 
performed superbly and offered the combatant commander a new capability 
with its large capacity and ability to land and operate at very short, 
austere airfields. Finally, as the air campaign ended, USTRANSCOM 
supported Operation Joint Guardian, the deployment of NATO peacekeeping 
forces into Kosovo by air, land, and sea.
    Support to Allied Force was a total force effort by USTRANSCOM. AMC 
tanker aircraft, placed under the operational control of USEUCOM, 
performed nearly 7,000 air refueling missions, greatly extending the 
range and ``on-station time'' of U.S. and allied combat and combat 
support aircraft. An additional 654 strategic air refueling missions 
were performed in support of the various deployments. AMC also flew 
1,108 strategic airlift missions and contracted for an additional 66 
commercial airlift missions in support of Allied Force.
    Simultaneously, MTMC operated at two U.S. seaports and eight 
European seaports in support of the deployment and onward movement of 
unit equipment, supplies, and ammunition. As NATO air strikes began 
against Serbia, MTMC began transshipment operations at seaports closest 
to the strike area. The cargo was transported in vessels managed and 
directed by MTMC in support of Task Force Eagle and Task Force Shining 
Hope, the military and humanitarian programs (respectively) to aid 
Kosovar refugees.
    The first major evidence of this support came in the form of the SS 
Osprey, which arrived May 2 in Durres, Albania. The Osprey's arrival 
signaled a critical surface transportation benchmark in the fielding 
and supply of American forces in Albania.
    The Osprey, a MSC charter, carried 60 vehicles, or 11,000-square 
feet of Air Force cargo. It was loaded by MTMC's 839th Transportation 
Battalion, Livorno, Italy and unloaded in Durres by MTMC's 840th 
Transportation Battalion, Izmir, Turkey. Unloading of the Osprey took 
place without incident. Within a week, MTMC initiated regular ferry 
operations from Brindisi, Italy, to Durres. For example, some 35,000-
square feet of equipment and supplies were moved into Albania between 
May 7th and 11th. After arriving at Brindisi by rail from Germany, the 
freight was loaded aboard an Adriatic Sea ferry--chartered by MSC--and 
shuttled northeast by east, from Brindisi to Durres, in four ferry 
runs.
    A critical shift in surface transportation support took place with 
the cessation of hostilities, as MTMC shifted gears and began to focus 
on the movement of the Army task force assigned to perform peacekeeping 
duties in Kosovo.
    In the initial entry, MTMC delivered three shiploads of combat 
equipment from the 1st Infantry Division via Thessaloniki, Greece, on 
the northern edge of the Aegean Sea. The ship cargoes included hundreds 
of combat vehicles and scores of shipping containers with equipment to 
support the 7,000 soldiers of Operation Joint Guardian.
    Strategic sealift also played a key role in supporting the combat 
forces involved in Kosovo operations. MSC supported Allied Force with 
34 strategic sealift ships to include three prepositioning ships. 
Additionally, MSC tankers carried most of the fuel products used in 
support of the operation, totaling more than 300 million gallons. MSC 
supported 29 strategic lift movements, including movement of U.S. Army 
combat forces from Bremerhaven, Germany to Thessaloniki, Greece. 
Sealift carried over 1.2 million sq. ft. of vehicles and equipment; 
245,280 sq. ft. of ammunition; plus equipment and supplies to assist 
the more than 400,000 ethnic Albanian Kosovo refugees.
    Following Allied Force, USTRANSCOM supported a fairly steady series 
of special ``headline'' missions and humanitarian deployments around 
the world. For example, AMC airlifted two Federal Bureau of 
Investigation (FBI) teams to Kosovo in July and August of 1999 to 
assist in investigations of war crimes. In July 1999, an AMC C-141B 
aircraft, supported by two air refueling tankers, airdropped medical 
supplies over Antarctica to aid an ill American doctor. On 16 October 
1999, an AMC New York Air National Guard (ANG) ski-equipped LC-130 
airlifted this same physician from Amundsen-Scott South Pole Research 
Station to McMurdo Naval Air Station on Antarctica's northern coast. 
Only Air Force airlift aircraft and aircrews had the capability to 
accomplish this challenging and lengthy mission during the bitterly 
cold Antarctic winter.
    A world away, USTRANSCOM continued its support of those in need 
following a massive August 1999 earthquake in Turkey. To aid Turkish 
recovery efforts, an AMC C-5 deployed 70 members of the Fairfax County, 
Virginia Urban Search and Rescue Team to Istanbul on a nonstop flight 
sustained by two air refuelings. All in all, AMC completed 20 airlift 
missions in support of Turkish relief efforts. A subsequent Turkish 
earthquake in November of 1999 claimed over 400 lives and injured over 
3,000. AMC and USTRANSCOM relief efforts for this earthquake mirrored 
the earlier efforts.
    In September 1999, USTRANSCOM responded to another earthquake, this 
time in Taiwan. Again, AMC deployed a rescue team from Fairfax County, 
Virginia and again, a C-5 aircraft deployed the team direct, nonstop to 
Taipei. This flight lasted 18 hours and required two air refuelings.
    The year 2000 found USTRANSCOM supporting flood relief in South 
America and East Africa. In Venezuela, USTRANSCOM flew eleven C-17 and 
five C-5 missions, transporting 189 passengers and over 527 short tons 
of food, water, blankets, water purification systems, and other 
supplies. These missions helped the people of Venezuela recover from a 
devastating flood that left almost 400,000 people homeless, 20,000 to 
30,000 dead, and destroyed 23,000 homes. In Mozambique, a 3-month 
relief operation resulted in the formation of Joint Task Force Atlas 
Response. During Atlas Response, USTRANSCOM aircraft flew 29 missions, 
carrying 720 passengers and 910 short tons of cargo to aid the almost 1 
million people made homeless by the rising floodwaters from Cyclone 
Elaine.
    In our own country, on 2 February 2000, AMC flew a nine-person team 
and 160,000 pounds of Navy search equipment to California to assist in 
the recovery operations for Alaska Airlines Flight 261 off the 
California coast.
    This past summer saw the worst western wildfires in 50 years. 
USTRANSCOM and AMC flew 30 missions and deployed 3,682 Army and Marine 
passengers, and 206.7 short tons of equipment to battle the fires.
    During this same time period, USTRANSCOM completed the first 
rotation of U.S. forces supporting Task Force Falcon in Kosovo via 
airlift and sealift. The redeployment returned the original 
participants to U.S. and European bases and deployed replacements from 
U.S. bases to Kosovo. In April 2000, AMC flew over 130 Polish troops 
and 102.5 short tons of their equipment into Kosovo, marking the first 
time Polish forces had been transported aboard a U.S. aircraft in 
support of NATO requirements. Also, for the first time, USEUCOM used 
trains to transport peacekeeping troops and equipment from Germany 
through Bulgaria and Macedonia into Kosovo. This rail-overland approach 
saved 7 days from the normal 12-day sea-overland method previously 
used. USTRANSCOM also supported the sixth rotation of U.S. forces to 
the International Stabilization Force in Bosnia with strategic lift.
    In October 2000, the Aeromedical Evacuation (AE) System provided 
Strategic AE support to the 39 sailors injured during the U.S.S. Cole 
bombing in the waters off of Yemen. The injured sailors were returned 
to the United States during a 2-week period utilizing strategic airlift 
coordinated by the Theater Patient Movement Requirements Center, 
located in Ramstein Germany and the Global Patient Movement 
Requirements Center, which is located at Scott Air Force Base (AFB).
    Additionally, USTRANSCOM and AMC relocated our Denton Humanitarian 
Cargo receiving and shipping hub from Pope AFB, North Carolina, to 
Charleston AFB, South Carolina, offering more direct access to 
strategic airlift and sealift to better support this important program. 
Utilizing military airlift and sealift, the Denton program moved over 
2.5 million pounds of humanitarian cargo from 86 donors to 39 countries 
in the year 2000 alone.
    The events just described are only a ``snapshot'' of the missions 
USTRANSCOM performed or participated in since USCINCTRANS last 
testified before this committee. Though sometimes small in scale, the 
FBI deployments, Antarctic airdrop/rescue, earthquake relief, flood 
relief, airline crash recovery support, and wildfire support efforts 
demonstrate the tremendous reach and responsiveness unique to 
USTRANSCOM's airlift forces. They are also representative of the myriad 
of tasks mobility forces must be prepared to execute, most often on 
very short notice.
    Several points are important to note in assessing these events. For 
one, America's mobility force is often as busy in ``peace'' as it is in 
war. Even though responses to events such as Hurricane Mitch are not as 
large or sustained as Allied Force, such operations are conducted 
within peacetime manning and materiel constraints. At the same time, 
USTRANSCOM continues support for Joint Chiefs of Staff and regional 
CINC-sponsored exercises, ongoing operations such as Northern and 
Southern Watch, and channel airlift missions worldwide. As a result, 
the command's peacetime force structure must routinely surge to wartime 
operational levels. For aircrews alerted on short notice to fly relief 
support to disaster areas, move fighter and bomber squadrons to 
Southwest Asia or Europe, or replace deployed crews in moving channel 
cargo, the tempo can be very similar to wartime. The more frequently we 
do these missions, the more our people look and feel as if they are on 
a wartime footing during peacetime. The past few years have brought one 
deployment after another, hence the observation that USTRANSCOM is 
often as busy in peace as in war.
    All the above aside, although USTRANSCOM is heavily committed 
around the globe conducting a wide variety of critical peacetime 
missions, our ability to support the warfighter during two nearly 
simultaneous MTWs is our paramount indicator of command readiness.
                       at/fp intelligence efforts
    USTRANSCOM is unique among DOD's CINCdoms in that it has no 
specific geographic area of responsibility (AOR); that said, TRANSCOM's 
assets daily transit DOD and commercial ports around the globe, 
frequenting, over the course of a typical year, facilities in almost 
every one of the world's countries. This simple fact--the ``mission 
driven'' inevitability of TRANSCOM's daily global presence . . . and 
concomitant daily vulnerability . . . drives its own kind of special 
challenge . . . one we think about and work to minimize everyday. As 
the tragic bombing of the U.S.S. Cole demonstrated, assets bearing the 
U.S. flag are potential targets of terrorism at any time and any place 
they may operate. In fact, U.S.S. Cole ``lessons learned'' highlighted 
a long-standing seam in the fabric of efforts to protect our forces, 
namely in-transit forces. Well before the U.S.S. Cole tragedy and the 
Commission's identification of the AT/FP seams for in-transit forces, 
the intelligence and counterintelligence efforts of USTRANSCOM focused 
heavily on ensuring our component commands were covered under the force 
protection umbrella of the areas being transited. This focus existed 
not only within the command but also with our partners at the various 
geographic CINC and national agency headquarters. For example, 
USTRANSCOM's counterintelligence staff office is dedicated to 
collection against, and dissemination of, information on the threats 
posed by foreign intelligence services and the increasingly menacing 
pool of terrorists capable of threatening USTRANSCOM assets. This small 
office works hand-in-hand with our Joint Intelligence Center-
Transportation (JICTRANS), which provides me, my staff, and component 
commanders a 24-hour-a-day, 7 day-a-week Indications and Warning (I&W) 
capability.
    Because of the unique intelligence needs of a system of single 
aircraft and ships, operating independently, daily, at ``off-line'' 
locations around the world, we are also very, very dependent on a 
robust and responsive national and defense intelligence system beyond 
USTRANSCOM. We rely heavily on the analysis of our counterparts in the 
geographic commands' Joint Intelligence Centers and Joint Analysis 
Centers, but we also know that daily, we operate through many locations 
in their AORs which are otherwise very low on their priority lists. 
Analysis and collection from our national intelligence agencies are 
equally critical for us. Frequently, the ``last piece of information'' 
we require to make our analysis ``whole'', may come from a U.S. Defense 
Attache in an African capital, a CIA clandestine source with knowledge 
of the Middle East, a tip-off from a National Security Agency (NSA) 
intercept, or a National Imagery and Mapping Agency (NIMA) analysis of 
an airfield image provided by a national system launched by the 
National Reconnaissance Office (NRO). The point is, without the entire 
gamut of intelligence resources at our disposal, our ability to protect 
our forces could be severely degraded.
    In recent months we have raised the (already) number one priority 
of intelligence support to force protection to an even higher level. 
For example, the command is engaged in an aggressive customer outreach 
program where representatives from our Intelligence, Force Protection, 
and Operations Directorates are taking ``our story'' to the geographic 
CINCs, their components and our area commands in their respective areas 
of responsibility (AORs). The fact that mobility assets often travel in 
smaller numbers and with lower operational visibility has mandated for 
years that USTRANSCOM take steps to ensure movements of these assets 
are included in the overall force protection efforts of the appropriate 
geographic CINCs. The Cole bombing only underscored the importance of 
our efforts . . . and added a new ``sense of urgency'' to our focus. 
From an intelligence perspective, the Cole Commission reported: ``. . . 
theater JICs and component intelligence organizations must place a 
greater priority on supplying relevant intelligence tailored to the AT/
FP and intelligence preparation of the battle space (IPB) requirements 
for units transiting their area of operations''. Through the positive 
support of all involved, we are closing seams and effecting a 
significant improvement in the lash-up of TRANSCOM assets with theater 
joint intelligence centers and component ``threat watches'' around the 
world.
                     at/fp challenges and responses
    USTRANSCOM aircraft, ships, Tanker Airlift Control Elements 
(TALCEs), and crews operate daily in significant or higher threat level 
areas, and are for the most part unarmed. Only through close 
coordination with embassy country teams and the geographic CINCs, and 
the extensive efforts of our own threat working groups, are we able to 
approach mitigation of the threat. That said, there are still 
significant vulnerabilities we deal with every day, to include host 
nation restrictions regarding arming of our security teams, 
restrictions on the use of our Aircraft Defensive Systems (ADS) in 
certain locations, and reliance upon host nation contracts for services 
performed.
    Probably my greatest concern--every day--is the threat posed by the 
increasing global proliferation of man portable air defense systems 
(shoulder-launched anti-aircraft missiles) or MANPADs. Additionally, 
increasing numbers of potential adversaries have developed, or are 
developing, sophisticated integrated air defense systems (IADS). We 
know that MANPADs are available and are likely in the hands of our 
terrorist adversaries. According to a 1997 CIA Report, over the 
preceding 19 years, the global proliferation of MANPADS has resulted in 
over 400 casualties in 27 incidents involving civil aircraft alone. As 
an unfortunate modern-day ``fact-of-life'', this proliferation has 
forced air mobility planners to frequently select less than optimal 
mission routes due to lack of defensive systems on airlift aircraft. In 
fact, most recently, during Operation Allied Force, concerns about the 
Yugoslav air defense system, especially their mobile launchers and 
MANPADS, forced these types of mission route changes on a regular 
basis. To counter threats such as these, in the future, AMC and the Air 
Force are developing a Large Aircraft Infrared Countermeasures (LAIRCM) 
system designed to protect mobility aircraft required to operate in 
such environments.
    Some, but not all, of our organic airlift fleet is equipped with an 
early generation aircraft defensive system (ADS). Unfortunately, this 
version of ADS, the only system currently capable of providing even 
minimal protection for large aircraft, is very sensitive and, as a 
consequence, will occasionally cue on light sources in the same 
spectrum as the surface-to-air missiles it is designed to protect 
against, and can launch flares inadvertently, even though the aircraft 
is not actually being targeted by a MANPAD or other system. Although 
our flares pose no actual risk to anyone or anything on the ground, the 
political sensitivity of inadvertent flare launch has led several 
nations to deny ADS use in parts of their airspace. A new generation of 
ADS, one which AMC will field over the next several years, will reduce 
the likelihood of inadvertent launch. That said, current funding only 
supports equipping a fraction of the airlift fleet while retaining the 
current, older systems for the remainder. Of course, none of our 
commercial contract carriers are ADS equipped. We rely on their 
commercial profile and markings, blending them in with other commercial 
air traffic, to mitigate their risk. In the meantime, I'm encouraged by 
the State Department's direction to our ambassadors to work with our 
geographic CINCs and respective host nations to increase their 
responsiveness to our need to protect our forces and thereby reduce 
sensitivity to ADS use. This direction focuses on allowing U.S. forces 
maximum opportunity to protect themselves, as well as on the 
requirement for host nation security forces to better protect our 
people and resources while in, or transiting, their countries.
    Much like the U.S.S. Cole, the strategic sealift fleet of 
USTRANSCOM's Navy component, Military Sealift Command (MSC), is also 
vulnerable to terrorist or asymmetric attack. MSC's merchant vessels 
are essentially defenseless, yet they carry large volumes of high value 
DOD cargo during contingencies, and are vulnerable to attack in port, 
at anchorage, and in-transit through disputed waterways and choke-
points worldwide. Since they may operate independent of naval escorts, 
and since they are typically operated by small, lightly armed (if armed 
at all) civilian crews, we are reviewing options to ensure their 
protection from a growing number of asymmetric threats including piracy 
and terrorism. Of course, our primary reliance is, and must be, on the 
geographic CINCs and their component commands to provide port and 
waterside security. In this regard, both the Navy and the regional 
commanders have significantly increased their involvement in providing 
protection for all naval vessels. That said, in my view, due to the 
relatively small size of the crew complement aboard these merchant 
ships, technology must be the additional ``force multiplier'' that 
provides us the capability to detect, identify, and deter threats. For 
example, MSC is developing a ship defensive system that will use 
thermal imaging and intrusion detection devices to help protect the 
merchant shipping used by DOD. In the end it is our expectation that 
the combination of an increased awareness by all parties, coupled with 
wise investments in modern detection and defensive technologies, will 
provide our ships, in the future, with the level of deterrence and 
protection they require.
    The land element of USTRANSCOM's strategic mobility triad is MTMC, 
our Army component. MTMC's port handlers are deployed to high threat 
locations on a daily basis. Operating as small teams, most often 
without the benefit of other U.S. forces present, they too, in their 
own way, are vulnerable. To the maximum extent possible, we tie these 
personnel into the force protection plans of the closest U.S. military 
facility or American Embassy to which they are operating. These 
soldiers and civilians are well-trained in individual protective 
measures and employ these measures to reduce their profile and 
therefore their vulnerability.
    Weapons of mass destruction (WMD) attacks by terrorist groups, and 
state-sponsored or non-state actors, pose an ever increasing threat 
around the world. Nuclear, biological, or chemical (NBC) weapon attacks 
on enroute or arrival airfields and seaports during a major deployment 
would significantly reduce throughput, dramatically slowing the arrival 
of combat forces and/or sustainment supplies into the respective CINC's 
AOR. Again, in-transit mobility forces would rely on the appropriate 
geographic CINC for the major portion of their WMD force protection. 
That said, our military aircraft and ships are prepared to (and would) 
operate, as required, in contaminated environments. On the other hand, 
our Civil Reserve Air Fleet (CRAF) and Voluntary Intermodal Sealift 
Agreement (VISA) commercial carriers are not obligated to proceed into 
such areas, and given today's increased threat, we are doing everything 
possible to provide reasonable protection for our commercial crews who, 
despite all precautions, could be trapped in a port, and exposed 
inadvertently to contamination while supporting a deployment. 
Additionally, AMC is developing and testing a procedure designed to 
protect commercial aircraft and personnel by transloading cargo from 
commercial aircraft onto military aircraft. This procedure will allow 
AMC to keep the commercial side of its lift effort moving forward, as 
far as possible, into protected areas, and by transloading that cargo 
onto organic (military) aircraft, continue its last leg of movement 
into the higher-risk areas. This will hopefully ensure, in time of 
crisis, a near uninterrupted flow of personnel and cargo into a 
theater.
    Significant progress has been made in improving the protection 
posture of our merchant mariners. Five of six Maritime Union Schools 
have been certified to teach chemical, biological, and radiological 
(CBR) defense courses and three of seven maritime academies are 
preparing to teach MSC-sponsored CBR defense courses. Today, all Fast 
Sealift Ships (FSSs), Large Medium Speed Roll-on/Roll-off Ships 
(LMSRs), and prepositioning ships are CBR defense equipped. Recently, 
MSC also received funding to begin purchasing CBR defense equipment for 
Ready Reserve Force (RRF) ships and, to date, $987,000 has been 
obligated to fully outfit 36 of 76 RRF vessels.
    Progress is also being made in providing protection for our Civil 
Reserve Airlift Fleet (CRAF) aircrews. Although we would never require 
a civilian crew to operate in a known hazardous area, AMC stores and 
maintains protective clothing and equipment for issue to civilian 
aircrews prior to their entry into even potentially hazardous areas. 
This equipment is currently stored at a central location for inventory 
and replenishment reasons and stands ready for immediate issue.
                      ustranscom at/fp initiatives
    USTRANSCOM possesses only limited physical AT/FP capability 
itself--provided by security forces under our direct command. In fact, 
the sole organic defensive capability available to USTRANSCOM units is 
Air Mobility Command's (AMC's) PHOENIX RAVEN program. Under the 
direction of AMC's Tanker Airlift Control Center (TACC), these forces 
are specially trained and equipped for the close-in defense of 
individual aircraft and crews. At the recommendation of the AMC Threat 
Working Group (TWG), PHOENIX RAVENS deploy as part of the aircrew in 
two to four-person teams to augment security provided by supported CINC 
and host nation forces. Though an extremely successful program, it is 
imperative to understand that PHOENIX RAVENS are intended only to 
augment existing forces and not to relieve geographic CINCs or Chiefs 
of Mission of their AT/FP responsibility.
    The cornerstones of our AT/FP processes at USTRANSCOM are oversight 
and coordination. To facilitate the oversight process, the USTRANSCOM 
force protection office developed the Force Protection Oversight 
Program (FPOP). This web-based program tracks compliance with all 31 
DOD antiterrorism standards for each of the component commands, down to 
their individual units. This program gives our commanders the ability 
to report their compliance status and to provide details of shortfalls, 
``get well'' plans, and resource requirements. Through this program, my 
staff and I have immediate access to the status of all forces under our 
purview, down to the unit level.
    Obviously, USTRANSCOM relies heavily on the geographic CINCs for 
force protection support. That said, we recognize that the constant 
movement and relatively low profile of some of our assets make such 
support a significant challenge, one for which we share a great deal of 
the responsibility for success. Along this line, we think we are making 
significant progress in mitigating the force protection vulnerabilities 
of our assets. The AMC Threat Working Group (TWG) process, which is 
essentially an ``operational risk management'' system, has long been 
the benchmark for U.S. Air Force AT programs and is clearly a potential 
blueprint for one element of an enhanced Navy Port (and ``transiting 
ship'') AT program. Even before the attack on the U.S.S. Cole, AMC was 
conducting daily, individual assessments of each and every mission into 
significant or higher threat level locations. This robust TWG process 
evaluates a number of factors, to include terrorist threats against 
force protection posture at airfields, then recommends additional 
measures (if required) for implementation by the TACC and/or by our 
crews. In some cases, their recommendations require requests for 
additional supported CINC and/or host nation security forces. The TWG 
process covers missions by both Air Force aircraft, as well as missions 
by our commercial contract carriers. While not unique in structure, 
this coordinated effort of Intelligence, Security Forces, and 
Operations is certainly among the most comprehensive programs of its 
kind in DOD. Furthermore, AMC's robust and successful TWG process is 
now being replicated in other theaters. At USTRANSCOM, we have also 
created a similar ``Force Protection Triad'' of intelligence, force 
protection and operations staffs to ensure inter-theater, unified 
command oversight of all potential threats and corresponding counter-
measures for all CINCTRANS missions, be they by air, sea, or on the 
ground.
    With regards to USTRANSCOM's maritime assets, I'm encouraged by 
what I see going on around the world to provide increased protection 
for MSC's ships, especially in the CENTCOM area of responsibility. Our 
MSC theater units are now linking with theater threat working groups, 
and theater intelligence centers are working to ensure increased 
visibility for USTRANSCOM maritime assets. Along these lines, our 
Counterintelligence Office and JICTRANS are aggressively engaged with 
our components, working to ensure an effective federated risk 
management process is supported across geographic areas of 
responsibility as well as across our operations, intelligence, and 
logistics functional mission areas, to achieve 100 percent coverage. 
Furthermore, we are working with the intelligence and force protection 
offices for each USTRANSCOM Component Command to ensure they have the 
necessary connectivity to receive all pertinent threat data.
    The enhancement of our force protection posture and capabilities is 
one requiring constant attention and increased resources. USTRANSCOM's 
responsibilities span the globe, hence any threat to American 
interests, anywhere, is at least a collateral threat to our people and 
our assets. There are many good news stories out there, such as the 
U.S. Joint Analysis Center in the United Kingdom dedicating a new 
position on their 24/7 watch to focus solely on transiting forces. Also 
noteworthy are our intensified actions to ensure ``eyes-on'' tracking 
of the lower profile MSC vessels, and small numbers of MTMC personnel 
moving in and out of relatively unknown ports. Still, the challenges 
are great and only through the continued and increased teamwork of the 
entire intelligence and counterintelligence communities can we hope to 
remain successful.
                               conclusion
    The bombing of the U.S.S. Cole was a tragic event--in fact, the 
latest in a long series of tragic events--that only serves to remind 
all Americans of the risks our brave service men and women face 
everyday as they carry out the myriad of missions we ask them to 
perform. Our hearts go out to those who lost loved ones or were injured 
in the U.S.S. Cole bombing. Yet, while we grieve with the families of 
the U.S.S. Cole victims, USTRANSCOM is working diligently to mitigate 
the risk of future attacks on U.S. forces.
    That said, in closing, let me reiterate some of the key steps 
USTRANSCOM has taken, and/or is taking, to reduce the vulnerability of 
our forces operating daily around the globe. First, the command 
individually reviews each strategic air and sealift mission into 
significant or higher threat areas and coordinates specific mitigating 
measures with the supported CINC or Chief of Mission to ensure adequate 
FP is provided for these ``in-transit'' forces. Additionally, I reserve 
the right to ``veto'' any mission into a ``significant'' or higher 
threat location where adequate FP cannot be provided, attempting in 
such cases, where it is at all feasible, to move the mission into a 
nearby alternate airport or seaport where FP is adequate to counter the 
threat. USTRANSCOM is also continuing coordination with the geographic 
CINCs for increased security ``vetting'' and/or escort of Host Nation 
and/or Third Country National contract personnel who service AMC 
aircraft, MSC or MARAD ships, and MTMC port operations. Finally, we 
will continue to pursue programs like LAIRCM (and similar defensive 
technology efforts), as well as the funding that goes with them, to 
improve the self-protection capabilities of our resources.
    The ``quiet heroes'' of the U.S. Transportation Command, who I am 
so proud and honored to command, stand ready daily to perform their 
critical mobility mission in support of the full range of tasks 
assigned. Realizing the tremendous value of our transportation assets, 
as well as the critical importance of our global mission, we constantly 
strive to ensure the best possible protection for our active and 
Reserve soldiers, sailors, airmen, and marines, as well as for our 
civilian employees, commercial partners, and our equipment, against 
terrorist attack or any other asymmetric threat. Making the best 
possible use of currently available intelligence, counterintelligence, 
and physical force protection information and assets, the command will 
continue to do everything we can to enhance AT/FP and to seek new 
opportunities for cooperation with others in the DOD community. Let me 
close by saying thank you, once again, for this opportunity--to present 
USTRANSCOM and its ongoing AT/FP efforts to this committee.

    Chairman Warner. Thank you very much.
    We will proceed to a 6-minute round of questioning. 
General, I am going to digress from the principal subject of 
our hearing to ask you a question about China. Yesterday the 
Secretary of Defense issued what I believe is a quite correct 
admonition that he will examine on a case-by-case basis the 
relationships between our military and the Chinese military. I 
do not wish to get into today the need for a correction 
midcourse, but I want to know what your view is with regard to 
the Secretary's action yesterday.
    I support it. I think it is a prudent one, given the 
circumstances, and particularly the manner in which the Chinese 
military in my judgment did not professionally handle, respond, 
or otherwise conduct themselves from beginning to end in this 
incident involving our aircraft which was forced to land in 
China.
    General Shelton. Mr. Chairman, I just returned last evening 
from abroad, have not had a chance to discuss this memorandum 
that you are referring to, I believe, with the Secretary. 
However, I would tell you that I think in a very prudent manner 
the Secretary has been actively involved since the EP-3 
incident in reviewing our posture, reviewing our plans, and 
making decisions on a case-by-case basis as to activities, 
military-to-military, which would proceed and which ones might 
be suspended, which ones might be deferred, etcetera.
    I echo your comments. I think he has done that in a very 
prudent manner.
    Chairman Warner. Now returning to the inquiry at hand, the 
Crouch-Gehman report I think definitely brought to a full 
awareness needs to make and take corrective actions. But the 
inherent question is as we read through that report we have to 
say to ourselves, why did it take a tragic accident to force us 
to do that type of thinking and to institute those 
recommendations? I realize that hindsight is a valuable thing, 
but as we read through them they seem to me to be a very 
prudent and thoughtful recitation of steps that should be 
taken. I ask most respectfully, why had we not thought of those 
things beforehand, certainly some of them, and implemented 
them?
    General Shelton. Mr. Chairman, to address that I would like 
to use a quote that comes from Thomas Schelling in the foreword 
to Roberta Wohlstetter's book about Pearl Harbor. He said: ``It 
is not true that we were caught napping at the time of Pearl 
Harbor. Rarely has a government been more expectant. We just 
expected wrong. It was not our warning that was most at fault, 
but our strategic analysis. We were so busy thinking through 
some obvious Japanese moves that we neglected to hedge against 
the choice that they actually made. There is a tendency in our 
planning to confuse the unfamiliar with the improbable.''
    I think that in the process what we had really--in the 
process of looking at force protection, what we had 
concentrated most on in the interim were the larger fixed 
sites, places where we had lots of lives at risk, and had 
become target-fixated, if you will, to some respect with these 
larger types of targets, driven probably by the attack on 
Khobar Towers, on the Beirut barracks incident, as well as the 
attack on our embassies.
    Having never experienced the in-transit, it was not that it 
was ignored. For example, I think as you heard from testimony 
from General Zinni and from General Franks, General Zinni had 
personally visited Yemen, one of the in-transit sites, to make 
sure that he was satisfied that we were providing the proper 
security, the proper contracts were in place, etcetera. It had 
also been visited by Admiral Moore from Fifth Fleet to make 
sure that he felt comfortable. As a result of those visits, in 
fact, the ship was moved from in-port refueling out to the 
refueling dolphin, which would add a greater standoff and hence 
better protection for our ships.
    So again, it was a matter of not having ignored it, but 
probably not having paid as much attention to our 
vulnerabilities, to the seams that the terrorist could find, 
for the in-transit units that we probably should have been 
paying attention to.
    Chairman Warner. I have here the report that was written in 
1993, ``Protection of DOD Personnel and Activities Against 
Active Terrorism and Political Turbulence,'' February 1993, 
Assistant Secretary of Defense for Special Ops. He has a whole 
section right here titled ``Waterside Security'' on how to 
protect ships' berth. I find a striking parallel between the 
contents of this and the Crouch-Gehman report. But there is a 
7-year interval.
    It seems to me that if these steps had been followed 
perhaps--and again, it is hindsight--perhaps this situation 
would not have happened.
    General Shelton. Mr. Chairman, I think that some of the 
steps that are recommended you would find, in fact, if not all, 
have been incorporated into the plans. However, the threat 
levels that are in the area you are operating in drives the 
types of conditions that you operate under. In this case, we 
were operating at Threat Condition Bravo, which required the 
skipper of the ship to carry out these 62 types of force 
protection measures, those that were applicable for shore.
    If it had been a higher threat level, had we had 
indications of a specific threat within Yemen, it would have 
driven that threat condition up and maybe even gone up to 
Delta, which has a whole other set of requirements that go with 
protecting your force.
    Chairman Warner. General, thank you. I'll proceed to my 
final question. That is the fundamental one that I asked in my 
opening statement. First, your role in reviewing these two 
incidents by the Navy, first the Cole and second the 
Greeneville; and do you concur in the actions that were taken, 
the levels of accountability that were established by the two 
commanding officers? In your judgment, do these actions reflect 
any change in the longstanding history in our country of 
accountability of military officers?
    General Shelton. Thank you, Mr. Chairman. Let me answer the 
last part of the question first. The answer is no, they do not 
reflect a change. Let me also say, I have not had a chance and 
have not had a role in the Greeneville report, so I will have 
to limit my comments to the Cole.
    I have a statutory role to provide the Secretary of Defense 
with advice as his principal military adviser. I am sure that 
you understand that for me to properly fulfill my role, I try 
to do that in private. But having said that, let me address the 
accountability issue from my perspective as I reviewed both the 
JAGMAN as well as the Crouch-Gehman report.
    Whenever I deal with accountability issues at any point, in 
previous times as a commander or now as the chairman, I begin 
with the premise that I must know all the facts before I 
proceed to judge another person or to make a decision when I am 
a commander or a recommendation as the chairman that could end 
in either criminal penalties against the individual or in a 
move that could end that particular career. I start off, and I 
am certain that every time that we have an accident that occurs 
or Americans are killed as a result of premeditated murder, as 
we had in the case of the Cole, that the Americans that are 
responsible for them are not the individuals that caused the 
deaths in the case of a premeditated murder, and that we in 
fact have to make sure that we have all the facts and that we 
consider the facts associated with each case before we render a 
judgment.
    In addition, there are various levels of accountability, 
Mr. Chairman. We have punitive, we have administrative, we have 
personal and professional. Accountability encompasses that 
whole range and the consequences that go with it in ways, are 
not all always visible to the general public.
    In this case I had the benefit of being able to read the 
JAGMAN investigation. I not only read it, I had a team of my 
own which included some members of the Crouch-Gehman Commission 
that went through and reviewed the voluminous materials that 
were associated with the Crouch-Gehman, not just the final 
report, but some of the other data as well.
    I did the same thing with the JAGMAN. I went through it in 
great detail and I had other members of my staff go through it 
and give me their recommendations.
    I believe that the findings were appropriate.
    Chairman Warner. Were appropriate, they were appropriate?
    General Shelton. Yes, sir. In terms of the Crouch-Gehman, 
they did not specifically address accountability. That was not 
their charter.
    Chairman Warner. Correct.
    General Shelton. But as you look at the very thorough 
reports that came out of them, particularly when you combine 
the JAGMAN, the findings of that report, with the Crouch-
Gehman, we find that you can, in fact, make some I think 
informed judgments and decisions based on accountability--or 
about accountability.
    I will let Admiral Clark address the JAGMAN later in the 
interest of time. But I felt that the judgments that were 
rendered by the chain of command, in this case, as you 
mentioned, by Admiral Natter, by Admiral Moore, and by Admiral 
Clark, the CNO, were the correct judgments. As for others in 
the chain of command, from what I got out of Crouch-Gehman and 
the JAGMAN, starting with the intelligence community, the 
attack on the Cole was not the result, in my opinion, of an 
intelligence failure. I just quoted Roberta Wohlstetter. We 
failed to anticipate what appeared to be the improbable or the 
weakest link in the chain.
    The community I think provided the best available and most 
relevant information that they had at the time. The Cole 
Commission makes numerous recommendations that deal with how we 
can probably do that better in the future, and I firmly believe 
that we can and in fact have a recommendation with the 
Secretary now as to the way that I think we can significantly 
enhance our intelligence ability or our intelligence 
community's capability to deal with these asymmetric and 
transnational threats, which obviously, we are going to face 
more and more in the future, as I think all intelligence 
estimates I have seen indicate we will face.
    In terms of CINCCENT, as I indicated earlier and as you 
heard General Zinni testify before this committee, General 
Zinni, in fact, was involved in the choice of Aden. He in fact 
visited Aden. He felt that after he ordered a vulnerability 
assessment of Aden and after reviewing all of this, that Aden 
was okay for a refueling site. I find nothing in General 
Zinni's decisions or in his comments, nor in those of General 
Franks, who subsequently looked at Yemen, that was directly 
related to an attack on the Cole or contributed to the attack 
on the Cole.
    When you look at Admiral Moore, his naval component 
commander, Admiral Moore was personally also involved in the 
selection of Aden as a refueling site, personally involved in 
the force protection decisions of his component forces. The 
Cole Commission found when they looked at his operation and his 
force protection program that ``it was thorough and robust.''
    Although I think in retrospect probably Admiral Moore would 
tell you that he wishes he would have paid even more specific 
attention to what the Cole was planning to do, there was no 
doubt, we had no reason, he had no reason to doubt that the 
Cole had a good plan in place, that the Cole was going to carry 
out that plan, and that it was adequate given the force level, 
and threat levels that the Cole would be operating in when he 
went in for his brief refueling stop.
    Finally, there was CTF-50, the Carrier Task Force 50; had 
been in theater a little less than a month, had been actively 
involved in maritime interdiction operations, was actively 
flying almost on a daily basis in our Operation Southern Watch. 
He reviewed the report that was submitted to him by the Cole 
prior to going in and had no reason to doubt, when the Cole 
skipper submitted that report, that it would not be carried out 
and that those actions were in fact sufficient, given the 
threat level that he faced.
    So finally, I think that when you look at the entire chain 
that I have just gone through and then bring it right on up 
from the CINC up to the Secretary and myself, I think that we 
all realized that we could probably, everybody in the chain of 
command could have done better. As you said earlier, maybe we 
should have been thinking more out of the box than we were. 
However, I think that as you look at the chain there was no 
dereliction and there was certainly no criminal intent or any 
criminal actions or anything else that warranted punishment, 
from the CINC right on down to the skipper.
    Chairman Warner. Thank you.
    Admiral Clark, this is a book that is written by, co-
authored by Admiral William P. Mack. I was privileged to know 
this great naval officer. When I was Secretary of the Navy he 
was Superintendent at the Academy, and I must tell you that he 
reflects to me then, as he does today, the conscience of the 
Navy. As a matter of fact, I was a young man when I had that 
job and I made my share of mistakes, and he very courteously 
but firmly dressed me down, and properly so, on one occasion.
    But he writes in this book, and I will quote from it: ``The 
accountability of command. In navies in general and in the U.S. 
Navy in particular, strict accountability is an integral part 
of command. Not even the profession of medicine embraces the 
absolute accountability found at sea. A doctor may lose a 
patient under trying circumstances and continue to practice. 
But a naval officer seldom has the opportunity to hazard a 
second ship. There have been times and those who questioned the 
strict and undeviating application of accountability in the 
Navy, but those that have been to sea have always closed ranks 
against the doubters.''
    On the next page: ``In each case, as well as in other 
instances of the mishandling of ships at sea, the doctrine of 
full accountability has been strongly enforced in the U.S. Navy 
and will continue to be at the very heart of command at sea.''
    I presume you concur in those observations of a great 
sailor. My simple question to you, as you look back, as 
difficult as it is, at this case, have the judgments that have 
been rendered by yourself and others in any way changed that 
doctrine that has been at the heart of our Navy since its very 
inception?
    Admiral Clark. Mr. Chairman, in my view, absolutely not. 
Let me say that I received as a gift that book when I went to 
my first command as a lieutenant. I devoured it. I understand 
and I believe in the whole fundamental principle of 
accountability of our commanders.
    Going back to the first sentence that you read, it talked 
about the accountability of command. It did not say the 
punishment of command. It is my view that we have in this case 
held all of the parties accountable for their actions. There 
are some who believe that because they were not punished 
somehow they were not held accountable, and I do not agree with 
that. Let me say why that is so.
    The criteria that I used, Mr. Chairman, was this----
    Chairman Warner. Could I interject. You and I know each 
other quite well. I think the record should reflect, of all 
those on active duty now, you have probably had more time as a 
ship's captain at sea than any other. I checked that. So I 
think you speak with considerable authority.
    Admiral Clark. Well, I would say that I thank you for 
pointing that out. It is not all ships. It is groups and fleets 
and destroyer squadrons. But I believe that to be true, yes.
    My criteria was this, Mr. Chairman. First, I make a 
judgment about accountability based upon--and I included this 
in my endorsement. I wanted the world to know. I wanted my Navy 
to know. I added emphasis to that in a message that I sent 
later, that we can talk about if you would like, on exactly the 
way I intended for my Navy to interpret this, but that I would 
judge this commander first of all on the premise that, did this 
commander conduct himself within the standards that we expect 
of our commanding officers? The quotation that you cite and the 
words in your opening statement, it is a long part of our 
heritage and culture that we believe in giving-- because of 
where we send our ships, into the far corners of the earth, 
where they have to act independently, we give them a lot of 
responsibility and we give them all the authority that they 
need to take the actions that are required of them to command 
their ship.
    So within this, with this criteria, what is the spectrum of 
the standard? Some operate at the high end of that standard and 
some in the middle and so forth. They are not all the same. But 
there is a band of acceptability, and it was my judgment that 
first and foremost in that band of what is expected of our 
commanding officers one of the things I expect them to do is I 
expect them to make independent judgments. This commanding 
officer did, and some of those judgments involved the setting 
aside of some of the measures.
    First and foremost, he was willing to step forward and make 
the kind of judgments that I expect commanding officers to 
make.
    The second part of the criteria that I used in my 
accountability assessment was this. We specified, the system 
specified, specific things that he was supposed to do. The 
base, the initial investigation, does a tally of numbers, he 
did this, he did not do this, and so forth. Some of those he 
set aside intentionally and so forth. Then judgments are made 
about the efficacy of those that were accomplished.
    My criteria was this, and it is for every commanding 
officer, Mr. Chairman: Would any specific actions that we 
directed him to take, if he had taken them and he did not, and 
the system, his command structure, told him to do that, would 
it have prevented this attack? All of the endorsers in the 
chain of command and those that reviewed this investigation 
above me agreed with my conclusion that they would not have 
changed the outcome, that this attack would have been 
conducted.
    Now, this is an open statement, open session kind of a 
statement. In closed session I would be happy to get into the 
rules of engagement and the way you make, how individuals make 
judgments and what kind of warfighting tactics and principles 
would be required to stop the attack.
    I do not mean to imply that the attack could not have been 
prevented, but I do mean to say very succinctly that they could 
not have been prevented with the measures that were prescribed 
for this commanding officer. So my judgment was that, 
fundamental to accountability, is the accountability of the 
chain of command and those superiors, that I judged this fairly 
and based upon the facts, and this particular case was about an 
attack being conducted on the ship. In my judgment, this 
commanding officer was held accountable and I judged him.
    As you said in your statement, I found some things that I 
think he could have done better. But I do not believe that 
those things rise to the level of warranting punishment, to 
courtmartial him, or something. I did not believe that that was 
the case, and that was the way I made my judgment, Mr. 
Chairman.
    Chairman Warner. Thank you, Chief.
    I am going to put into the record at this juncture your 
message to all commanding officers following the incident.
    [The material referred to follows:]
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
      
    Chairman Warner. I am also going to put into the record the 
recitation from the Khobar Towers report about Waterside 
Security. I think in parallel they should be judged.
    [The material referred to follows:]
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
      
    Chairman Warner. Senator Levin.
    Senator Levin. First, the chairman asked a question about 
China, General Shelton, and I want to follow that up with the 
following question. There were two changes in our policy 
relative to military-to-military meetings within the last 24 or 
48 hours. First, military-to-military meetings were suspended 
or contacts were suspended. Then I understand that that was 
changed to a case-by-case review of those contacts.
    You indicated you were apparently not personally involved 
in the memoranda which were discussed in the media today 
revising the policy, apparently twice. My question is this: Do 
you know if the Vice Chair of the JCS or other members of the 
JCS or Admiral Blair, who is Commander in Chief of the Pacific 
Command, were consulted or involved in either revision of the 
policy?
    General Shelton. Senator Levin, for the record I actually 
saw the memorandum this morning, the 30 April one you are 
referring to now. There has been involvement in terms of the 
review of the military-to-military on a case-by-case basis all 
along the way. I cannot really address--I have not had a chance 
to talk to the Secretary about the memorandum, so I cannot 
address that second part of your question right now.
    Senator Levin. As to whether or not anybody----
    General Shelton. I am not sure what--that was not a 
memorandum that was signed by the Secretary, and I am not aware 
of what coordination might have gone into that. I also 
personally was on the road at the time. So I will have to 
provide you the answer for the record.
    Senator Levin. Would you let us know whether or not your 
Vice Chair or any member of the JCS was involved or consulted, 
or a commander or a CINC was involved in the preparation of or 
approval of or involved with the memorandum that you just 
referred to as the April 30 memorandum?
    General Shelton. Yes, sir.
    [The information referred to follows:]

    With regards to the first question, the U.S. Pacific Command, 
members of the Joint Staff, and I were all consulted and involved in 
discussions that lead to the revision of the policy involving military-
to-military contact with the Peoples Republic of China in the weeks 
following the EP-3 incident.
    With regards to the 30 April 01 memorandum signed by Mr. Chris 
Williams from the Office of the Secretary of Defense, the Joint Chiefs 
of Staff and Admiral Blair (USCINCPAC) did not coordinate on the 
memorandum prior to its release on 30 April 01. Furthermore, we were 
not involved in the decision to later rescind the memorandum.

    Senator Levin. Admiral Clark, I would like to ask you a 
couple of questions about your accountability standards. This 
goes to General Shelton, I guess first, and then to you, 
Admiral, I do not believe that either the Crouch-Gehman 
Commission or the JAG Manual investigation were charged with 
looking at the levels of command above the commanding officer 
of the Cole. Now, they might have in the process of their 
charge made some comments on it. But am I correct to say that 
the levels of command above the commander and the crew of the 
U.S.S. Cole were not looked at in terms of accountability, 
either by Crouch-Gehman or by the JAG Manual?
    Let me start with General Shelton.
    General Shelton. I will let the CNO talk about the JAG 
Manual. But Bill Crouch and Hal Gehman were not charged to look 
at accountability by their charter. When their report came back 
in, however, it became quite obvious that the detail of this 
report--and they looked at the issue from the skipper of the 
ship right on up through the CINC--rendered enough information 
that you could make judgments in accountability all the way 
down the chain through, as I indicated, CTF-50.
    Senator Levin. Thank you.
    Admiral.
    Admiral Clark. That states the case for Crouch-Gehman. The 
case for the JAG Manual specifically was an inside the lifeline 
examination of the conduct and the performance of the 
commanding officer and the crew of the U.S.S. Cole. So it did 
not address specific responsibilities of the chain of command 
above the commanding officer.
    Senator Levin. What was the reason why it was not? Should 
it not have looked at the chain of command above the commander 
and the crew?
    Admiral Clark. I can only judge the actions inside the 
lifelines. I cannot speak for the decisions or the reasoning 
that went into the discussions with the principals in the 
Crouch-Gehman, and I will defer to the Chairman on that. I 
would just pass to you that from the very moment that this 
occurred--and I recall the first session, a matter I guess of 3 
or 4 hours into the event, that we sat down with the Secretary 
and discussed the issue, and I informed him that by our 
standards we would be conducting an investigation of activity 
on the Cole.
    Then the discussion turned to the requirement for a broader 
investigation, and the Chairman can talk about the way that 
came to be.
    Senator Levin. In any event, no one was charged with the 
accountability assessment above the commander and crew of the 
Cole; is that accurate?
    Admiral Clark. I believe that, as the Chairman stated, that 
that is a correct statement.
    Senator Levin. All right. Now, I was very much taken by 
your description of accountability, by the way, and I have only 
really one question about that. Your testimony and I think in 
the other document which the chairman put in the record, you 
say the following; that in assessing the accountability of the 
commanding officer, the reviewing authorities focused on two 
significant issues. First, were they reasonable within the 
range of performance; and second is the following: would any of 
the force protection measures not implemented by the Cole have 
deterred or defeated a determined attack?
    Now, it would seem to me that that may be too easy, 
slightly too easy a standard. I say this with some trepidation, 
given my admiration for you and your background, knowledge, and 
experience. But nonetheless, I will ask the question anyway. 
Say that the force protection measures which were not 
implemented might have deterred or defeated the attack. Would 
you think then that that standard should be met?
    Admiral Clark. I think that I certainly should have 
considered it and it would depend on not just the measure, but 
the tactics that would be employed to execute the measure.
    Senator Levin. But my emphasis is the following. Instead of 
using a standard ``would have,'' because then you can say, 
well, you cannot say that they would have, but what happens if 
you conclude they might have? You cannot conclude that they 
would have deterred, but you think they might have deterred. 
Should there not be an accountability for that? Should that not 
be the right standard?
    Admiral Clark. Well, I cannot make a statement like that, 
Senator.
    Senator Levin. No, I am not asking you to make it about the 
Cole. I am talking about a standard in general. I am saying if 
a force protection measure not taken in general, in some 
generic way, might have deterred an attack, should that not be 
sufficient?
    Admiral Clark. I believe that there could be measures that 
I would come down and I might make that judgment. But ``might'' 
is an awfully loose word. So it is too loose a word for me to 
make these kind of judgments. When we say to our people, we are 
going to send you forward--when the chairman read the statement 
from ``Command at Sea,'' it talked about mishandling his ship, 
or her ship in today's world, not like when ``Command at Sea'' 
was written. It talked about those kind, that kind of action--
dramatically different than being attacked by a terrorist.
    So I believe that the criteria of something that might have 
happened, ``might'' is an awfully loose word.
    Senator Levin. Might have happened, might have deterred.
    Admiral Clark. ``Might have deterred'' is awfully loose. So 
I would say I would have to make that judgment based on what 
that specific was and the tactics used to implement the action.
    Senator Levin. Thank you, Admiral.
    My time is up.
    Chairman Warner. I would like to put into the record at 
this point documents which I think could possibly be slightly 
different than what you said about Admiral Moore's 
responsibility. I am going to ask you to review it. You can 
then seek what clarification may be necessary.
    [The material referred to follows:]
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
          
    Chairman Warner. Senator Roberts.

                STATEMENT OF SENATOR PAT ROBERTS

    Senator Roberts. Mr. Chairman, I want to thank you for 
continuing to follow the tragic attack on the U.S.S. Cole and, 
more particularly, the lessons learned from that event.
    I want to thank all the witnesses. I want to thank you for 
your service, your leadership, your commitment, as we all try 
to do better. I am going to wear two hats today, Mr. Chairman. 
I am going to wear my Intelligence Committee hat, as well as my 
Armed Services Committee hat.
    I want to continue to focus on the intelligence aspect of 
the Cole attack, because it seems to me if we fail to solve the 
intelligence problems and challenges that face us in this 
asymmetric threat environment, we are going to be back again 
trying to figure out why we missed the signals available to us 
following some other attack on our forces.
    This is not a simple problem. It is very complex. It is 
very difficult, but solutions must be found. I am going to 
state, if the intelligence community walks away from the Cole 
and believes they did everything--and I emphasize the word 
``everything''--possible and are comforted by the fact there 
was no smoking gun specifically, outlining an attack on the 
Cole on 12 October of last year, then I say again we will be 
back with another investigation of the loss of lives of 
American servicemen and women.
    Now, General Shelton, you just stated that, in terms of 
intelligence available--and that is the key word, 
``intelligence available''--that it was pertinent, there was no 
failure, it was the best possible. I am concerned about that 
statement. I tend to agree, but I have some real concerns. Let 
me explain.
    The first step it seems to me is to critically look at each 
of the terrorist attacks against our forces and see what might 
have been a critical piece of information that was not given 
the weight it deserved. Every indication available to me 
suggests that we do not have a problem in regards to 
collection. I think we are doing a great job in that regard. 
But it also seems to me that when we get into the business of 
analyzing that information and then a formal warning report to 
the warfighter, that is where we need some improvements.
    Now let me just make two quotes. The DCI, George Tenet, 
said before the Intelligence Committee that the DCI has stated 
he was hired not to observe and comment, but to warn and 
protect. The intelligence community defines and identifies the 
goal of warning as follows. Warning is sounding an alarm, an 
alarm giving notice. It denotes urgency and implies the need to 
act. Warning demands diligence and requires constant 
questioning of conventional wisdom. The goal of the process is 
for the intelligence community to provide strategic warning 
that gives our leaders time to either avert a crisis or at 
least be prepared to deal with one.
    Let me quote our former Secretary of Defense, Bill Cohen, 
who told reporters that U.S. intelligence needed to be 
improved, and he noted that conspirators had watched for a year 
prior to the Cole attack to see how U.S. warships refueled in 
Aden. I am quoting here from ABC News, that says: ``The morning 
after a terrorist told of the planned attack, August 26, 1998, 
the FBI sent out a classified message under FBI Director Louis 
Freeh's name warning of a plot to attack the U.S. Navy ship in 
Yemen.'' We are still trying to figure out why that dropped 
between the slots.
    Second, it seems to me we must look to technology to assist 
in the analysis of the massive amounts of information 
collected, and I can go into that a little bit later. If the 
CINCs and the unit commanders have a prayer of a chance of 
taking the appropriate defensive action to detect and deter a 
terrorist act against our forces, then it seems to me our 
intelligence community must not be comfortable, must not be 
complacent, and must not accept that they did not have enough 
specific information to issue a warning that might have 
prevented or certainly mitigated the attack on the Cole.
    Now, let us use 20-20 hindsight. That is always the case. 
Admiral Clark, General Shelton, and General Robertson, say we 
are all in a room together. If you knew that in August 1998 a 
known terrorist and bin Laden associate stated that a U.S. 
warship would be attacked in Aden with a Katusha rocket in the 
next several months; and if we knew that on 3 January, 2000, an 
attack on the U.S.S. The Sullivans was aborted only because the 
small boat laden with explosives sank; and if there was 
relevant--and I emphasize the word ``relevant''--terrorist 
information available, a storm warning, if you will, with clear 
possibilities of lightning strikes in the general region; and 
if we knew that the Israeli and the Palestinian situation was 
really boiling over, what different action would we have taken 
prior to the arrival of the U.S.S. Cole or any other ships to 
the harbor in Aden?
    All four events are true. Two were known before the Cole 
and the attack on The Sullivans was known shortly after the 
explosion. I submit the fact that the attack on The Sullivans 
was not known, only adds to the assertion that the intelligence 
community should not rest easy.
    Now, my question is this: Would you discuss what actions 
each of you, as well as you can in this open forum, have taken 
to improve our ability to analyze, analyze the threat 
information, and then proceed to a warning in regards to our 
warfighters? In this same vein, what is your view on issuing an 
intelligence warning with less than perfect data?
    I am not comfortable with our ability and what went on with 
the U.S.S. Cole, and you can date that back several years in 
regards to other incidents.
    Please feel free to answer as you see fit.
    General Shelton. Senator Roberts, let me say first of all I 
agree with almost everything that you said. My indication was 
that, based on the best available--and I want to make sure the 
word ``intelligence'' is in the record, not information. One of 
the problems that our CINCs, our operational chain of command, 
deals with is being flooded with information: spurious hits, a 
lot of information that comes in, information which in some 
cases is almost worthless unless it is combined with all the 
other things that are going on and, as you indicated, it is 
analyzed and then turned into what amounts to intelligence, 
actionable intelligence, something that will drive you to take 
action.
    For example, the 1998 report on attacking a ship with a 
rocket, you have to go back and look at, was it one report, was 
it a credible report, was it from a reliable source, etcetera, 
and what else then starts to indicate over the next 2-year 
period of time that this is a part of the terrorist 
organization's plan?
    As we indicated and as Crouch-Gehman said, we do need to 
reprioritize some of the assets within the intelligence 
community. We need to have probably more emphasis on the SIGINT 
piece and the HUMINT piece, which is what is most valuable to 
you when you are dealing with terrorist organizations. But I 
believe that we also have to be concerned when we look at 
terrorism, being a trans-national threat, that has to have an 
organization that can deal with this voluminous amount of 
information that may go across all CINCs' AOs.
    Let me use one example. You deal with an organization like 
Osama bin Laden, the al Qaeda organization, which operates out 
of 55 different countries or more. Then he is planning this 
attack possibly in Afghanistan, communicating with an outfit 
that maybe is over in Admiral Blair's AO in the Pacific, for an 
attack that maybe is going to transpire in General Ralston's 
area. So each one of these may be getting spurious bits of 
information or intelligence, as some would refer to it, but it 
does not form a complete picture.
    So I believe that our intelligence community has to be able 
to focus, focus on the threat that is coming out of this 
organization, looking at what is going on and the threads that 
tie this information in to what is going to be an attack in one 
of the areas. I have had a chance to discuss this with the DCI, 
Mr. Tenet, and we are working right now on an initiative that 
will help us do that. In fact, we have a good example of one of 
those working right now in the commander in chief area of 
operation.
    But I personally would like to see that in each one of our 
CINCs' AOs, so that we are in fact able to provide them with 
detailed information. The analysis is what is key to it. 
Information in itself inundates. If you look at the Cole, the 
skipper of the Cole, he does not have the wherewithal, the 
staffing, the intelligence analysts, and the all-source 
intelligence, if you will, that will enable him to really focus 
and see what he has--as you move up, the CINC should have that, 
and it should be a push system that goes down, not them having 
to pull and having to look for it.
    Certainly that would then lead us to a warning once we saw 
that developing, which would increase our threat conditions, 
which would raise the level of awareness and consequently allow 
us to deal with that threat in a manner that we will have to be 
prepared to deal with it if we are to preclude an incident like 
we have had with the Cole.
    Admiral Clark. The first part first, what have we done? 
Senator, there are a number of things that have happened, some 
of which we really should talk about in closed session, and I 
look forward to that. It really is crucial to our progress in 
this area.
    Each of the large fleets, and I am talking about the large 
Navy component commanders in Europe and in the Pacific and in 
the Fifth Fleet, they have taken action to strengthen their 
ability to synthesize and help warn. For example, in Europe 
there is a team designated full-time that is working this 
process, and then they have established a system called a Blue 
Dart program to get warnings out. This is a focus issue, but it 
is also people working full time synthesizing. It gets back to 
your fundamental point: There is an awful lot of information 
out there.
    So that is taking place. Then General Shelton, the 
chairman, talked earlier about things that have happened at the 
national and service military level, and we ought to talk about 
that later.
    Part two of your question has to do with releasing 
information, preliminary information. I would say that the 
scenario you described with those four events, those four kind 
of events that happened, a couple of those really give me pause 
and would have really made a difference. But I will tell you 
that a couple, at least one of them, I would have gone and 
checked out.
    But because at the time of this incident--and we have 
talked about this in some other forum before. But a commander, 
the amount of information out there is so overwhelming. I know 
you know that, but I know that a lot of people do not know 
that. So the commander when he reads a report, it needs to be 
synthesized for him, because the number of false alarms--false 
alarms over time actually reduce the readiness. That is the 
challenge that we face.
    So I agree with your fundamental posture completely, that 
we have to have an apparatus, not just to collect, but to put 
this together in a meaningful way. The case that you cite with 
regard to the attempt in January on the U.S.S. The Sullivans, 
there is a clear case where if that information had been 
available everything in the theater would have changed. I do 
not just mean in Aden. All of the operations related to how you 
would get ships from point A to point B, all of that would have 
been affected, and we did not have that information.
    I make one point in closing. I think one of the things that 
we have learned, Senator--and I have had a continuing dialogue 
with my Navy component commanders, the component that I provide 
in this case to General Franks in the CENTCOM AOR. I was 
speaking to him this week and we have to understand that we 
cannot presume perfect knowledge. That has had a fundamental 
effect on the measures and the tactics that we have put into 
place, because if we believe that we will have perfect 
knowledge it will dramatically change the way we establish 
response mechanisms.
    His point to me was when I was talking this week, was we 
cannot take the position that, because we see an intelligence 
brief and it is on the chart, that that is 100 percent of all 
truth. It is always going to be a challenge to the intelligence 
community to do the collection piece of it, no question about 
that.
    But on our side, for every user of intelligence we have to 
make sure we understand that if we expect perfect knowledge we 
are setting ourselves up for a potential fall.
    General Robertson. Sir, if I might, let me try to explain 
to you how it happened yesterday and happened today in my piece 
of the business. I mentioned earlier that we fly about 1,700 
missions a week on the air side of the United States 
Transportation Command. We have been living with this plethora 
of information for years and have developed an apparatus to 
synthesize and digest it, agreeing 100 percent with your vision 
that it ought to be certainly more focused.
    But for each one of those 1,700 missions that I fly every 
week, I have a joint intelligence center on the Transportation 
Command side and a threat working group on both sides. They 
take the information and sift through the port information, the 
aerial port of embarkation, debarkation, and the seaport of 
embarkation, debarkation, for threat-related information 
associated with the ports that we operate through. They take 
that information and apply it to every sortie that we fly every 
day based on the inputs from my representatives from DIA, CIA, 
NIMA, and the National Security Agency, and make an assessment 
per mission of what mitigating measures are required for those 
missions.
    Then we bounce that off of the theater CINC and his JIC as 
to what we think, and off of his operations and force 
protection staff as to the mitigating measures that we deem 
most appropriate. Then we make an assessment of whether he can 
meet those mitigating measures, and if he cannot then is the 
mission so important that we need to continue anyway, basically 
a risk assessment.
    If you take that back to the very beginning, I am totally 
dependent on the quality of the intelligence that is given to 
me when I start. Now, that is long-term intelligence, near real 
time intelligence, and real time intelligence. Because of the 
communications capabilities that I have, I can move very 
rapidly to launch an airplane, or not launch an airplane. We 
have a list of countries that we put on a list, that we call 
the real time launch list, and the aircraft commander has to 
call in 30 minutes before he launches into that country to 
check the latest intelligence. We have a cell responsible for 
telling him that it is changed or the same and that he is clear 
to go or not to go.
    But obviously the point that you would make, and the point 
that I second, is that it is the quality of the intelligence 
that drives our assessment of risk, wherever we fly, throughout 
the world, and the same is true on the sealift side.
    Senator Roberts. Mr. Chairman, my time has long expired. I 
apologize to both Senators Nelson.
    I am not for threat fatigue. I understand that. But I think 
we are lacking in regards to the analytical ability. I might 
say, Mr. Chairman--this will be the final thing I say --that 
Samuel Huntington wrote a book a couple of years ago called 
``The Clash of Civilizations and the Remaking of World Order.'' 
I do not know if you have all read that. You do not have time 
to read it, but I would encourage you to do so.
    He pointed out that we are at war. We are in a quasi-war 
with certain segments of the Islamic world. So you start from 
that premise. If, in fact, we are 14 percent short in regards 
to authorized billets, 1,400 no-shows to the intelligence 
community, most of them are all-source analysts that we do not 
have. We have tried to authorize and appropriate that, we are 
lacking, gentlemen. Yet we have this--I feel there is this 
connotation that the intelligence community, with all due 
respect--love the intelligence community in terms of the 
collection effort--we are not doing the job. We should not rest 
easy, or we are going to be right back here again.
    I thank the chairman.
    Chairman Warner. Thank you very much.
    Just as an administrative announcement, the Secretary of 
Defense is coming up to Capitol Hill. I am going to meet with 
him now, regarding China and budgetary and other matters. It is 
very important that the work of this committee be done in 
parallel with his decisionmaking on behalf of the President for 
the 2001 supplemental, which is now to be done, as well as such 
2002 modifications that we have to make.
    So in my absence, Senator Roberts, if you would conduct the 
hearing.
    Now, if Senator Nelson will indulge me, that is a very 
impressive statement you made, General Robertson, about the 
actions that you are taking daily to prepare and update your 
pilots and aircraft as they transit in and out of these many 
areas of the world. Is that being done in the other military 
departments, General? More specifically, Admiral, do you feel 
that you have a comparable setup in the Navy? Because you point 
out the difficulty of distilling for a commanding officer the 
enormity of this daily influx of information.
    Admiral Clark. General Robertson as a CINC has his own 
intelligence structure, as compared to the component commanders 
in theater. They operate under what is typically a joint 
intelligence command inside each CINC-dom. But what we do have 
is that we have the NCIS, Naval Criminal Investigative Service, 
is now deployed more worldwide. I do not want to get into 
specifics. I do not want to let anybody know----
    Chairman Warner. Can you answer in general terms.
    Admiral Clark. Yes, I can. Let me say that before any of 
our ships go in anyplace now, they are on the ground. They are 
checking out the local landscape. I spoke to Senator Roberts 
about the increased push kind of teams that have been 
established. So one of the reasons--TRANSCOM is a model and 
Crouch-Gehman pointed out this was not just about ships. This 
is about transient activity. Theirs is a good model and we are 
learning everything we can from the way they do it.
    Chairman Warner. You are going to try and incorporate. Of 
course, the Navy operates with all the CINCs, so to speak.
    General Shelton. All of our CINCs, Mr. Chairman, have a 
similar program. As I indicated earlier on, General Roberts on 
has one of the very best.
    Chairman Warner. I think it is important, because it is a 
very impressive statement he made.
    Thank you. Senator Ben Nelson, would you now proceed with 
your questions. Senator Nelson was here a little early, in fact 
the first member to arrive.

            STATEMENT OF SENATOR E. BENJAMIN NELSON

    Senator Ben Nelson. Thank you very much, Mr. Chairman. I 
would like to thank our friends in the military for being here 
today and for presenting your findings on the U.S.S. Cole 
incident. Clearly, the tragedy was a reminder that our deployed 
forces face the threats that, as you say, they cannot often see 
and they certainly cannot expect as to the particulars.
    General Shelton, in your written testimony you discuss the 
findings of this commission's report and one of the 
recommendations under the category of organization includes 
developing the security capabilities of host nations to help 
protect U.S. forces, recognizing that if we bring partners into 
the process and into the development of those practices and 
capabilities that we probably can do better.
    Could you give us just a little bit more information about 
what you have in mind, maybe without too many particulars, but 
with some generalizations as to what you might expect to happen 
in certain locations around the world?
    General Shelton. Certainly, Senator Nelson. Of course, any 
time we are operating in another nation's territory we are 
dealing with sovereignty issues and the rules that they impose 
on our operations within that area. Engaging them early on and 
ensuring that they in fact are willing to accommodate the force 
protection measures that we feel are essential under each of 
the threat conditions or identifying those areas where they are 
not willing without either negotiation or maybe in some cases 
not allowing us to do, which then feeds back into the CINC's 
assessment as to whether or not he will in fact use that port 
or that facility.
    You heard General Robertson, and I will let him talk to it 
in just a minute, make assessments in terms of the threat 
levels and whether or not these pieces are in place, whether or 
not we have the properly vetted people, whether or not they are 
willing to allow the posting of armed guards so that the boats 
in the water, in the case of one of our ships going into a 
port, provide that perimeter. These are the types of things 
that have to be worked out with each one of the countries in 
some type of a memorandum of agreement or understanding, and we 
have to do that in conjunction with the State Department, with 
our defense attaches in each location.
    That is an ongoing effort. We are making good progress on 
that right now. But it is a continuing effort.
    Senator Ben Nelson. General Robertson.
    General Robertson. Sir, if I might, the chairman 
characterized it very well. We depend to a great degree around 
the world on host nation security. We make an assessment in 
conjunction with that theater's particular CINC as to whether 
that host nation security is adequate or whether we need point 
security for our aircraft or for the ships that I have 
Operational Control (OPCON) for, whether we need to contract 
out security, whether we need to contract, for instance, patrol 
boats and things like that, divers, or whether we need to bring 
in our own, or whether, for an aircraft, whether I need to 
bring in my own specially trained security forces.
    It carries over also to the contracts that we use for 
loading and unloading in my case, loading and unloading ships 
and aircraft, because for the most part those are host nation 
contractors. So I have to make a determination in conjunction 
with that CINC and whatever intelligence I have, whether those 
contractors and the people that they employ have been properly 
vetted from a security standpoint as to be reliable or 
unreliable, or whether again I have to bring my own loading and 
unloading people into the country.
    But we are getting more mature. When we talked to General 
Crouch and Admiral Gehman at United States Transportation 
Command, this was the seam that we expressed concern about 
because of our uncertainty over this vetting process, and over 
our uncertainty as to the relationship between the CINC and the 
host nation security forces. As a result, we have come a long 
way in the CINCs vulnerability assessments of each of the ports 
and fields that we operate in, in being able to say yes, no, 
maybe, we need to do more, or we are satisfied with what we 
have.
    It is an area that we have attacked aggressively, sir.
    Senator Ben Nelson. In conjunction with the vetting 
process, I would imagine it would be far more difficult to do 
the vetting of foreign nationals located around the world than 
it is to vet our own forces. How comfortable are you that we 
can get the vetting process to the point where we can trust the 
security capacity that we are going into in terms of memoranda 
of agreements and the like?
    General Shelton. From my perspective, Senator, we probably 
never will have that assurance that we would all like to have. 
I think that the real answer is it varies by nation in terms of 
what we are having to deal with. But we also take that into 
account because where necessary in some of the areas where the 
threat, particularly if we anticipate it as being higher, there 
is an augmentation requirement for U.S. forces moving into 
there, where the CINC may actually deploy his own people.
    Let me use as an example, if he has--and I do not want to 
go into too much detail about specifics here; we could do that 
in closed session. But if he has concerns in a particular port, 
he might elect to fly in an augmentation force that would 
provide that inner security, have his own boats in the water, 
etcetera, to make sure as close to 100 percent as we can that 
we have the proper protection for the aircraft or for the ship 
in this case.
    Senator Ben Nelson. Contracting security in conjunction 
with the protection of a building in downtown Washington might 
be an entirely different prospect in another country.
    General Shelton. Yes, sir.
    Senator Ben Nelson. Thank you very much.
    General Shelton. Yes, sir.
    Senator Roberts [presiding]. Senator Bill Nelson.

                STATEMENT OF SENATOR BILL NELSON

    Senator Bill Nelson. Mr. Chairman, thank you.
    I wanted to follow up your line of questioning on the 
question of intelligence. General Shelton, according to the 
joint force doctrine, who is responsible and therefore 
accountable, who is in command for providing intelligence for 
forces moving along the strategic pipeline from the U.S. to the 
regional CINCs and between the regional CINCs?
    General Shelton. As those forces move between, as they 
leave the U.S., they chop to the CINC at a certain point in 
time. Otherwise they would belong to the component that was 
sending them into that particular area. If you have a force 
operating, if you take the Persian Gulf area, coming out of the 
Med, as the Cole was, there is a chop point en route where he 
passes from the control of CINCEUR into the control of CENTCOM, 
and it is a designated specific point that he chops.
    Admiral Clark may want to address it further.
    Senator Bill Nelson. He has the responsibility or the 
command for intelligence, and is that joint force doctrine, is 
that clear--the inquiry that Senator Roberts made with regard 
to intelligence information--so that that is shared and we then 
have someone we know is accountable because he was in command? 
Is that clear in the joint force?
    General Shelton. The chain of command is clear. Each of the 
CINCs has a joint intelligence center. They have an ability to 
analyze the information that is coming in from various and 
sundry locations. It may be a Defense Intelligence Agency 
report, it may be a Central Intelligence Agency report, it may 
be an NSA cut. They have the capability to look at all this, 
focus it, and provide that to the commander.
    My concern and the way that I think we need to address it 
and which I addressed in my answer to Senator Roberts is where 
this information is--and I will call it information--is popping 
up in different CINCs' AOs and appears to be related to their 
area, but maybe is tied into this transnational organization, 
into another CINC's area, that we do not have any seams or gaps 
in here. I think we can do a better job there in the future 
than we have been able to do in the past with our current 
structure.
    Senator Bill Nelson. Senator Roberts, this might be a 
question for you to get in on here. Who had possession of that 
information with regard to the U.S.S. The Sullivans and how was 
that not transmitted up the chain of command to the commanders? 
Can anybody answer that question?
    Admiral Clark. I can answer it. At the time on the 12th of 
October, nobody in the U.S. intelligence apparatus had that 
information. That information was developed over the course of 
the investigation by the FBI. That is why I said to Senator 
Roberts--he listed four particular pieces of data and the other 
pieces of data he talked about was a different circumstance. 
This particular piece of data we did not have, and it was the 
statement about the ability to collect and the time frame and 
the exposure of this intelligence and so forth. That 
information was developed in the course of the investigation.
    Senator Roberts. If the Senator would yield.
    Senator Bill Nelson. Just following this, did the FBI have 
that information?
    Admiral Clark. To the best of my knowledge, that 
information was not available until after the explosion. It was 
developed by the FBI in the course of their investigation.
    Senator Bill Nelson. But there is some doubt?
    Admiral Clark. That is my understanding of the 
circumstance.
    Senator Bill Nelson. If, in fact, the FBI had the 
information, then we have----
    Admiral Clark. They developed it and disclosed that to us 
in the course of the investigation. So it is my belief that 
they did not have that on the 12th of October.
    Senator Bill Nelson. Could you get a definitive answer for 
us.
    Admiral Clark. I will take that, yes, for the record.
    Senator Bill Nelson. If your understanding is correct, we 
need to know that. But if it is not, then we clearly need to 
know that, too.
    [The information referred to follows:]

    The information on the planned attack against the U.S.S. The 
Sullivans was gathered during the course of the U.S.S. Cole 
investigation. It was not obtained prior to the attack on the U.S.S. 
Cole, 12 October 2000.

    Senator Bill Nelson. Senator Roberts, I yield to you.
    Senator Roberts. What the Admiral said is exactly correct. 
This was a fact that came out during the initial investigation, 
which was joint with the Armed Services Committee and the 
Intelligence Committee, which was a matter of obvious concern.
    In regard to what General Shelton has pointed out 
concerning the CINCs' ability with their intelligence command 
or their command center, if you get into a transnational 
situation, which was obviously the case in regard to the U.S.S. 
Cole and it has been the case in regard to Khobar Towers and 
will continue to be the case, that it seems to me is the 
responsibility of the CIA, national center, the DIA, and 
everybody else, and the Navy. That is why we have the national 
centers.
    That is why I am so concerned in terms of the analytical 
ability that, if we are into this new world of asymmetrical 
threats--and it is not exactly new, but it is certainly more 
urgent--we really have to concentrate on the analytical 
ability. I think your point is well taken.
    Senator Bill Nelson. Senator Roberts, I want to follow up 
on the very fine hearing that you had the day before yesterday, 
since we are on the subject of intelligence. But that was 
intelligence with regard to activities here at home. I think 
General Shelton needs to hear about this, because the Inspector 
General in the Defense Department--my time has expired. Mr. 
Chairman, may I have additional time?
    Senator Roberts. The distinguished Senator should know as a 
veteran of the House of Representatives that time expires in 
that house and time seldom expires in this body.
    Senator Bill Nelson. I thank the chairman.
    There is an audit report here from the Inspector General of 
the Department of Defense on the subject of the management of 
the National Guard weapons of mass destruction civil support 
teams. The opening sentence is: ``The weapons of mass 
destruction civil support team program is intended to help 
prepare the United States against terrorist use of weapons of 
mass destruction and is commonly referred to as a homeland 
defense measure.''
    The conclusion of this report is as follows, General 
Shelton: ``The Consequence Management Program Integration 
Office did not manage this program effectively.'' That was a 
disturbing report to us a couple of days ago in a hearing 
chaired by Senator Roberts on the Emerging Threats and 
Capabilities Subcommittee. Again it comes back to the same 
question: Who is in control? Who is accountable? Who is in 
command? In this case, you have a bunch of civilian and 
defense-related activities that are all trying to prepare what 
we are trying to prepare for here on a discussion today about 
terrorism abroad. That is talking about terrorism here at home, 
all of which happens to be under the subject of the defense of 
this country.
    I wanted to call this to your attention because we were not 
at all happy campers on what we heard and their not getting 
their act together. It needs some command authority from above 
to get them swinging into action.
    Senator Roberts, I would love to have your comments as 
well, because I think General Shelton needs to hear this.
    Senator Roberts. I think the General is very fully aware. 
We have had discussions when he has been kind enough to come by 
my office for a courtesy call from time to time. He is 
extremely busy, but, as the General knows and I think most on 
at least the Emerging Threats and Capabilities Subcommittee 
know, in regards to domestic terrorism or homeland defense--
which now is a very top threat and decidedly so by the 
administration, the past administration, and any number of 
think tanks--that we tried to plus up or to increase the number 
of RAID teams, they are called, CST teams. Yesterday Senator 
Byrd had another acronym that spelled out ``Byrd,'' that I 
think that was interesting at least.
    But at any rate, we had 10, we went up to 17, up to 25, up 
to 32, so that there would be a professional DOD team on the 
scene within 4 hours anywhere. As you indicated, sir, it is not 
a matter of if, but when.
    Unfortunately, about the same time that we were getting 
some very positive reports from Secretary Cohen and those 
within his office, it was precisely the same time that the IG 
later said: Well, wait a minute; we have some real management 
problems. The testimony yesterday indicated that that was the 
case. Again with 20-20 hindsight, we look back. Senator Nelson 
asked the obvious question, who is responsible now. We are not 
quite sure yet. Under the terrorism banner, that is very 
difficult to ascertain.
    As a matter of fact, May 8, 9, and 10 we have 
appropriators, authorizers, Intelligence, Armed Services, 
Emerging Threats and Capabilities, all asking 46 Federal 
agencies to come down and see if we cannot get our arms around 
the terrorism threat. All three of you know I have been very 
active in this in the DOD side, certainly expressing some 
suggestions.
    My take on the subcommittee hearing was that, while it is 
not fixed and we do not have that one person, like say General 
McCaffrey as the drug czar or Admiral Rickover, that we are 
making some progress and that hopefully the training will be 
forthcoming, the equipment will be better than it was, and that 
we will have a RAID team within the National Guard 4 hours from 
anybody to link up the communications that will be absolutely 
necessary if in fact we have a domestic incident.
    That is my long take on a short take question and I 
appreciate very much Senator Nelson's cooperation and his 
interest.
    I think the time requested by the distinguished Senator has 
expired. I will now yield again to the distinguished Senator 
from Nebraska. Are you aware there is going to be a ``terrorist 
threat'' in Lincoln about October by a purple gang that is 
going to come there from Kansas State?
    Senator Ben Nelson. We have force protection in place. 
[Laughter.]
    General Shelton. Senator Roberts, could I comment?
    Senator Roberts. Yes, sir. I am sorry to not give you an 
opportunity to respond.
    General Shelton. Sir, first of all to thank you for your 
interest and your support in what I think is a critical area 
that this Nation could face in the future. Our effort within 
Defense was to form this joint task force for civil support 
underneath our Joint Forces Command only from a standpoint of 
knowing within the Department where our assets were, how well-
trained they were, and what capabilities they had, so that if 
one of the other civilian agencies of our government needed 
help from the Department to underscore, or underpin their 
effort, we could do that in a very fast manner, always though 
in support of the civilian agency that was in the lead.
    So that was the idea behind it. I was made aware just a few 
days ago of some continuing issues that relate to Senator 
Nelson's concern about the command and control aspect. Of 
course, the National Guard from my perspective, our Reserves, 
are ideally suited for this mission because they are located 
out in the areas, they are under the control of the governor 
under Title 32 early on. He could use them as he saw fit. Then 
at some point, if it is a large enough effort, they may be 
placed under Title 10 and then come right under Joint Task 
Force Civil Support, who should train with them, as they are 
doing now, so that we have a first class or a world class 
effort in this regard, because consequence management, I think, 
is something that this Nation expects us to be prepared to do 
as a government.
    I applaud your efforts, particularly as it relates to the 
46 different entities in this area and focusing the Nation's 
efforts.
    Senator Roberts. We are going to be asking again all 46 to 
come in May 8, 9, 10. I say that publicly. Senator Stevens, 
Senator Byrd, and Senator Inouye from the Appropriations 
Committee, Senator Gregg, who has the Subcommittee on Justice, 
State, Commerce, and they are the lead dog agency in this 
regard according to the presidential directive. While I 
initially thought that was a mistake and thought that maybe DOD 
should take charge, I am now convinced that was the right 
decision.
    Then we have Senator Shelby and Senator Gramm of the 
Intelligence Committee, myself. It is the first time I think 
the Senate has tried to eliminate some of the stovepipes that 
we have, quite frankly. We have eight committees and seven 
subcommittees dealing with this issue. We are going to try to 
get our arms around this to say basically, OK, what is your 
mission, who do you report to, and what do you really do.
    If we can do that, it seems to me we can be in concert with 
the new administration and also DOD.
    I apologize Ben for interrupting. Go ahead.
    Senator Ben Nelson. Thank you, Mr. Chairman.
    General Shelton, in terms of the kind of threat 
possibilities that are out there today, ranging from the Cole, 
Oklahoma City, the potential suitcase bomb, weapons of mass 
destruction, and the delivery of those, what are your thoughts 
about theater missile defense or national missile defense, 
particularly in light of your comment about, I think you said, 
target fixation, that if we spend our time fixated on targets 
are we going to be able to do the objective work of figuring 
out what kind of defense we need overall?
    General Shelton. Sir, from our standpoint, first of all, I 
would like to just underscore the fact that within the 
continental United States the Justice Department, the Federal 
Bureau of Investigation, of course has the lead for 
intelligence reports related to potential terrorist attacks 
within the continental United States and action thereof.
    Of course, they are also very active, as I just saw on my 
visit yesterday over in Greece, in their efforts in various and 
sundry places, but in that particular case with the November 17 
organization that operates in Greece. So obviously, we need to 
make sure that we have an integrated system that also takes 
advantage of some of the great work that they do in collecting 
intelligence overseas that feeds back into the system.
    They have a different focus, obviously. It is on 
evidentiary type information, and intelligence. But often in 
cases, as was the case in the interrogation after the attack on 
the Cole, they shared the information with us about the threat 
that had been made against the The Sullivans earlier.
    When it comes to theater missile defense, that is another 
area that we need to be concerned about, missile defense in 
general and theater missile defense in particular. As we sit 
here today, we have 38,000 troops in Korea roughly and a large 
number in Southwest Asia, both elements potentially subject to 
being hit with missiles, as well as chemical, biological types 
of warheads.
    So that has been one of the Joint Chiefs' very highest 
priorities now for a number of years, to develop this theater 
missile defense. I think we also recognize that, with the 
proliferation of technology today and particularly as fast as 
it can move and fill the gaps, the voids, that missile defense 
in general for the citizens of this Nation is something that we 
also have to be quite concerned about.
    As the President has said, he is proceeding with that. The 
Joint Chiefs fully support that. The technology to do it, some 
of it, is being worked very hard. What form that will take, 
what the architecture will be, what the final will be for 
fielding it, are all questions that will be determined in the 
process of aggressively pursuing a defense for our Nation.
    But all of that is the right thing to do in view of the 
threats that we face, not only abroad but at home.
    Senator Ben Nelson. Thank you.
    Thank you, Mr. Chairman.
    Senator Roberts. Senator Levin.
    Senator Levin. Thank you, Mr. Chairman.
    General Shelton, I think about a year ago or so you gave us 
a threat spectrum. You and I have talked about that a few 
times.
    General Shelton. Yes, sir.
    Senator Levin. Does that look familiar to you [indicating]?
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
    General Shelton. Sir, that is a version. We had a couple of 
them, but that one looks familiar, yes, sir.
    Senator Levin. Can you tell us whether since your most 
recent threat spectrum there has been any change in that, or is 
that still your assessment?
    General Shelton. Sir, that is still my assessment, yes, 
sir.
    Senator Levin. We talked about the accountability issue on 
the Cole and I just want to ask you about the Greeneville 
accountability issue, because this is a hearing that is looking 
at accountability in a broader sense than just on the Cole.
    My understanding of Navy policy is that civilian guests are 
taken out on submarine cruises only on regularly-scheduled 
training missions and that submarine visits, even for a short 
time, are not scheduled solely for the purpose of taking 
civilian guests on a cruise. Is that basically correct, 
Admiral?
    Admiral Clark. That is correct.
    Senator Levin. Now, the administrative hearing into the 
Greeneville accident determined that the Greeneville was not 
conducting a scheduled training cruise the day of the accident 
and that the reason for leaving port that day was solely to 
entertain the civilian guests on board. My question is this. 
Whoever made that decision, that that cruise should go without 
a training mission--is there any accountability that has been 
looked at for that decision that, even though the policy of the 
Navy was that civilian guests be taken out only if there is a 
regularly scheduled training mission, that nonetheless, even 
though there was not such a mission that day, that that cruise 
should occur anyway? Was there an assessment of accountability 
on that?
    Admiral Clark. I have not read the entire transcription of 
events, but I did not have to read it to get to this issue. 
They had planned to have training activities going on that day 
and the visit was set up, and the Greeneville had been 
conducting training, and this is the way it has been briefed to 
me: that they completed the training in advance of the date of 
the guest sail. So the commander knew this, but the rest of the 
chain of command did not, was unaware of this.
    We have restated the policy that ships will not get under 
way to take guests to sea. That is inappropriate. We have 
restated that policy. We fundamentally did that before, before 
the court of inquiry was even complete.
    Senator Levin. So that the commander made that decision to 
proceed on his own?
    Admiral Clark. That is my understanding. But I say, I have 
not read the transcript. If you want me to go back and check 
that for the record, I will do that.
    Senator Levin. That would be great.
    [The information follows:]

    Commanding Officer, U.S.S. Greeneville (SSN 772) had broad 
discretion and authority in deciding whether to get his ship underway 
on 9 February 2001, the day U.S.S. Greeneville collided with M/V EHIME 
MARU. U.S.S. Greeneville was scheduled originally by Commander, 
Submarine Force, U.S. Pacific Fleet (COMSUBPAC), to commence an 
underway period on 9 February for crew training, and the ship was 
assigned to conduct a civilian guest embarkation in conjunction with 
such training. The commanding officer later requested a modification to 
the schedule so that the ship could remain in port Pearl Harbor for the 
weekend of 10-11 February. After assessing the ship's training 
progress, Commander Submarine Squadron ONE (COMSUBRON ONE) decided to 
permit U.S.S. Greeneville to remain in port during that weekend and 
notified COMSUBPAC's Operations Department of the schedule change. 
After its revision, COMSUBPAC's schedule still reflected that U.S.S. 
Greeneville would be at sea on 9 February for a civilian embarkation. 
When the commanding officer learned that the assigned civilian group 
traveled to Hawaii from the mainland, he enthusiastically accepted the 
assignment and proceeded to sea on 9 February. Contrary to Navy 
policies that restrict getting ships underway only to accommodate 
guests, both COMSUBRON ONE and COMSUBPAC's Operations Department 
allowed U.S.S. Greeneville to execute the revised schedule, which 
resulted in her getting underway solely to perform a civilian 
embarkation. In his testimony at the Court of Inquiry, COMSUBRON ONE 
indicated that he was not aware of that restriction before the mishap.
    The Court of Inquiry found that the Navy's guidance on embarkation 
of civilian visitors is vague, confusing, and internally inconsistent. 
A review of pertinent embarkation policies has been initiated. In 
correcting the noted deficiencies, we will clarify the approval 
authority to civilian embarkations and reemphasize pertinent 
restrictions. The Navy's Distinguished Visitor Embarkation program 
directly enhances public awareness of the Navy and should continue to 
be fully supported.

    Senator Levin. But as far as you know, the commander on his 
own made the decision.
    Admiral Clark. As far as I know that is the case, that is 
correct.
    Senator Levin. The Cole had been operating in the 
Mediterranean and then after transitting the Suez Canal was on 
its way to, was transitting the Red Sea on the way to the 
Persian Gulf. In the Mediterranean the Cole was under the 
operational control of the Sixth Fleet commander and was 
required to follow the force protection measures which were 
promulgated in a Chief of Naval Operations message. That was 
the force protection, it was your message or the CNO's message.
    Now then, when the Cole was chopped to the Fifth Fleet on 
October 9, 2000, it then was required to follow the force 
protection measures that had been promulgated by the Fifth 
Fleet command's operation order, which is based in turn on a 
Joint Publication No. 3-07.2, which was issued by the Joint 
Chiefs.
    Interestingly enough, the Fifth Fleet force protection 
measures contain two measures that are not included in the 
Sixth Fleet force protection measures.
    Are we together so far or have I lost you?
    Admiral Clark. Yes, we sure are.
    Senator Levin. I have not lost you yet. I will keep trying.
    Admiral Clark. Yes, sir.
    Senator Levin. One of the two additional measures which the 
Fifth Fleet was required to take was something called Joint 
Publication Measure 31, which had to do with preparing boats 
and placing crews on 15-minute alerts and designating and 
briefing picket boat crews and a number of other things. Then 
there was something called Joint Publication Measure 33, which 
was to man signal bridge or the pilot house and ensure that 
flares are available to ward off approaching craft.
    But nonetheless, there are some substantive differences 
here. I am not going to suggest that those two differences were 
causally related to the attack's success on the U.S.S. Cole. 
But the point here is just a generic question: Should there not 
be one authoritative set of force protection measures for use 
by our Armed Forces? I guess here I should really, since I 
framed the question that way, I would ask you first, General 
Shelton: Should there not be one set of force protection 
measures for our Armed Forces? Here we had a different set in 
the Sixth Fleet than we did in the Fifth Fleet. Then I would 
ask you, Admiral, as well.
    General Shelton. I would agree in principle that certainly 
we need to have a set of common force protection measures. 
However, I would stop short of saying that we should not allow 
commanders to supplement those where they feel that they are 
appropriate for the particular area and the situation which 
they are having to operate.
    Senator Levin. I would totally agree with that. Subject to 
that, should we not have the same set of force protection 
measures?
    Admiral Clark. Certainly it would make the training problem 
and the challenge much easier to deal with. In an ideal world, 
it would be best if we could do that. But I could not support 
the chairman's position any more strongly that we cannot 
inhibit a commander's ability to apply additional measures if 
he deems it appropriate.
    I would like to just add, if I could. These measures have 
changed in the aftermath of the Cole and they are now all in a 
classified vein and so we would not discuss them in an open 
hearing, although all those from before and on the 12th of 
October certainly were unclassified.
    But one of the issues for us is to synthesize these and 
make them common to the maximum extent possible.
    Senator Levin. Thank you, Mr. Chairman.
    Senator Roberts. I think the Senator has touched on a very 
important point, in that the relevant intelligence information 
I referred to in my opening statement pretty much was confined 
to the Sixth Fleet area, and obviously Aden is in the Fifth 
Fleet area. But as General Shelton has indicated, this is a 
transnational threat. So I think the Senator has touched on 
something extremely important.
    The San Antonio Express-News reports today that Fort Sam 
Houston has closed five of its gates and now restricts access 
to four more, to increase security post the Cole incident. That 
is the reference. I hesitate to say this, but I do not have a 
base sticker on my car and I do not ordinarily drive around 
with a U.S. Senate tag. But I am waved through at most of the 
bases. I am not Carl Levin or John Warner. They do not 
recognize me.
    Senator Levin. If you borrowed my glasses, you could be 
recognized immediately.
    Senator Roberts. If I had stripes I might be Admiral Clark, 
but I do not.
    At any rate, I am waved through. I want to know from each 
of you very quickly, what actions have been taken since the 
Cole to increase security at U.S. facilities? I am worried 
about that.
    General Shelton. From my perspective, Senator Roberts, it 
varies right now, and I think as you have indicated, it varies 
by service, it varies by installation. It is tied into the 
threat level and the raising of the threat conditions at the 
installation.
    I can give you an example. The place that I live at Fort 
Myer, on a day in and day out basis when you go in you are 
checked. You have to have a registered sticker, etcetera. Then 
on certain days you have to show an ID card. It gets tighter 
and tighter as the theater level goes up to get on the 
installation.
    Other places that I am familiar with happen to have as many 
as two or three public highways that run through the 
installation. So as to the threat level, and the intelligence 
or threats develop, they raise their protective measures, still 
allowing the public to go through, but in some cases, as you 
saw here, closing that access, checking people as they come 
through, and in other cases securing key facilities on the 
installation that would be most vulnerable to attack, etcetera.
    Senator Roberts. A one size fits all.
    General Shelton. So there is not a cookie-cutter answer to 
it, yes, sir.
    Senator Roberts. We are going to go to the closed session 
in 222, unless Senator Levin has additional questions. I 
understand you have some information that will be relevant to 
us, and we will try to make that as fast as possible because I 
know it is getting late here.
    The first finding and recommendation of the Crouch-Gehman 
Commission concerns the coordination of combatting terrorism--
this gets back to Senator Nelson's comments--in the DOD. 
According to Crouch-Gehman, combatting terrorism is so 
important it demands a complete unity of effort at the level of 
the Office of the Secretary of Defense. The commission report 
goes on to recommend that the Secretary of Defense develop an 
organization that more cohesively aligns policy and resources 
within DOD to combat terrorism and designate an Assistant 
Secretary of Defense to oversee these functions.
    General Shelton, this committee initiated legislation in 
last year's defense authorization bill that requires just such 
a reorganization to take place. In the Emerging Threats and 
Capabilities Subcommittee last year, we had four people come up 
to testify and I was being a little mischievous and I said, 
could you sit in order of your authority, and nobody knew where 
to sit.
    So I have a piece of intelligence that we collected and we 
have analyzed, that you, sir, are ready to make a 
recommendation in that regard. Are you in that status or have 
we analyzed that wrong?
    General Shelton. Sir, I think you have good intel, and I 
mean more than just information. But I have provided a series 
of recommendations to the Secretary based on those 
recommendations made in the Crouch-Gehman. I know they have 
been working them very hard and I think his Assistant Secretary 
is about ready to go forward with those recommendations to the 
Secretary now.
    Senator Roberts. So you are not quite ready to say which 
ASD should be assigned this important responsibility, or could 
you share that with us?
    General Shelton. Sir, from my perspective, where they place 
the ASD would be of course the Secretary's call. But combining 
the policy and the resources into one would appear to make 
eminently good sense.
    Senator Roberts. I appreciate that and I agree with it.
    Gentlemen, thank you very much, and we will proceed to the 
closed session in room SR-222. The hearing is adjourned.
    [Questions for the record with answers supplied follow:]
               Questions Submitted by Senator John Warner
                engagement strategy/host-nation support
    1. Senator Warner. General Shelton, it is clear from what we have 
learned in the wake of the attack on U.S.S. Cole that our regional 
commanders in chief have been actively pursuing an engagement strategy 
throughout their AORs, often without full, interagency involvement--as 
was clearly the case with Yemen. The Crouch-Gehman Commission found 
that better coordination is needed for our engagement policy. My 
particular concern is with having firm agreements in place--up front--
for the host nation to either provide security for our forces, or to 
allow our military to take the necessary actions to protect themselves 
while in a foreign country. Are changes being made to ensure that these 
security measures are negotiated before our troops go into a foreign 
nation?
    General Shelton. The Department of State (DOS) and Department of 
Defense (DOD) are committed to an interagency process to provide 
overall coordination of U.S. engagement. DOS and DOD are developing an 
approach with shared responsibility to enhance host-nation security 
capabilities that result in increased security for transiting U.S. 
forces.
    Earlier this year, DOS instructed Chiefs of Mission to work with 
host-nation governments to cooperate with increased force protection 
measures involving visits and transit by U.S. ships, aircraft, and 
other military units. I also discussed this issue with the Combatant 
Commanders at the February 2001 ``CINCs' Conference'' and recommended 
they work closely with their foreign nation military counterparts to 
increase host-nation security support. We have made considerable 
progress, but additional work in this area remains.
    In my view, however, completion of these host-nation security 
negotiations should not necessarily be prerequisite to sending troops 
into foreign countries or pulling existing forces out. The decision on 
whether or not to maintain forces in a country should be based on the 
overall force protection capability, both U.S. and host nation, 
balanced against the importance of the mission.

                          host-nation support
    2. Senator Warner. General Shelton, one of the findings of the 
Crouch-Gehman Commission was that ``negotiations with the host nation 
must authorize the unit commander to implement force protection 
measures that provide the necessary time and space to react to hostile 
intent.'' What is being done to implement this recommendation? Will you 
assure the committee that U.S. forces will not be allowed into a 
foreign nation until and unless such agreements are reached?
    General Shelton. Our Ambassadors and our CINCs are working closely 
with host-nation counterparts to implement the necessary force 
protection measures that allow the necessary time and space to react to 
hostile intent.
    The Navy has developed a ``security zone'' approach to assist ships 
to determine hostile intent and take necessary defensive action. Under 
this approach, at a predetermined distance, the ship commences warning 
the approaching vessel to remain clear. Should the vessel continue 
toward the ship, despite the warnings, various additional and 
escalatory warning measures are employed. Should the vessel continue 
despite continued and escalatory warnings, thereby demonstrating a 
hostile intent, the ship can engage the vessel. This is an important 
issue in our negotiations with host nations.
    However, the host nation is responsible for exercising security 
authority over its territorial seas, including the water surrounding 
our ships in their ports. Initiatives such as the ``security zone'' 
approach requires host-nation approval, and will likely take time to 
sort out the details.
    As I stated in my response to a previous question, completion of 
these host-nation security negotiations should not necessarily be 
prerequisite to sending troops into foreign countries or pulling 
existing forces out. The decision on whether or not to maintain forces 
in a country should be based on the overall force protection 
capability, both U.S. and host nation, balanced against the importance 
of the mission.

      resources needed to implement crouch-gehman recommendations
    3. Senator Warner. General Shelton and Admiral Clark, many of the 
30 recommendations made by the Crouch-Gehman Commission will require 
additional resources and additional personnel dedicated to force 
protection. What is your plan for funding these force protection 
improvements and for getting the additional personnel which will be 
needed? 
    General Shelton. Approximately $3.4 billion was spent on 
antiterrorism/force protection (AT/FP) in fiscal year 2000 and we 
anticipate that $3.5 billion will be spent on AT/FP in fiscal year 
2001. Approximately 90 percent of funding is spent on manpower 
(military, civilian, and contractor personnel) for law enforcement as 
well as AT/FP staff positions. The remaining 10 percent is spent on 
physical security equipment, physical security site improvements, 
physical security management and planning, security and investigative 
matters, and research and development. We anticipate antiterrorism-
related funding will be increased for fiscal year 2002 although we do 
not have the exact number.
    The Joint Staff (J-34), in conjunction with Office of the Secretary 
of Defense (SecDef) staff elements having resource and program 
oversight, will review the adequacy of resources proposed by the 
Services and DOD agencies to meet DOD AT/FP objectives. Concerns are 
brought to my attention (Chairman of the Joint Chiefs of Staff) and the 
attention of appropriate Office of the Secretary of Defense (OSD) 
authorities.
    Also, last year the Department approved a resource prioritization 
and justification process to enable the Services to work more closely 
with the CINCs and the Office of the Secretary of Defense/Joint Staff 
to identify high-priority requirements to fund programs critical to AT/
FP preparation and response. The goal is to have interaction early to 
better support Service program development and consider the CINCs' 
important unfunded requirements.
    In my view, the Joint Staff and Office of the Secretary of Defense 
are providing the necessary oversight to ensure antiterrorism 
priorities are being met.
    Admiral Clark. The Navy's Antiterrorism Force Protection Task Force 
provided input to Office of the Secretary of Defense requesting 
additional funding for fiscal years 2001 and 2002 force protection 
improvements based on the Commission's recommendations. The Department 
of Defense requested supplemental funding for fiscal year 2001, which 
included a portion of the Navy's force protection request. Pending 
availability of supplemental appropriations, the Navy is funding many 
force protection initiatives with below threshold reprogramming.
    The Navy's initiatives to improve personnel retention have been 
proving successful and are resulting in additional personnel available 
to meet increased antiterrorism/force protection requirements.

             command investigation versus court of inquiry
    4. Senator Warner. Admiral Clark, the Navy's Manual for Judge 
Advocates (JAGMAN) states that for a ``major incident''--which is 
defined as an incident with ``multiple deaths, substantial property 
loss'' that ``greatly exceeds what is normally encountered in the 
course of day-to-day operations,'' and may be ``accompanied by national 
public and press interest and significant congressional attention''--a 
court of inquiry--the most formal type of JAGMAN investigation--should 
be conducted. Why did you decide that a court of inquiry was not 
appropriate in this case and instead endorsed a command investigation?
    Admiral Clark. Although this tragedy was a major incident, the 
Navy's Manual for Judge Advocates (JAGMAN) leaves discretion to the 
cognizant Commander to determine the type of inquiry warranted in a 
specific case. In this case, after carefully considering all the 
pertinent circumstances, Commander, U.S. Naval Forces Central Command, 
Vice Admiral Moore determined that a single-officer Command 
Investigation, rather than a Board or Court of Inquiry, was warranted.
    The factors weighing in favor of a single-officer Command 
Investigation included:

        <bullet> Avoiding interference with the ongoing damage control 
        efforts required to keep U.S.S. Cole afloat.
        <bullet> Significant security and logistical issues in Aden 
        Harbor.
        <bullet> Avoiding interference with the FBI investigation.
        <bullet> Knowledge that there was a DOD inquiry planned, which 
        would review the issues external to the ship.

    Finally, the scope of the JAGMAN investigation was limited to 
examining the actions of the ship's crew before, during, and following 
the attack. Although the type of JAGMAN investigation warranted for the 
U.S.S. Cole incident was Vice Admiral Moore's decision, he consulted 
with me prior to making that decision. Given the limited scope of the 
investigation and considering all the pertinent circumstances, I 
concurred with Vice Admiral Moore's decision.

            failure to implement required security measures
    5. Senator Warner. Admiral Clark, you stated that it was correct 
that the Cole's commanding officer did not deem it appropriate to 
implement all of the security measures that he was responsible for 
executing. Were these measures discretionary?
    Admiral Clark. Threat condition measures set the minimum force 
protection requirements for all combatant and non-combatant ships. They 
are not situation specific and some of the measures may not apply to 
specific operating environments. We rely on the judgment of individual 
commanding officers to determine those elements necessary to best 
protect his crew based on the location and the threat information 
available to him. Commanding officers must, however, notify higher 
authority if they believe it is imprudent or impossible to complete 
specific force protection measures.

    accountability of other commands/responsibility for cole safety
    6. Senator Warner. Admiral Clark, in your endorsement to the 
investigation, you noted that separate action will be taken to assess 
the accountability of others in the chain of command. Which individuals 
or commands are you referring to specifically?
    Admiral Clark. I was referring generally to personnel senior in the 
chain of command to the Commanding Officer of U.S.S. Cole. This 
included Commander, Task Force Five Zero and Commander, Fifth Fleet/
Commander, Naval Forces, U.S. Central Command.


    7. Senator Warner. Admiral Clark, by what method has/will this 
accountability be assessed?
    Admiral Clark. This assessment was completed on January 19, 2001, 
by then-Secretary of Defense Cohen. On January 9, 2001, Secretary Cohen 
directed the Chairman of the Joint Chiefs of Staff to provide his 
``assessment of operational and administrative matters associated with 
[the U.S.S. Cole] incident, including issues of accountability, as well 
as any other matter you deem appropriate.'' On January 19, 2001, after 
receiving General Shelton's advice, Secretary Cohen, in both a written 
memorandum and a briefing, identified the shared accountability of the 
entire chain of command, including myself, the Secretary of the Navy, 
the Chairman of the Joint Chiefs of Staff, and himself.

         assessment of damage control equipment and procedures
    8. Senator Warner. Admiral Clark, as part of his review of the 
JAGMAN, Admiral Natter, CINCLANT Fleet, directed an assessment of the 
Cole damage control equipment and procedures. It is my understanding 
that the fleet has not received damage control lessons learned report 
from the Navy. Why is this taking so long? Weren't there any 
``quicklook'' results that could have been shared with the fleet by 
now?
    Admiral Clark. Damage control assessments were conducted as part of 
the initial JAGMAN, interviews by the Afloat Training Group (ATG) 
Atlantic and the follow on detailed ship assessment through March 2001. 
The information from those assessments have been incorporated in a more 
extensive overall lessons learned briefing that has been given to 
members of the U.S.S. Cole, COMDESRON 22, and other CO's of his 
squadron, COMNAVSURFLANT and members of his staff, members of the 
CINCLANTFLT staff and the senior Navy leadership. A classified lessons 
learned message to the fleet is scheduled for release in the early July 
timeframe. Specific DC lessons learned have been incorporated into ATG 
DC training, SWOS PCO/PXO, Department Head, Division Officer and DCA 
curriculums, and is being included in the Senior Enlisted DC school 
curriculum.

            force protection/antiterrorist equipment funding
    9. Senator Warner. Admiral Clark, feedback from naval units in 
Norfolk indicate that only 40 percent of the required funding is being 
provided for the additional force protection and antiterrorist 
equipment they are now required to buy in the wake of the Cole attack. 
The committee has been told that the balance of the required funding is 
being taken out of ship maintenance funds, which is causing deferral of 
required repairs. How is the Navy planning to pay for the additional 
force protection equipment and provide additional personnel for the 
requirements that have been levied since the terrorist act against the 
U.S.S. Cole?
    Admiral Clark. The Navy's Antiterrorism Force Protection Task Force 
provided input to Office of the Secretary of Defense requesting 
additional funding for fiscal years 2001 and 2002 force protection 
improvements based on the Commission's recommendations. The Department 
of Defense requested supplemental funding for fiscal year 2001, which 
included a portion of the Navy's force protection request. Pending 
availability of supplemental appropriations, the Navy is funding many 
force protection initiatives with below threshold reprogramming, 
however ship maintenance funds have not been used to satisfy these 
requirements
    Because we have been able to retain more personnel that we 
originally had envisioned, we have been able to meet our additional 
personnel requirements.

                      confusion with threat levels
    10. Senator Warner. General Shelton, the Crouch-Gehman Commission 
report discussed the confusion caused by the terms ``threat level'' and 
``THREATCON,'' and also expressed concern over varying threat levels 
that can be declared within the same country by different agencies. Are 
you satisfied that all forward deployed forces and transiting units now 
have unambiguous knowledge of the threat level in their specific 
location and destination and clearly understand the minimum force 
protection measures they need to implement to ensure the safety of 
their units?
    General Shelton. With regard to confusion between ``threat level'' 
and ``threat condition'' terminology, brought to light by the Crouch-
Gehman Commission, the Secretary of Defense has approved changing the 
term ``threat condition'' to ``force protection condition.'' This 
recent change has been promulgated in the 14 June 2001 revision to DOD 
Instruction 2000.16, ``Antiterrorism Program Standards.''
    With regard to the issue of setting threat levels, as you are 
aware, the Defense Intelligence Agency (DIA) has overall responsibility 
for setting threat levels worldwide. Combatant commanders with 
geographic responsibilities also have responsibility for setting the 
threat levels within their areas of responsibility. CINCs have the 
authority to increase the threat level set by DIA, but not lower it. 
The Crouch-Gehman Commission recommended that the CINCs have overall 
responsibility for setting threat levels and DIA have a supporting 
role. This was one of the very few recommendations that I did not agree 
with, and after careful review with the Office of the Secretary of 
Defense staff and CINCs, we decided not to implement the Commission 
recommendation.
    CINC and component staffs are redoubling their efforts to remove 
ambiguity at the unit level over threat levels and ``force protection 
conditions.'' I am satisfied with their current level of effort.

                     force protection improvements
    11. Senator Warner. General Shelton, in your prepared statement, 
you highlight actions various regional commanders in chief have taken 
to enhance force protection, situational awareness, and antiterrorism. 
For example, you mention Country Vulnerability Assessment Teams in 
CENTCOM and an in-transit tracking cell in EUCOM. Obviously, each 
geographic region has unique circumstances and requirements, but I am 
concerned about appropriate uniformity of effort worldwide. Are you 
satisfied that relevant, theater-level force protection support for 
deployed forces is being implemented in a timely, comprehensive manner 
worldwide? Is Joint Forces Command developing the appropriate doctrine 
and training standards for deploying forces?
    General Shelton. First, I am satisfied that the Department of 
Defense is ensuring antiterrorism/force protection ``unity of effort'' 
worldwide. Back in 1996, concerns over unity of effort following the 
Khobar Towers bombing led to my designation as ``principal advisor and 
focal point to the Secretary of Defense for all DOD AT/FP issues,'' and 
the establishment of the Combating Terrorism Deputy Directorate within 
the Joint Staff. Recently, the Secretary of Defense consolidated policy 
and resource/programmatic responsibilities under one Assistant 
Secretary of Defense office. Also, formal DOD guidance in designating 
antiterrorism duties and responsibilities and our promulgation of 
antiterrorism program standards underscore our concern for maintaining 
unity of effort. Most recently, our responses to Crouch-Gehman 
Commission recommendations were implemented after close coordination, 
Department-wide, and following consensus on the appropriate corrective 
action.
    Second, with regard to your specific concern about doctrine and 
training, the Secretary of Defense has directed the Services to develop 
and resource credible deterrence standards, deterrence-specific 
tactics, techniques, and procedures and defensive equipment packages 
for all forms of transiting forces. Additionally SecDef directed the 
Services to ensure that predeployment training regimes include 
deterrence tactics, techniques, and procedures and antiterrorism/force 
protection measures specific to the area of operation. DOD Instruction 
2000.16, ``Antiterrorism Program Standards,'' 14 June 01, revision 
directs Service compliance. With regard to Joint Forces Command force 
protection initiatives, USJFCOM's Joint Warfighting Center has 
incorporated force protection issues in joint exercises, ``Capstone'' 
senior leader courses, and Joint Task Force Headquarters Training. 
Additionally, USJFCOM is working in concert with the Services to 
elevate the priority of antiterrorism/force protection training within 
our joint training programs.

            uscentcom/problems with no headquarters in aor 
    12. Senator Warner. General Shelton, unlike other regional 
commands, CENTCOM's headquarters and joint intelligence center are not 
located in or near the area of operations. Does the lack of a robust 
permanent Joint Task Force or Theater Command Element forward hamper 
effective force protection/antiterrorism support to deployed or 
transiting forces in CENTCOM's AOR?
    General Shelton. In my view, not having USCENTCOM's headquarters in 
its area of responsibility does not adversely affect the CINC's ability 
to maintain adequate antiterrorism/force protection support to his 
forces. We have come a long way in our command, control, and 
communication capability, and all of USCINCCENT's component commanders 
are either located within the area of responsibility or have forward 
elements in theater.

                    additional intelligence support
    13. Senator Warner. General Shelton and Admiral Clark, the Crouch-
Gehman Commission specifically recommended an increase in the number of 
counterintelligence and counter-surveillance assets available to 
component commanders to conduct vulnerability assessments, and to 
provide in-transit augmentation for transiting units. Have the Services 
authorized and manned additional CI/CS assets in support of component 
commanders? Have any host nations objected to advance visits or 
vulnerability assessments of transit facilities?
    General Shelton. As the Crouch-Gehman Commission accurately pointed 
out, we must better tailor intelligence to our in-transit units and 
improve our counterintelligence capability, including human 
intelligence and signals intelligence. The Secretary of Defense has 
requested intelligence agency input regarding this recommendation, to 
include, if required, options for reprioritizing intelligence support. 
With regard to human and signals intelligence, we are constantly 
reviewing the allocation of these important and scarce resources and 
have already completed some reallocation. For the longer term, the 
Intelligence Program Review Group will be reviewing and validating the 
need for additional capability. The review will be completed in the 
next few months. The CINCs are concurrently reviewing ways to better 
tailor intelligence within their areas of responsibility.
    We have had some objections by host nations to certain sensitive 
areas being looked at by our country vulnerability assessment teams. 
However, in most cases we have not encountered objections.
    Admiral Clark. Yes. The Naval Criminal Investigative Service (NCIS) 
has deployed additional counterintelligence and countersurveillance 
(CI/CS) assets to overseas commands in support of ongoing fleet 
operations. In addition, NCIS is in the process of adding additional 
permanent billets to overseas theaters. These billets are designated to 
provide up to the minute situational awareness to arriving naval units. 
They conduct liaison with local authorities in addition to their own 
CI/CS responsibilities.
    No host nation has denied a naval advance team visit or 
vulnerability assessment. In fact, most host nations have been very 
cooperative with U.S. efforts to enhance our required security. There 
have been occasional discrepancies and miscommunications in this 
process. However in every case, we have been able to work through the 
issues and accomplish our objectives.

                    force protection staff increases
    14. Senator Warner. General Shelton, after-action reviews revealed 
force protection duties at U.S. Navy Central Command were additional 
duties for assigned operational personnel. The Crouch-Gehman Commission 
recommended that component commanders have full-time force protection 
staffs. Do component commanders in high-risk areas now have full-time 
force protection staffs? When do you expect this recommendation to be 
fully implemented?
    General Shelton. This important issue involving full-time 
antiterrorism officers and staffs is being worked aggressively by DOD. 
The revised DOD Instruction 2000.16, ``Antiterrorism Program 
Standards,'' reissued 14 June 2001, now mandates that all component 
commands employ antiterrorism officers full time. Approximately 80 
percent of component command staffs currently have full-time AT 
officers. The Office of the Secretary of Defense, Joint Staff, and 
Services have formed a working group to address the remaining AT 
officer manning shortfalls and to develop a methodology to assist the 
Services in meeting this new requirement to man these important 
billets.

                       security assessment teams
    15. Senator Warner. General Shelton, you currently have six Joint 
Staff Integrated Vulnerability Assessment Teams to assess 
antiterrorism/force protection readiness. Is this an adequate number of 
teams to properly carry out this critical mission? Do the six current 
teams have any funding or personnel shortfalls?
    General Shelton. The Defense Threat Reduction Agency (DTRA), the 
Joint Staff's ``field agent'' for funding and staffing Joint Staff 
Integrated Vulnerability Assessment (JSIVA) teams, has no funding or 
personnel shortfalls. In fact, DTRA was recently successful in hiring 
two additional personnel with weapons of mass destruction expertise, 
thereby expanding the breadth of JSIVA capability.

                conduct of accountability investigation
    16. Senator Warner. General Shelton and Admiral Clark, earlier 
incidents in the Central Command--such as the attacks involving the 
Stark and the Vincennes--were investigated through the operational 
chain of command. I note that the recent accident on the training range 
in Kuwait is also being investigated through the operational chain of 
command--i.e. CENTCOM. Why was the decision made in the case of Cole to 
have accountability/disciplinary matters investigated through the 
Service, rather than the operational chain?
    General Shelton. As a matter of historical perspective, I would 
like to note that there is no written directive with application to 
unified commanders concerning the conduct of investigations into 
incidents such as the U.S.S. Cole and Udairi Range. In addition, 
USCENTCOM reviewed investigations into previous incidents both in the 
Central Command area of responsibility and other regions. From that 
review USCENTCOM determined that there is no set practice for 
investigations that include both Service and joint entities. The 
investigation included Khobar Towers, Secretary of Defense-appointed 
Downing Commission; Stark and Vincennes, USCINCCENT convened; Marine 
Barracks, Lebanon, Secretary of Defense-convened commission; Black 
Hawks, Secretary of Defense-directed USCINCEUR to investigate 
(USCINCEUR delegated to U.S. Air Forces Europe); U.S.S. Saratoga, U.S. 
Navy and SIXTH FLEET; U.S.S. Iwo Jima, convened by U.S. Navy 
(Commander, Naval Surface Forces, Atlantic (although the incident 
occurred in Bahrain)); U.S.S. Iowa, U.S. Navy (incident occurred in the 
Caribbean); USAF plane crash in Croatia of plane carrying Secretary Ron 
Brown, USAF; Cavalese cable car, USMC (incident occurred in Italy with 
NATO implications).
    As U.S. Naval Forces, Central Command (USNAVCENT) is located in the 
theater, and as the U.S.S. Cole incident involved only naval forces, 
the determination was made that USNAVCENT should proceed to investigate 
Cole. Because of Bahrain's proximity to Yemen, Vice Admiral Moore was 
able to have an investigation team on site in about 12 hours from the 
time of the incident.
    By comparison, the Udairi Range incident occurred on a bombing 
range used for joint and combined training and involved U.S. Navy, U.S. 
Air Force, U.S. Army, and U.S. Special Forces, as well as Kuwait and 
New Zealand forces. For this reason, USCINCCENT decided to convene the 
investigation. At USCINCCENT's direction, Lt. Gen. DeLong, Deputy 
Commander in Chief, U.S. Central Command, coordinated with the involved 
Services to put together a joint and combined investigating team that 
included the appropriate mix of specialties and Kuwait and New Zealand 
participation. The report of investigation was forwarded to USCENTCOM 
component commanders to take action with regard to recommendations 
contained therein.
    Admiral Clark. The purpose of the JAGMAN was to investigate the 
actions of the crew before and during their brief stop for fuel in 
Yemen. With the exception of the initial decision to use Yemen as a 
fueling port, the entire focus of the JAGMAN was on the Navy crew's 
actions. Through conversations with Commander in Chief, U.S. Central 
Command, it was determined that the Navy was in the best position to 
conduct an investigation into the actions taken by the ship's crew. The 
Crouch-Gehman report addressed the issues outside the lifelines of 
Cole.
    The Udairi Range bombing mishap, on the other hand, occurred during 
a joint/combined exercise under the Unified Commander's authority. 
Navy, Army, Air Force, as well as Kuwaiti and New Zealand forces were 
involved in that mishap. Consequently, it was more appropriate for the 
operational chain of command to investigate the Udairi Range mishap.
                                 ______
                                 
             Questions Submitted by Senator Strom Thurmond
                           maintaining focus 
    17. Senator Thurmond. General Shelton, I congratulate you on your 
timely response to the Crouch-Gehman Commission recommendations. 
Although your actions will certainly improve the security of our 
forces, I am concerned that as time passes there will again be 
relaxation of security measures. How do you maintain a constant state 
of heightened security awareness?
    General Shelton. Maintaining a reasonable and constant state of 
security awareness and avoiding what I refer to as the ``sine wave 
effect,'' where antiterrorism awareness increases after an incident 
then diminishes over time, is one of the DOD Antiterrorism Program's 
most difficult challenges. Accordingly, Antiterrorism Program standards 
specifically address requirements to maintain AT awareness. 
Antiterrorism awareness is also a key assessment focus of our Joint 
Staff Integrated Vulnerability Assessment Program. A key component of 
our antiterrorism training program includes mandatory, periodic 
awareness training for all DOD personnel and for all dependents over 
the age of 14 years old on overseas assignments. Our AT training 
program also includes formal seminars to our most senior DOD leadership 
to ensure proper awareness and support at the highest levels. Also, I 
personally encourage commanders at all levels to promote antiterrorism 
awareness when I address them at conferences and other venues. As I 
have stated many times including in my written statement before this 
committee, it's not a matter of ``if'' but ``when'' the next terrorist 
attack will occur; therefore, we must remain vigilant.

                         antiterrorism funding
    18. Senator Thurmond. General Shelton, you indicate that in fiscal 
year 2001, the Department increased antiterrorism funding from $100 
million to $3.5 billion. Do you anticipate that this level of funding 
will be sustained over a period of time or was this a one-time 
increase?
    General Shelton. In fiscal year 2001, we expect $3.5 billion is 
being spent on AT across the DOD, an increase of $100 million over the 
$3.4 billion spent in fiscal year 2000. For fiscal year 2002, while we 
do not yet know the specific dollar amount, we anticipate it will be 
greater than the fiscal year 2001 amount. We expect this level of 
funding will be sustained over time.

                            assessment teams
    19. Senator Thurmond. General Shelton, I have been told that your 
Vulnerability Assessment Teams do a great job in identifying 
vulnerabilities and offering suggestions on how to improve security. 
However, when it comes time to implement the improvements, the 
organization, which is already fiscally constrained, may not be able to 
fully comply with the recommendations. What are the funding mechanisms 
to support these security improvements?
    General Shelton. The Department of Defense has two primary funding 
mechanisms available to fund security improvements.
    The first funding mechanism is the Combating Terrorism Readiness 
Initiative Fund. The Combating Terrorism Readiness Initiative Fund 
resources emergent and emergency antiterrorism requirements that cannot 
wait for the normal Service Program Objective Memorandum process. The 
Chairman of the Joint Chiefs of Staff manages this fund and only 
combatant commands are eligible to receive funding from it. We now 
allow the fund to not only cover initial purchase of emergent 
requirements but to also include associated ``next year'' maintenance 
funding until the Services can assume maintenance responsibility for 
follow-on years through the normal budget process.
    The second funding mechanism is the normal budget process. The 
Joint Staff (J-34), in conjunction with Office of the Secretary of 
Defense, staff elements having resource and program oversight, reviews 
the adequacy of resources proposed by the Services and DOD agencies to 
meet DOD AT/FP objectives. Concerns are brought to my attention 
(Chairman of the Joint Chiefs of Staff) for discussion with the 
Secretary of Defense.
    Last year, the Department approved a resource prioritization and 
justification process to enable the Services to work more closely with 
the CINCs and the Office of the Secretary of Defense/Joint Staff to 
identify high-priority requirements to fund programs critical to AT/FP 
preparation and response. The goal is to have interaction early to 
better support Service program development and consider the CINCs' 
important unfunded requirements.

                          flow of information
    20. Senator Thurmond. General Robertson, one of the concerns 
repeatedly raised is that commanders are flooded with information 
regarding threats and they have a difficult time determining the real 
threat. How do you avoid this problem within your command?
    General Robertson. Senator Thurmond, let me first thank you for 
your support for the women and men of United States Transportation 
Command and for your superb leadership in the United States Senate as 
President Pro Tempore.
    The global nature of our transportation mission challenges us to 
provide the right information to just the right people, but it is a 
challenge we actively engage. Geographic Commanders in Chief (CINC) 
coordinate antiterrorist matters with us as a functional command. My 
responsibility as a functional Commander in Chief is to initiate timely 
coordination of these matters with the geographic CINC to assure my 
commanders have the right information to support decision-making. It is 
through this coordination that we work to avoid ``flooding'' commanders 
with information. Well-established and effective command and control 
procedures minimize potential confusion.
    Our Joint Intelligence Center-Transportation (JICTRANS) and our 
Counterintelligence Staff Office (CISO) dedicate a great deal of energy 
to reviewing threat data for potential impact on USTRANSCOM operations, 
paying special attention to any resources transiting areas presenting 
potential threats. We engage with our component commands to work these 
issues, and coordinate as necessary with the responsible geographic 
CINC's Force Protection infrastructure. Always cognizant of the 
potential for information overload, we limit the information shared to 
that with direct application, while taking care not to apply too strong 
a filter and perhaps withhold vital information. We rely heavily on the 
geographic CINC's organizations to share the most current data with us.
    Air Mobility Command (AMC) operates a robust Threat Working Group 
(TWG) to support their assets in transit from one geographic region to 
another. On a daily basis, the AMC TWG weighs planned missions against 
the known threats and makes risk assessment recommendations to 
commanders--everything from continuing business as normal, to 
temporarily halting the airflow in specific geographic areas.
    Since Military Sealift Command (MSC) and Military Traffic 
Management Command (MTMC) do not have robust intelligence 
organizations, we put special emphasis on reviewing threat data for 
them. Our USTRANSCOM intelligence, counterintelligence, and force 
protection elements coordinate with counterparts within the geographic 
CINCs to ensure relevant threats are recognized and understood.
    Since the Cole tragedy, a number of initiatives are underway to 
strengthen already established relationships between our component 
commanders, their supporting intelligence and counterintelligence 
agencies, and counterparts in the geographic CINCs. Constant awareness 
of the vulnerability of our global transportation resources mitigates 
against the threat.

                         changes in operations
    21. Senator Thurmond. General Robertson, since the tragic attack on 
the U.S.S. Cole, what operational changes have you made in the steaming 
schedule for our preposition ships? It seems to me that these high 
dollar vessels are lucrative targets for any sea borne terrorist.
    General Robertson. Senator Thurmond, I am reminded of a quote by a 
20th century American philosopher, ``Those who cannot remember the past 
are doomed to repeat it.'' George Santyana, 1905. Rest assured, United 
States Transportation Command embraces the lessons of history . . . our 
force protection plans cover our entire force from our most agile 
aircraft to our prepositioned assets.
    I agree with you that our preposition ships are high-value assets 
and do not dispute their potential for becoming a lucrative target. To 
ensure these ships do not become easy targets, we have exploited (and 
will continue to exploit) the mobility inherent in sea borne forces so 
that we routinely keep these ships in low-threat areas or augment their 
defenses when a mission requires them in a higher threat area.
    Since the attack on U.S.S. Cole, preposition ships have received 
increased attention to integrate force protection into their 
operational employment. Specifically, four operational changes can be 
identified. First, some ships were re-positioned within their assigned 
areas of responsibility away from higher-threat areas. Second, despite 
increasing cost by 15-20 percent, some in port maintenance periods have 
been re-scheduled to lower-threat areas. Third, some port visits have 
been canceled or postponed until the information to support a proper 
risk assessment is available. Finally, the risk-management procedures 
implemented via in port security plans (submitted by the ships and 
involving their operational chain-of-command for approval) have been 
emphasized and reinforced.

                     maintaining security awareness
    22. Senator Thurmond. Admiral Clark, you indicate that the Navy is 
dedicated to instilling an antiterrorist and force protection mindset 
in every one of your sailors. We all know that the difficult task will 
be to maintain such a mindset; what are your plans to continually 
reinforce this concern?
    Admiral Clark. We have made antiterrorism/force protection (AT/FP) 
a daily part of every sailor's life. We have developed a new warfare 
doctrine publication and prepared standardized tactics and doctrine for 
combating terrorism. We conduct training at every level, from the 
individual sailor to the entire battle group. Every individual is 
required to receive Level One AT/FP training on a reoccurring basis. 
Every command is required to have an AT/FP officer who has been through 
advanced training and is certified to provide Level One training to his 
or her command. Commanding and executive officers receive intense AT/FP 
training during their training pipelines. We will be requiring 
individual commands to report AT/FP readiness status on their Status of 
Readiness and Training reports. Ships are required to meet immediate 
superior in command-based AT/FP standards of readiness and demonstrate 
them as an individual unit and as a part of a battle group during pre-
deployment operations. Individually manned watches are receiving more 
intense weapons training as well as improved equipment and oversight to 
better enable them and increase the level of vigilance. These are all 
elements that have been incorporated in the training and operational 
continuum to reinforce and demonstrate the importance of AT/FP in the 
Navy. The overall goal is to instill a sea change in the mindset of the 
individual sailor and be better prepared to meet this continuing 
threat.

                         personnel augmentation
    23. Senator Thurmond. Admiral Clark, although I applaud your action 
to increase your permanent security billets by 2,000 personnel, I 
wonder what other areas will be understaffed to provide these 
additional personnel. Is this a matter of robbing Peter to pay Paul and 
as a result is this impacting readiness in other areas?
    Admiral Clark. Congressional support coupled with the Navy's 
initiatives has resulted in higher retention. This additional strength 
has lowered gaps at sea by 15-20 percent, increased manning of critical 
skills, and improved overall Navy personnel readiness. The increase in 
security billets also contributed to higher end strength, which, 
although exceeding the fiscal year 2001 end strength authorization, 
remains within the 1 percent flexibility allowed by law. Consequently, 
the Navy will be seeking relief through a supplemental appropriation 
and/or reprogramming to support additional end strength for fiscal year 
2001.

                          impact on operations
    24. Senator Thurmond. Admiral Clark, how have the changes you have 
implemented in response to the U.S.S. Cole attack impacted your mission 
accomplishment both in terms of funding and timeliness of operations?
    Admiral Clark. The new minimum AT/FP requirements I have placed on 
the Navy have been costly. It has required the fleets to purchase new 
equipment, such as non-lethal technologies and patrol boats. We have 
placed greater training requirements on our sailors, including advanced 
exercises and drills during the pre-deployment workup cycle. The Navy 
has not received additional funding earmarked for AT/FP to fund these 
initiatives. Money has been reprogrammed, often at the cost of 
alternative programs. Fortunately, we have managed to implement this 
new security baseline without affecting the timeliness of our 
operations. We continue to deploy all of our assets on schedule to meet 
national security requirements.
                                 ______
                                 
               Questions Submitted by Senator Jim Bunning
                   funding force protection measures
    25. Senator Bunning. General Shelton, are you planning on 
requesting additional funds in the budget to implement improved force 
protection measures, and if so, how much?
    General Shelton. In fiscal year 2000, approximately $3.4 billion 
was spent on antiterrorism across the Department of Defense. 
Approximately 90 percent of the budget funds manpower (military, 
civilian, and contract personnel). The remaining funding is associated 
with physical security items. In fiscal year 2001, it is expected that 
$3.5 billion is being spent on AT across the DOD, an increase of $100 
million. For fiscal year 2002, while we do not yet know the specific 
dollar amount, we anticipate it will be greater than the fiscal year 
2001 amount.


    26. Senator Bunning. General Shelton, the Commission Report 
recommended increasing the Chairman of the Joint Chiefs of Staff 
Combating Terrorism Readiness Initiative Fund. Would that increase 
include funds to allow upgrade of a ship's close-in weapons system to 
give it the ability to target and destroy close-in surface craft and 
slow flying aircraft?
    General Shelton. The Combating Terrorism Readiness Initiative Fund 
(CbT RIF) resources emergent and emergency antiterrorism requirements 
that cannot wait for the normal Service Program Objective Memorandum 
process. The Chairman of the Joint Chiefs of Staff manages this fund 
and only combatant commands are eligible to receive funding from it.
    We also, now, allow the fund to not only cover initial purchase of 
emergent requirements, but to also include associated ``next year'' 
maintenance funding until the Services can assume maintenance 
responsibility for follow-on years through the normal budget process.
    The Vulcan Phalanx Close-In Weapon System (CIWS), however, is a 
Navy-sponsored weapon system program, and therefore upgrades and 
modifications to that system would not qualify for CbT RIF funding.


                           engagement policy
    27. Senator Bunning. General Shelton, it has been stated that one 
of the reasons Cole was refueling in Aden was part of a policy of 
engagement with Yemen. It is my understanding that this policy was 
begun after coordinating with the State Department. Was the State 
Department the primary advocate for this engagement policy?
    General Shelton. In 1997, Central Command viewed engagement with 
Yemen as a stabilizing opportunity for regional security. In 1998, the 
U.S. State Department removed Yemen from its list of state sponsors of 
terrorism. Once off the list, USCINCCENT made a decision to increase 
engagement with Yemen. The U.S. Ambassador to Yemen also encouraged 
U.S. military assistance in improving relations with Yemen.


    28. Senator Bunning. General Shelton, were the risks to U.S. forces 
considered when formulating this plan of engagement, and was the 
viability of this plan reevaluated when the threat to our troops 
increased?
    General Shelton. Risks to U.S. forces are a primary factor when 
formulating and executing engagement plans. Engagement activities are 
always carefully reevaluated when the threats to our troops increase.

                       close-in force protection
    29. Senator Bunning. Admiral Clark, currently, Navy ships do not 
have an automatic, stabilized weapons system capable of destroying 
close-in surface craft or slow flying aircraft. This would not have 
made a difference in the case of the U.S.S. Cole where identification 
of the threat was the issue, but easily could in other circumstances. 
Do you intend to add funds to the Navy's budget request for a weapon 
system capable of this kind of close-in force protection to address 
this deficiency? If not, why not?
    Admiral Clark. Navy ships employ a multi-layer ship self defense 
capability. This layered defense includes the 5,, Gun system which can 
engage contacts out to 11 miles, the Rolling Airframe Missile with the 
Helo Air Surface mode (to be fielded in fiscal year 2002), the CIWS 
Block 1B and other similar systems, and small caliber guns.
    The Navy is evaluating ways to improve close-in self defense 
capability including the CIWS block 1B which would be an upgrade to the 
over 350 CIWS mounts in the U.S. fleet, and the Mk 46 30mm chain gun 
which is being installed on the LPD 17 class. All of the options are 
fiscally constrained and will be evaluated in the overall funding 
priority as established by the Nation's leadership.


                          jagman investigation
    30. Senator Bunning. Admiral Clark, the original investigation into 
the Cole attack was a one-man, JAGMAN investigation. This is an 
administrative fact-finding procedure. In the aftermath of the attack, 
while the crew was still fighting to save the ship, it made sense to 
immediately send one man to conduct an investigation, to ensure that 
perishable information would not be lost in the confusion. However, 
there is only so much one man can do. Some of the major results of this 
JAGMAN were disapproved by the chain of command. There is disagreement 
over whether some of the defensive measures, required under the ship's 
force protection plan, but which were not taken, may have prevented the 
incident. Why has there not been a follow-up Board of Inquiry or Court 
of Inquiry to have a more thorough review of what happened?
    Admiral Clark. The JAGMAN investigation was a very thorough 
inquiry. It clearly documented all the pertinent facts before, during, 
and following the attack. The investigation gave the entire chain of 
command all of the information required to assess accountability and 
make the necessary decisions subsequent to the investigation. 
Regardless of the type of investigation, subsequent endorsers sometimes 
disagree with the investigating body's findings of fact, opinions, or 
recommendations. In this instance, there was no disagreement on the 
central findings of fact.


    31. Senator Bunning. Admiral Clark, the JAGMAN investigation, in 
addition to faulting members of U.S.S. Cole's crew, also singled out 
the Cole's higher headquarters as having reviewed the ship's force 
protection plan in a perfunctory manner. Why has there not been any 
investigation to determine accountability at command levels above that 
of the ship?
    Admiral Clark. Such an accountability assessment was completed on 
January 19, 2001, by then-Secretary of Defense Cohen. On January 9, 
2001, then-Secretary of Defense Cohen directed General Shelton, the 
Chairman of the Joint Chiefs of Staff, to provide his ``assessment of 
operational and administrative matters associated with [the U.S.S. 
Cole] incident, including issues of accountability, as well as any 
other matter you deem appropriate.'' On January 19, 2001, after 
receiving General Shelton's advice, Secretary Cohen, in both a written 
memorandum and a briefing, identified the shared accountability of the 
entire chain of command, including myself, the Secretary of the Navy, 
the Chairman of the Joint Chiefs of Staff, and himself.
                                 ______
                                 
               Questions Submitted by Senator Carl Levin
                              small units
    32. Senator Levin. General Shelton, in your prepared statement you 
state that ``Our goal is not only to reduce the exposure of our in-
transit ships and planes--a shortcoming exposed by the bombing of 
U.S.S. Cole--but to ensure our antiterrorism/force protection program 
remains dynamic, thus reducing our vulnerability to terrorists. In 
addition to ships and planes, we also have small units, mainly Army 
special operations and Navy SEALs, that not only transit several 
countries but perform operations like demining and conduct training, 
often in remote areas of host nations.'' Are you satisfied that 
appropriate attention is being paid to the force protection of those 
small units?
    General Shelton. The Cole attack and subsequent Crouch-Gehman 
Commission increased our awareness to the potential vulnerabilities of 
all our in-transit units, including the special operations units you 
mention. I am comfortable with the level of attention given to these 
smaller units and I am confident their force protection needs will not 
be overlooked. To cite just one example, we require deployment orders 
for these smaller units to contain force protection requirements and 
verify their force protection support before orders are approved.

                     where was the chain of command?
    33. Senator Levin. General Shelton, U.S.S. Cole was on deployment 
in Central Command's geographic area of responsibility, under the 
operational command of Central Command's naval component commander, 
operating under the threat condition set by Central Command and under 
force protection measures set out in Joint Pub 3-07.2. Nevertheless 
Central Command did not convene or review the investigation into the 
attack on U.S.S. Cole.
    By contrast, I recall the investigation into the incident in 1989 
in which U.S.S. Vincennes mistakenly and tragically shot down an 
Iranian Airbus was convened by Central Command staff, reviewed by CINC 
Central Command, who decided to issue a non-punitive letter to an 
officer on the ship, and routed to the Secretary of Defense via the 
Chairman of the Joint Chiefs of Staff. Additionally, the recently 
completed investigation into the live fire incident at the bombing 
range in Kuwait was convened and reviewed by CINC Central Command.
    Why didn't Central Command convene and review the investigation 
into the terrorist attack on U.S.S. Cole?
    General Shelton. As a matter of historical perspective, I would 
like to note that there is no written directive with application to 
unified commanders concerning the conduct of investigations into 
incidents such as the U.S.S. Cole and Udairi Range. In addition, 
USCENTCOM reviewed investigations into previous incidents both in the 
Central Command area of responsibility and other regions. From that 
review USCENTCOM determined that there is no set practice for 
investigations that include both Service and joint entities. The 
investigation included Khobar Towers, Secretary of Defense-appointed 
Downing Commission; Stark and Vincennes, USCINCCENT convened; Marine 
Barracks, Lebanon, Secretary of Defense-convened commission; Black 
Hawks, Secretary of Defense-directed USCINCEUR to investigate 
(USCINCEUR delegated to U.S. Air Forces Europe); U.S.S. Saratoga, U.S. 
Navy and SIXTH FLEET; U.S.S. Iwo Jima, convened by U.S. Navy 
(Commander, Naval Surface Forces, Atlantic (although the incident 
occurred in Bahrain)); U.S.S. Iowa, U.S. Navy (incident occurred in the 
Caribbean); USAF plane crash in Croatia of plane carrying Secretary Ron 
Brown, USAF; Cavalese cable car, USMC (incident occurred in Italy with 
NATO implications).
    As U.S. Naval Forces, Central Command (USNAVCENT) is located in the 
theater, and as the U.S.S. Cole incident involved only naval forces, 
the determination was made that USNAVCENT should proceed to investigate 
Cole. Because of Bahrain's proximity to Yemen, Vice Admiral Moore was 
able to have an investigation team on site in about 12 hours from the 
time of the incident.
    By comparison, the Udairi Range incident occurred on a bombing 
range used for joint and combined training and involved U.S. Navy, U.S. 
Air Force, U.S. Army, and U.S. Special Forces, as well as Kuwait and 
New Zealand forces. For this reason, USCINCCENT decided to convene the 
investigation. At USCINCCENT's direction, Lt. Gen. DeLong, Deputy 
Commander in Chief, U.S. Central Command, coordinated with the involved 
Services to put together a joint and combined investigating team that 
included the appropriate mix of specialties and Kuwait and New Zealand 
participation. The report of investigation was forwarded to USCENTCOM 
component commanders to take action with regard to recommendations 
contained therein.

         one osd office with policy and resource responsibility
    34. Senator Levin. General Shelton, you note in your prepared 
statement that you have recommended, pursuant to a recommendation of 
the Crouch-Gehman Commission, that the Office of the Secretary of 
Defense align antiterrorism policy and resource responsibility under an 
OSD office. As a matter of fact, that recommendation dovetails nicely 
with a requirement in section 901 of the National Defense Authorization 
Act for Fiscal Year 2001 that requires the Secretary of Defense to 
designate an Assistant Secretary of Defense to have the duty to provide 
overall direction and supervision for policy, program planning and 
execution, and allocation and use of resources for combating terrorism. 
Has Secretary Rumsfeld acted on your recommendation?
    General Shelton. The Secretary of Defense has officially directed 
that antiterrorism policy and resource responsibility be consolidated 
under the Office of the Assistant Secretary of Defense for Special 
Operations and Low-Intensity Conflict.

               enhance host-nation security capabilities 
    35. Senator Levin. General Shelton, the Crouch-Gehman Commission 
recommended an interagency, coordinated effort to develop an approach 
whereby host-nation security responsibilities could be enhanced so that 
it could provide better security for transiting U.S. units. General 
Crouch and Admiral Gehman told us that they had in mind international 
military education and training and increased security assistance for 
host nation security forces for this purpose. Of course those areas are 
not within the jurisdiction of this committee and not under the control 
of the Department of Defense. Can you tell us if such an interagency 
effort is underway to try to bring this about?
    General Shelton. An interagency effort is underway, led by the 
Office of the Assistant Secretary of Defense for Special Operations and 
Low-Intensity Conflict (ASD(SO/LIC)). ASD(SO/LIC) has already formed a 
working group with membership from the Department of State and Joint 
Staff. The purpose of the working group is to initially develop lines 
of communication between DOD and DOS to facilitate resolution of 
antiterrorism issues and with a longer-range goal of enhancing host-
nation security capabilities.

             component commanders' or cincs' responsibility
    36. Senator Levin. General Shelton, the Crouch-Gehman Commission 
recommended the component commanders be given the responsibility and 
resources to direct tailored force protection measures to be 
implemented at specific sites for in-transit units. In the Downing 
Report on the bombing of Khobar Towers in June 1996, General Downing 
criticized the assignment of such responsibilities to the component 
commanders, all but one of whom were and are located thousands of miles 
away from the area, and recommended that operational control of all 
combatant forces operating in the Gulf region be assigned to one 
headquarters. What is your view of the proper assignment of this 
responsibility?
    General Shelton. At the core of the recommendation from the Crouch-
Gehman Commission was to place the responsibility of oversight for in-
transit force protection with the command that has the cultural 
perspective, historical background, intimate knowledge, intimate 
knowledge of the area of operations, access both raw and fused 
intelligence--with analytical support, and adequate command and 
control. In their review, the Crouch-Gehman Commission found that, in 
most cases, the lowest level that that authority should reside was the 
Component Commander.
    What was changed since the Khobar Towers bombing is that we have 
more clearly defined command relationships in the area of 
responsibility, installed better command and control equipment and 
facilities, and increased our capacity worldwide to access intelligence 
information near real-time from remote locations. These improvements 
support the Crouch-Gehman recommendation to push the force protection 
oversight back to the component command in this area of responsibility.
    Each combatant command with geographic responsibilities and several 
functional combatant commands maintain robust force protection 
directorates which are in constant contact with their components. They 
perform the day-to-day administration of the overall force protection 
program throughout their areas of responsibility. Rarely will a force 
protection decision be made without first contacting the unified 
commander. In a sense, we have implemented both the recommendation of 
the Downing Commission and Crouch-Gehman Commission.

                     uavs for explosives detection
    37. Senator Levin. Admiral Clark, we have seen press reports that 
indicate the Navy is considering the use of miniature unmanned aerial 
vehicles (so-called ``Micro UAVs'') to detect the presence of 
explosives at distances from vessels sufficient to prevent terrorists 
from repeating a Cole-type attack. Is this report true?
    Admiral Clark. Among the priority capabilities that fleet operators 
have requested is the ability to detect explosives at a standoff 
distance. In response to these requests, the Office of Naval Research 
(ONR) recently held a scientific experts' workshop to evaluate the 
current state of research in standoff detection of explosives. The 
focus of the workshop was to evaluate both potential sensor 
technologies to support this objective, as well as to review potential 
deployment methods for these sensors. The workshop was well-attended by 
government, industry, and academic researchers with current involvement 
in explosives detection and related efforts.
    With respect to sensor technologies, the workshop resulted in an 
assessment that, while there are some worthwhile technologies to 
pursue, there is no currently available device that could reliably 
perform standoff explosive detection. Because of the critical need for 
this technology, ONR will maintain a heightened awareness of government 
and industry sponsored research efforts in this area, and will provide 
guidance and resourcing, where appropriate, for standoff explosives 
detection.
    With respect to deployment, a small unmanned aerial vehicle (UAV) 
would be evaluated as an option if a reliable sensor becomes available. 
ONR plans to provide a launch and recovery system, a command and 
display system, and two UAVs to 5th Fleet this summer for 
experimentation on ways to provide better tactical information.


    38. Senator Levin. Admiral Clark, do you have other technology 
approaches in mind in your efforts to solve this force protection 
problem?
    Admiral Clark. The Navy is investigating alternative technologies 
to better equip the fleet for dealing with the terrorist problem. These 
technologies encompass a wide range of capabilities including sensors, 
data fusion, non-lethal deterrents, security barriers, and protective 
materials.

    39. Senator Levin. General Shelton, are you aware of any other 
Services or a Department-wide effort to enable our forces to be able to 
detect the presence of explosives at tactically significant distances?
    General Shelton. I am not aware of efforts to develop explosive 
detection devices with the capability to detect the presence of 
explosives at tactically significant distances, including use of 
unmanned aerial vehicle (UAV) technology for this purpose. However, 
efforts are underway to increase explosive detection distance. Also, 
our technology focus in this area includes use of ``backscatter'' X-
ray-type technology and ``ion-sniffer'' technology. Also, military 
working dogs with explosive detection capability remain one of our best 
detection capabilities.
    Because present technology limits explosive device detection 
ranges, detection capabilities are utilized in conjunction with 
perimeter security and access control to ensure potential bomb-carrying 
vehicles and personnel are inspected at safe distances from personnel 
and buildings.


             command investigation versus court of inquiry
    40. Senator Levin. Admiral Clark, the Manual of the Judge Advocate 
General calls for the use of a court of inquiry or board of inquiry for 
the investigation of a major incident. Major incident is defined as 
``an extraordinary incident occurring during the course of official 
duties resulting in multiple deaths, substantial property loss, or 
substantial harm to the environment where the circumstances suggest a 
significant departure from the expected level of professionalism, 
leadership, judgment, communication, state of material readiness, or 
other relevant standard. Substantial property loss or other harm is 
that which greatly exceeds what is normally encountered in the course 
of day-to-day operations. These cases are often accompanied by national 
public and press interest and significant congressional attention. They 
may also have the potential of undermining public confidence in the 
naval service. That the case is a major incident may be apparent when 
it is first reported or as additional facts become known.''
    The call for the use of a more formal type of administrative 
investigation and the addition of a definition of ``major incident'' 
were occasioned by the criticism directed at the Navy over the failings 
of the investigation into the explosion on board U.S.S. Iowa in 1989.
    Why wasn't a court or board of inquiry convened to inquire into the 
attack on U.S.S. Cole?
    Admiral Clark. Although this tragedy was a major incident, the 
Manual of the Judge Advocate General leaves discretion to the cognizant 
Commander to determine the type of inquiry warranted in a specific 
case. In this case, after carefully considering all the pertinent 
circumstances, Commander, U.S. Naval Forces Central Command, Vice 
Admiral Moore determined that a single-officer Command Investigation, 
rather than a Board or Court of Inquiry, was warranted.


     41. Senator Levin. Admiral Clark, what was the justification for 
the use of command investigation?
    Admiral Clark. The factors weighing in favor of a single-officer 
Command Investigation included:

        <bullet> Avoiding interference with the ongoing damage control 
        efforts required to keep U.S.S. Cole afloat.
        <bullet> Significant security and logistical issues in Aden 
        Harbor.
        <bullet> Avoiding interference with the FBI investigation.
        <bullet> Knowledge that there was a DOD inquiry planned, which 
        would review the issues external to the ship.
        <bullet> The scope of the investigation was limited to 
        examining the actions of the ship's crew before, during, and 
        following the attack.


    42. Senator Levin. Admiral Clark, at what level of command was the 
decision made to conduct a command investigation into the attack and at 
what level was that decision reviewed?
    Admiral Clark. Although the type of Manual of the Judge Advocate 
General investigation warranted for the U.S.S. Cole incident was Vice 
Admiral Moore's decision, he consulted with me prior to making that 
decision. Given the limited scope of the investigation and considering 
all the pertinent circumstances, I believed that convening a single-
officer Command Investigation was a good decision and I concurred with 
Vice Admiral Moore's decision.
                                 ______
                                 
            Questions Submitted by Senator Mary L. Landrieu
                     force protection as a priority
    43. Senator Landrieu. General Shelton and Admiral Clark, since the 
attack I have heard the Department of Defense leadership, including 
some of you, make some very interesting public statements. I've heard 
``force protection is a primary mission of every commander, we have 
prioritized funding and training to address force protection'' and most 
recently ``with AT/FP serving as a priority focus of every mission, 
activity, and event'' in the second paragraph of Admiral Clark's 
prepared testimony today. I am very concerned about the message being 
sent to the commanders in the field. I've talked to many of them--most 
recently just 2 weeks ago when I visited Barksdale Air Force Base. They 
tell me that they keep getting conflicting messages from their 
leadership as to what their priorities are. They tell me they have been 
told to make safety, retention, quality of life, force protection, 
community engagement, fiscal responsibility, and oh yes, mission 
accomplishment a priority. I'm here to tell you that can't be done.
    I looked up the definition of the word ``priority'' in my Webster's 
dictionary and this is what I found: PRIORITY, (1) superiority in rank, 
position, or privilege; (2) a preferential rating, especially, one that 
allocates rights to goods and services usually in limited supply; (3) 
something given or meriting attention before competing alternatives.
    I am disturbed by the fact that what commanders in the field--your 
subordinates--are hearing from their leadership is that every crisis or 
concern is to be made a priority, that their superiors are concerned 
about those issues and that they will be evaluated on their ability to 
comply.
    Even worse is the concept that ``force protection is a primary 
mission.'' If that's true, the best thing we can do is just keep our 
forces in garrison where they can be protected. The mission can be many 
things. It can be combat, presence, regional engagement, or even 
training, but it cannot be ``force protection.'' Force protection is an 
implied task of every unit--just like feeding and housing the troops, 
but it is most assuredly not a mission. I would like you to discuss for 
the record exactly what your expectations are with regards to force 
protection and address what actions if any, you intend to take to try 
to resolve this prioritization problem among your subordinates.
    General Shelton. Let me begin by saying that my top priority as the 
Chairman of the Joint Chiefs of Staff is and always will be ``mission 
accomplishment,'' followed immediately by ``taking care of our  
people.'' The issues of safety, retention, quality of life, community 
engagement, fiscal responsibility, and force protection, which you 
mention, are important means of achieving mission accomplishment and/or 
taking care of our people.
    Our commanders are charged with the important responsibilities for 
mission accomplishment and for the well-being of their people. 
Ultimately, it is the inherent responsibility of those commanders to 
set priorities on how to best discharge those responsibilities. There 
cannot be only one list of priorities.
    It is the responsibility of the commanders' operational and 
administrative chains of command to ensure that commanders have the 
necessary support, fiscal and otherwise, to accomplish the mission and 
take care of their people.
    With regard to the specific points raised about force protection, I 
agree completely with your view. Force protection is not, and cannot be 
the mission. Force protection enables our forces to complete their 
missions. I have stated in this forum and others that we cannot allow 
force protection to become the mission and cannot yield to a ``zero 
casualty'' mentality. 
    Admiral Clark. Force protection is not a mission area in itself: it 
a mission enabler. Antiterrorism/force protection is a core competency 
that must be integrated into everything we do. Shortly after becoming 
the Chief of Naval Operations, I addressed a message to every member of 
the service where I stated my top priorities: manpower, current 
readiness, future readiness, quality of service, and alignment. Those 
priorities have not changed and should be clear to all commanders and 
sailors. Force protection certainly falls within the priority of 
readiness and it is by no means a new concept. Force protection applies 
to every naval activity, be it the conduct of war on the high seas, or 
in the execution of a port visit in a foreign country, or the planning 
of a command holiday party in a public setting. The welfare of our men 
and women in uniform will always be my top priority, regardless of the 
ever-changing nature and scope of the many missions that we ask them to 
do.

                          systematic problems
    44. Senator Landrieu. General Shelton and Admiral Clark, I have 
reviewed your prepared testimony, the Crouch-Gehman report, and the 
Cole JAGMAN and I remain troubled. In briefings here on the Hill and in 
press conferences we've heard comments about systemic failures and that 
the entire chain of command contributed to the Cole tragedy. Despite 
that, I can't clearly determine what was done wrong that let the attack 
slip through. Given the intelligence we had at the time, where was the 
breakdown?
    General Shelton, in your testimony you address implementation of 
the Crouch-Gehman recommendations. If the exact same attack were 
attempted today (and we had intelligence no different from what we had 
last October) would it succeed? Why or why not? 
    General Shelton. The Cole Commission revealed that there was no 
threat intelligence available to indicate that an attack was imminent 
or that the threat had increased. Our intelligence did indicate the 
presence of a threat capable of large-scale attacks and the threat 
level in Aden, Yemen, at the time of the attack was ``significant.''
    The Cole Commission underscored the need for our intelligence 
community to refocus and tailor its resources, including human 
intelligence and signals intelligence, to mitigate the terrorist threat 
for in-transit units and offered important recommendations. The Office 
of the Secretary of Defense and the Joint Staff are aggressively acting 
upon all those recommendations.
    In the case of U.S.S. Cole, terrorists were able to exploit 
perimeter security and access control vulnerabilities associated with 
waterside approaches to our ship while in port. Without adequate 
perimeter security and access control, commanders may be unable to 
determine hostile intent or a hostile act with sufficient time to 
react.
    Since the Cole attack, in the higher threat areas, we have 
mitigated perimeter security and access control vulnerabilities through 
use of U.S. military organic capability and host-nation support. While 
our efforts cannot guarantee that a similar attack will not be 
attempted in the future, our enhanced capability will better enable our 
commanders to determine hostile intent in sufficient time to take 
appropriate action. In situations where in-transit unit security is not 
adequate, as determined by the operational chain of command, visits are 
disapproved.
    Admiral Clark. The breakdown that allowed the attack on U.S.S. Cole 
can be divided into two areas. The first is a breakdown in our 
intelligence system. We did not have a clear and unambiguous warning 
that this attack would occur. The only way to get this type of warning 
is to expand our intelligence collection efforts and that is being 
carried out. Second, ships in the port of Aden were expected to carry 
out THREATCON Bravo measures based on the perceived threat. In 
hindsight we can see where there were gaps in the implementation of our 
THREATCON Bravo measures. The determination of the Navy's JAGMAN 
investigation was that even had all of the THREATCON measures been 
fully implemented, it is doubtful that the attack could have been 
averted. The threat measures were adequate to meet the threat, but not 
the tactics employed to properly execute these measures in the case of 
a waterborne attack.


    45. Senator Landrieu. Admiral Clark, do you agree with General 
Shelton's comments?
    Admiral Clark. We have greatly improved our tactics to prevent this 
form of attack from happening. The defense-in-depth concept allows 
commanders to better evaluate potential hostile contacts by designating 
concentric zones of assessment and threat. We have new technology to 
enable increased detection ability. We have improved the commanders' 
situational awareness and fostered greater host nation support and 
cooperation concerning port and base security. We are working to 
improve our intelligence collection ability. We have written new 
tactics and procedures and increased training to improve our force 
protection awareness and procedures. Our goal is to ensure the same 
type of attack would not succeed and we feel we have taken measures to 
ensure it does not.

                          rules of engagement
    46. Senator Landrieu. Admiral Clark, one issue that was largely 
ignored by the press in the wake of the Cole attack is the subject of 
Rules of Engagement (ROE). Of course, ever since the attack on U.S.S. 
Stark our policy has been quite public--commanders have the authority 
and obligation to take defensive action against any unit that commits a 
hostile act or demonstrates hostile intent. I realize that there are 
classified modifications to that basic ROE, but they are not germane to 
my question. My understanding is that our current ROE and policy in the 
Middle East is to be generally ``de-escalatory,'' to prevent straining 
relationships with our friends in the region and to preclude a tragedy 
like the Vincennes incident or the downing of the Army Blackhawk 
helicopters. Given that policy and ROE, if a ship today was faced with 
what the Cole faced last year, would they be able to engage the boat? 
If so, what has changed that permits engagement?
    Admiral Clark. When the Crouch-Gehman Commission reviewed ROE, they 
determined the existing rules were adequate. Therefore, we have made no 
changes to the ROE. The real problem becomes determining the existence 
of hostile intent. The new procedures that we have implemented since 
the attack on U.S.S. Cole are intended to provide the crew with the 
ability to determine both the means and the intent of a unit that 
possesses the ability to conduct such an attack. The layering of 
defensive zones will allow us to approach, identify, and inspect 
suspect vessels to locate the means (bomb, biological hazard, etc). 
Furthermore, the use of escalating levels of non-lethal technology and 
weapons will also allow us to determine intent, while complying with 
the requirement to meet the threat with proportional force. The Navy is 
in the process of equipping its units with these state-of-the-art non-
lethal technologies. The U.S.S. Cole did not have the advantage of 
being able to rely on these new tactics, techniques, and procedures.


    47. Senator Landrieu. Admiral Clark, is it likely that ship would 
prevent a determined attack by a suicidal terrorist? Why?
    Admiral Clark. An understanding of the terrorist's intent is 
essential. Suicide bombers are willing to die only in a successful 
attack. To die in an unsuccessful attack is not acceptable. We also 
know terrorist units conduct extensive pre-operational surveillance 
looking for potential seams to exploit. We continue to work to plug 
identified seams. We now possess a very visible and viable defense to 
deter potential aggressors from a future attack. Equally important, we 
have given our sailors the tools and training to successfully defend 
against a pending attack. While a terrorist attack is always possible, 
our new security baseline is designed to make a future attack like that 
on U.S.S. Cole unlikely.

                          navy security forces
    48. Senator Landrieu. Admiral Clark, in your testimony you say that 
you are converting collateral duty Master-at-Arms to full-time security 
professionals. Does this mean that additional billets will be added to 
each ship to provide each ship with additional sailors in the MAA 
rating and prevent cutting other ratings?
    Admiral Clark. Collateral duty Master-at-Arms (designated by the 
Navy Enlisted Classification Code (NEC) 9545) are personnel serving 
primarily in sea-intensive ratings but who are assigned to shore duty 
to security-type billets. Personnel in the Master-at-Arms rating are 
full-time security professionals. In an effort to establish a viable 
full-time professional force, given heightened global force protection 
requirements, we are expanding our full-time security force. This is 
being accomplished both through conversion of personnel possessing the 
9545 NEC to the Master-at-Arms, and through recruitment into the 
Master-at-Arms rating upon initial enlistment.
    Additional billets will not be added to each ship. The force 
protection mission is designed to support our ships when in port 
(Mobile Harbor Security Protection), at home and abroad, thereby 
detailing security professionals to shore and overseas shore billets.

            antiterrorism/force protection (at/fp) equipment
    49. Senator Landrieu. Admiral Clark, in your testimony you detail 
the AT/FP equipment all deploying units have received and mention some 
technology equipment that was tested in Quantico and Dahlgren. Do ships 
deploying today receive any equipment that is different than what the 
Cole deployed with? If so, what equipment?
    Admiral Clark. In response to lessons learned from U.S.S. Cole, the 
currently deployed Enterprise Carrier Battle Group (CVBG) and Kearsarge 
Amphibious Readiness Group (ARG) were outfitted with additional 
Allowance Equipage List (AEL) items to meet short-term antiterrorism/
force protection requirements. These include: inflatable boats/motors, 
portable generators, waterline security lighting, waterside markers, 
warning signs and tape, marine hailers, vehicle inspection equipment, 
tire spike sets, plastic/water-filled vehicle barriers and tents for 
fleet landings, mobile x-ray units, additional hand-held radios, hand-
held and weapons-mounted tactical lights, walk-through metal detectors, 
and waterside video surveillance systems. In addition, we have 
increased the number of small arms and minor caliber weapons that each 
ship and submarine carries, and provided for rigid hull inflatable boat 
improvements.


    50. Senator Landrieu. Admiral Clark, has any of this new technology 
been selected for deployment to the fleet? If so, what equipment and 
how much will it cost to equip every ship?
    Admiral Clark. At present, none of the new technology equipment 
being evaluated at the Naval Operations Other Than War Technology 
Center at Dahlgren has been selected for procurement. Evaluation of 
promising new equipment continues, along with developing related 
tactics, techniques, and procedures for integration with legacy current 
shipboard antiterrorism/force protection sensor and engagement systems. 
To fill gaps in fielding new technology to the fleet, other short-term 
initiatives are being pursued. For example, night vision device 
upgrades and high-intensity hand-held spotlights with night vision 
capability ($8 million) and hands-free encrypted radios and protected 
voice portable communication systems ($10 million) have recently been 
evaluated and are being procured for deploying forces in fiscal year 
2001. Additional equipment, such as explosive ion detectors, will be 
added to the current carrier battle group/amphibious ready group 
Allowance Equipage List outfitting as soon as the evaluation is 
complete. Outfitting all ships will require at least $8.6 million 
applied over the next few years.

                           defensive posture
    51. Senator Landrieu. All of you have testified to the fact that we 
must remain engaged around the world. I believe Admiral Clark quite 
eloquently expressed that feeling in his testimony when he said 
``Retrenchment and a bunker mentality are inappropriate and imprudent 
responses to the asymmetric threat.'' I agree with you and am on the 
record supporting our policy of engagement. It's the cost of doing 
business if we are to remain a superpower. With that in mind, I have a 
few questions.
    General Shelton, my understanding is that several port visits have 
been canceled since last October because the host nation security 
support was deemed to be inadequate. Is this correct? If so are we then 
putting force protection and that ``bunker mentality'' ahead of the 
engagement mission?
    General Shelton. Immediately after the Cole attack last October, a 
number of ship visits were, in fact, canceled because the available 
force protection, including security assistance by the host nations, 
was determined to be inadequate for the level of threat.
    In USCENTCOM, visits to all ports except Jebel Ali, United Arab 
Emirates, and Mina Sulman, Bahrain, were canceled until port 
vulnerability assessments could be conducted (Jebel Ali and Mina Sulman 
were previously determined by USCINCCENT to have adequate security). In 
USEUCOM several visits, including port visits to Naples, Italy, were 
canceled until port assessments could be completed. We have had several 
instances where we have canceled port visits due to potential terrorist 
threats and lack of host nation security. In the case of port visits 
canceled due to a lack of adequate security, I view this as an 
education process with the host nation--lack of awareness of the new 
measures we require to be implemented, and the seriousness with which 
we take force protection. Port visits eventually resumed for all 
locations where it was determined that overall security was adequate 
for the level of threat. This action, however, should not be confused 
with a ``bunker mentality.'' Our servicemen and women will always be at 
some level of risk to terrorist attack because of the nature of their 
missions in support of our national interests. It is the responsibility 
of DOD leadership, however, to ensure everything possible is done to 
ensure their safety, and to mitigate the risks to them, including those 
posed by terrorists.


    52. Senator Landrieu. General Robertson, my staff informs me that 
MSC ships, because of their civilian crews, are not required nor able 
to comply with the same force protection measures and policies as Navy 
ships. Is this true, and I believe it is, how do you justify the fact 
that MSC ships have far less security and far less restrictive security 
measures in everything from liberty regulations (including the buddy 
system and overnight liberty policy) to security force requirements?
    Admiral Clark, would you comment on this as well?
    General Robertson. You bring up an important area of concern of 
mine . . . protecting my civilian mariner partners. The differences in 
force protection measures and policies between civilian-crewed MSC 
ships and Navy ships with military crews are due primarily to legal 
considerations inherent with the civilian crews. Coordinated, Navy-wide 
force protection policies and measures that accommodate these 
differences have been developed; MSC ships comply with these policies 
and measures as a matter of routine.
    For example, MSC mariners who are government employees comply with 
liberty regulations (buddy system and overnight liberty policy) along 
with their military counterparts in the Navy. This is possible because 
MSC has negotiated agreements with unions representing civil-service 
mariners to impose liberty restrictions without penalty (cost to the 
government). MSC-contracted mariners who are not government employees 
are not obligated to comply with such liberty regulations. Cost-
effective contract terms are being investigated with the various 
operating companies and unions involved.
    MSC ships are unarmed with the exception of a modest complement of 
small arms for a minimum of five qualified crewmembers. The civilian 
mariners (whether government or contractor employees) that operate MSC 
ships (whether government-owned or contractor-owned) are not members of 
the Armed Forces or Federal law enforcement. Accordingly, MSC civilian 
mariners are not governed by military Status of Forces Agreements and 
are restricted in use of deadly force to protect human life only and 
are not permitted to use deadly force solely for the protection or 
security of property. In accordance with their civilian status, 
civilian mariners may not be protected by Status of Forces rules of 
engagement or the Uniform Code of Military Justice (UCMJ). The small 
crew size of MSC ships generally precludes the tasking of crewmembers 
for full-time security duties without impacting their primary mission 
(cargo operations, etc.). Accordingly, operational commanders augment 
MSC ships when, in their judgment, additional security measures are 
required.
    Due to the Navy/DOD-wide ``teamwork'' approach to security 
described above, security for MSC ships cannot be isolated, compared, 
and characterized as ``less'' or ``less restrictive.'' Civilian-crewed 
ships bring great efficiencies to the Navy and allow resources--
particularly military manpower--to be allocated more efficiently and 
effectively. The Navy has and will continue to coordinate the 
capabilities and limitations of civilian-crewed ships within the 
overall operations of Navy and DOD.
    Admiral Clark. The differences in force protection measures and 
policies between civilian-crewed Military Sealift Command (MSC) ships 
and Navy ships with military crews are due primarily to legal 
considerations inherent with the civilian crews. Coordinated, Navy-wide 
force protection policies and measures that accommodate these 
differences have been developed MSC ships comply with these policies 
and measures as a matter of routine.
    For example, MSC mariners who are government employees comply with 
liberty regulations (buddy system and overnight liberty policy) along 
with their military counterparts in the Navy. This is possible because 
MSC has negotiated agreements with unions representing civil-service 
mariners to impose liberty restrictions without penalty (cost to the 
government). MSC-contracted mariners who are not government employees 
are not obligated to comply with such liberty regulations. Cost-
effective contract terms are being investigated with the various 
operating companies and unions involved.
    MSC ships are unarmed with the exception of a modest complement of 
small arms for a minimum of five qualified crewmembers. The civilian 
mariners (whether government or contractor employees) that operate MSC 
ships (whether government-owned or contractor-owned) are not members of 
the Armed Forces or Federal law enforcement. Accordingly, MSC civilian 
mariners are restricted in use of deadly force to protect human life 
only and are not permitted to use deadly force solely for the 
protection or security of property. In accordance with their civilian 
status, civilian mariners may not be protected by Status of Forces 
Agreements and are not governed by military rules of engagement or the 
Uniform Code of Military Justice. The small crew size of MSC ships 
generally precludes the tasking of crewmembers for full-time security 
duties without impacting their primary mission (cargo operations, 
etc.). Accordingly, operational commanders augment MSC ships when, in 
their judgment, additional security measures are required.
    Due to the Navy and Department of Defense-wide ``teamwork'' 
approach to security described above, security for MSC ships cannot be 
isolated, compared, and characterized as ``less'' or ``less 
restrictive.'' Civilian-crewed ships bring great efficiencies to the 
Navy and allow resources-particularly military manpower--to be 
allocated most efficiently and effectively. The Navy has and will 
continue to coordinate the capabilities and limitations of civilian-
crewed ships within the overall operations of Navy and DOD.

    [Whereupon, at 11:53 a.m., the committee adjourned.]

                                 <all>

</pre></body></html>
